<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009 

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens presiding.
    Present: Senators Leahy, Dorgan, Durbin, Mikulski, Murray, 
Stevens, Cochran, Domenici, and Bond.

                         DEPARTMENT OF DEFENSE

                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF 
            AND COMMANDING, UNITED STATES ARMY RESERVE

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Gentlemen and ladies, the chairman will 
not be here for a while and may not be here at all this 
morning. I want to put his statement in the record and welcome 
all of you, the chiefs of the Reserve components who will 
testify before us on the status of the Reserve components.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today the Subcommittee meets to receive testimony on the 
fiscal year 2009 budget requests for the National Guard and 
Reserve components. From the Reserve we welcome: Chief of the 
Army Reserve, General Jack Stultz; Chief of the Naval Reserve, 
Admiral John Cotton; Commander of the Marine Forces Reserve, 
General John Bergman; and Chief of the Air Force Reserve, 
General John Bradley. And from the National Guard we are 
pleased to have: Chief of the National Guard Bureau, General 
Steven Blum; Vice Chief of the Army National Guard, General 
Clyde Vaughn; and Vice Chief of the Air National Guard, General 
Craig McKinley.
    Gentlemen, as the National Guard and Reserve components 
continue to transition from a strategic to operational reserve, 
you face significant personnel and equipment challenges. 
Currently we have thousands of guardsmen and reservists 
deployed to Iraq and Afghanistan, many of them already on their 
second tour. We are asking a great deal of these service 
members, their families, and employers. Unlike their active 
duty counterparts, they often do not have easy access to 
support services. Today we look forward to hearing what is 
being done to ease the strain through family support and 
reintegration programs.
    It is a credit to the dedication and patriotism of our 
reservists that retention levels remain strong despite the high 
operational tempo and mandated force realignments. We want to 
make sure that you have the resources required to retain these 
talented experienced service members, particularly those in 
high demand career fields. We are pleased to see that 
recruiting has improved for the Air National Guard, and Army 
and Navy Reserves, although we are concerned that many of the 
components face shortfalls in high demand, critical skill 
specialties. We hope to hear today what you are doing to 
continue to attract quality recruits.
    Equipment shortages are another ongoing challenge, 
particularly now that more pre-deployment training is being 
done at home station. While the Subcommittee is pleased to see 
that the Army has dramatically increased procurement requests 
for the Guard and Reserve, existing equipment levels remain a 
concern. We want to ensure that you have the equipment you need 
for training and operations at home and abroad.
    Gentlemen, I look forward to hearing your perspective on 
these issues and your recommendations for strengthening our 
forces during this demanding time. I thank you for your 
testimony this morning.

    Senator Stevens. General Stultz, it is good to see you with 
us again today.
    I understand, Admiral Cotton, this will be your last 
appearance, retiring now after 34 years in the service. We are 
grateful for your service to our country and appreciate all you 
have been able to accomplish to enhance the Reserve components.
    General Bergman, I understand you also will retire now 
after 38 years.
    General Bergman. Yes, sir.
    Senator Stevens. We wish you also the best and sincerely 
appreciate your service to the country.
    And General Bradley, you are retiring after 41 years. It 
has been a pleasure working with you, particularly these last 
few years. I will never forget the F-22s coming in to 
Elmendorf. It was really a great day for us.
    General Bradley. Thank you, Senator Stevens.
    Senator Stevens. I wish you continued success in your 
future.
    The Reserve components have changed drastically since 
September 11, 2001. It has been remarkable how quickly you all 
have been able to transition from what was purely a strategic 
reserve force to an operational one. The total force concept is 
working. I know there are many challenges that still remain as 
the active components rebalance and reset. I am confident that 
you will point your respective services in the right direction 
to fully support the missions that will be presented to you in 
the future. We thank you all for your service and look forward 
to the testimony today.
    As I said, I will put the chairman's statement in the 
record.
    I would call on Senator Leahy.
    Senator Leahy. I will be coming back and I will yield to 
Senator Mikulski. I have to go to a Judiciary matter, but I 
will be back.
    I also echo the comments to Admiral Cotton and the others. 
You have a tremendous lineup here. I know these gentlemen. Of 
course, I know their service as well. I think it is a credit to 
all of us that they are willing to serve and serve so well.
    Senator Stevens. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, in the interest of time, I 
do not have an opening statement. I want to welcome, of course, 
our leadership and look forward to hearing the needs that they 
face in order to fulfill the mission and look forward to it and 
thank them for being here.
    Senator Stevens. Thank you.
    Gentlemen, all of your statements will be put in full in 
the record. We appreciate whatever comments you want to make 
this morning. General Stultz, we will call on you first, 
please.

                    INTRODUCTION OF RESERVE SOLDIERS

    General Stultz. Yes, sir. Mr. Chairman, Senator Mikulski, 
thank you for giving us the opportunity to come and talk to you 
today. As you indicated, I have submitted my statement for the 
record.
    Rather than taking time to make any further opening 
comments, what I did want to do today, sir, is to introduce a 
couple of people that I brought along with me. One, my command 
Sergeant Major, Leon Caffe, the senior enlisted soldier for the 
Army Reserve representing our 200,000 soldiers, who is here 
with me.
    But also I wanted to introduce two great soldiers, just to 
give you a flavor of the quality of what we have got in the 
Reserve components today.
    The first gentleman I have got is Captain Joe Webster. Joe? 
Joe is an Army Reserve soldier. He is a lawyer here in 
Washington, DC, a partner in a firm that handles Indian affairs 
throughout this Nation, very well known.
    What is unique about Joe, though, is in 1990-91, Joe was in 
school at Purdue University, stopped his education, joined the 
Army Reserve, and deployed for Desert Storm as a legal clerk, 
specialist 4, legal clerk. He came back after 1990-91, went 
back to Purdue, finished his undergraduate, went to George 
Washington University here in Washington, DC, and got his law 
degree, and became a very successful partner in a law firm here 
in Washington, DC.
    After 9/11, Joe said, I need to go serve my country again. 
So he joined the Army Reserve again, got into one of our legal 
units. He deployed last year and was in Iraq for the entire 
year last year serving General Odierno of the Multinational 
Corps Iraq on his legal staff handling legal matters. He is a 
true representative of what this Nation is all about: 
individuals that are willing to put their careers, put their 
lives on hold, leave their families, and risk their lives to go 
and serve their Nation on a volunteer basis.
    The other soldier I have with me is Master Sergeant Marie 
Brooks. Sergeant Brooks again represents what this Nation is 
all about. You see, Sergeant Brooks' father is retired 
military. Sergeant Brooks is one of our master sergeants in the 
Army Reserve. Her son is an active duty soldier also, currently 
stationed in Germany as a medic. Three generations of soldiers 
in that family. Sergeant Brooks is a chaplain's assistant for 
us.
    She deployed to Kuwait and Iraq in 2003 as part of a 
medical command, serving as a chaplain's assistant, and 
provided chapel services throughout the theater when we were 
short chaplain officers, as the NCO Corps does, steps up, makes 
it happen, and she was conducting seven different types of 
services at Camp Arifjan Kuwait to service all the soldiers, 
about 20,000-some soldiers that were there to provide religious 
support, counseling, whatever the need while she was deployed 
for that year in 2003.
    She now works also for us helping assist at the Officer 
Candidate School at Fort Benning, Georgia on a regular basis.

                           PREPARED STATEMENT

    But these are two great soldiers, sir, that I just wanted 
to introduce, have the opportunity to talk about what quality 
we have, what dedication we have in our Reserve components.
    I look forward to your questions, sir. Thank you.
    Senator Stevens. Thank you very much. Captain Webster, 
Master Sergeant Brooks, we welcome you and thank you for your 
service.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack C. Stultz
                              introduction
    Chairman Inouye, Senator Stevens, members of the Senate 
Appropriations Defense Subcommittee, thank you for calling this hearing 
on the fiscal year 2009 budget for our Reserve components. As you know, 
after September 11th, the Nation's Reserve components were challenged 
to evolve from a strategic force in reserve to an operational force 
that is constantly deployed. It literally happened overnight. And now 
during the seventh year of this persistent conflict, demand for Army 
Reserve warrior citizens is such that between 25 and 30,000 Army 
Reserve soldiers are mobilized at any given time in the United States 
and in 18 other nations around the globe.
    Last month the Army Reserve celebrated its 100th anniversary. 
During our centennial celebration, soldiers from every State took the 
oath of re-enlistment here on Capitol Hill; committing to at least 
another 2 years of service to our Nation in the Army Reserve. When the 
Medical Reserve Corps originated on April 23, 1908 with 160 civilian 
physicians, it was unforeseen that 100 years later 12 to 15 percent of 
our force would be fully engaged in theater an operational force 
providing key capabilities to the Army.
    We continue to meet our mission because our soldiers are committed 
to serve the Nation, even as we undergo dynamic institutional and 
operational changes that challenge our state of readiness. And like the 
Active Component, the Army Reserve is a force that is out of balance 
but we are not broken. Historically, the Army Reserve has been a cost-
effective, value-added force as evidenced by what we accomplished with 
the fiscal year 2007 budget Congress appropriated to us. That budget 
request of $6.9 billion represented only 3.1 percent of the total Army 
budget, yet we:
  --Mobilized more than 30,400 warrior citizens;
  --Recruited 39,055 soldiers;
  --Retained 19,727 soldiers (119 percent of our retention goals);
  --Launched the Army Reserve Warrior and Family Assistance Center;
  --Accelerated reorganization of the entire Army Reserve Training 
        Structure;
  --Executed two major warrior exercises involving more than 8,000 
        soldiers;
  --Moved 6,700 pieces of unit equipment to regional training centers;
  --Aligned 78 percent of our strength into operational and deployable 
        forces;
  --Overhauled 4,139 pieces of equipment in the $144 million depot 
        maintenance program;
  --Fielded more than 17,000 items of equipment;
  --Increased our aviation force structure by two Blackhawk companies;
  --Activated and deployed the 316th Expeditionary Support Command--the 
        primary logistics command supporting multinational forces in 
        Iraq;
  --Activated the 11th Theater Aviation Command;
  --Activated or converted 386 organizations to new modular structure;
  --Initiated the disestablishment of 12 Regional Readiness Commands;
  --Initiated the establishment of 4 Regional Support Commands and 11 
        Operational Commands;
  --Commissioned two water vessels; and,
  --Initiated 23 BRAC and military construction projects.
    More than 193,900 warrior citizens have mobilized since 9/11; they 
represent America's best and brightest. Our soldiers, their families 
and employers; however, are experiencing an operational tempo unlike 
their comrades in arms who served before them. As you know, earlier 
this year, the report released by the Commission on the National Guard 
and Reserves concluded that the Nation will continue to rely on the 
Reserve components as part of an operational force for missions at home 
and abroad. To accomplish this, the report concluded, reforms are 
needed to ensure the readiness of the Reserve components and to ensure 
our feasibility and sustainability over the long term.
    To achieve our goal of transforming from a strategic force in 
reserve to an integrated, operational force, the Army Reserve relies on 
continued support from Congress via fiscal and supplemental budgets. 
Today, even though our mission has increased, our funding has not moved 
significantly beyond resource levels of the Cold War. Our fiscal year 
2008 budget request of $7.1 billion represents 4 percent of the Army 
base budget. We are grateful for your support, our state of readiness 
relies on it, but our readiness is also impacted by our transformation, 
the operational tempo, the stress on our soldiers, their families and 
employers, and the state of our equipment. All challenges we continue 
to address.
                                overview
    I am here to discuss the President's budget request for fiscal year 
2009 and what it means to the Army Reserve. I will separate the budget 
request in to three categories, Reserve Personnel, Army (RPA); 
Operation and Maintenance, Army Reserve (OMAR); and Military 
Construction, Army Reserve, (MCAR).
    In an environment of scarce human resources, RPA appropriations are 
vital for the Army Reserve to maintain our readiness by recruiting and 
retaining warrior citizens. The RPA appropriation increased 6 percent 
to $3.9 billion which includes $321 million for recruiting and 
retention bonuses. These bonuses are critical to the Army Reserve to 
sustain our effort to exceed our end strength of 205,000 soldiers. For 
the first time in the 35 years since the birth of our all-volunteer 
force, we must recruit and retain our force during a period of 
protracted war. Traditionally, the Army Reserve has not grown its own 
force. We have relied on soldiers who came off Active duty, but that's 
not happening any more. Now, our Reserve soldiers are either leaving 
the service at the end of their commitment or they are going back on 
active duty. Last year 7,107 warrior citizens transferred to the active 
Army. So while our force is contributing to the end strength of the 
Army, we impede our ability to reach our own end strength. We are short 
about 10,000 soldiers and that affects our readiness should our force 
be called to respond to another contingency at home or abroad.
    The RPA also includes $195 million for 47,000 soldiers to attend 
professional military education. These schools are essential for the 
Army Reserve to support higher occupational skill qualification rates. 
We are not only interested in recruiting Army Reserve soldiers who want 
to serve their country--we want to provide soldiers the skills to 
better themselves and to give back to their community.
    Our request for resources to increase the Active Guard Reserve end 
strength by 300 soldiers was also included in the fiscal year 2009 
budget, and we appreciate the President's support. But we must also 
rely on the fiscal year 2009 supplemental request so the Army Reserve 
can continue to evolve to a more fully integrated operational force. 
The Army Reserve has requested $80 million for additional training days 
for approximately 20,000 soldiers and another $82 million to resource 
up to 17 days of special pre-mobilization training. These funds are 
critical for the Army Reserve to properly prepare soldiers and units as 
they ready to deploy.
    As you know, the process that is driving much of our organizational 
change is the Army Force Generation or ARFORGEN model. ARFORGEN aligns 
Army Reserve units into 5-year cyclical training and force sustainment 
packages.
    Full implementation of ARFORGEN will improve our force by providing 
a predictable and rapid capability to synchronize our soldiers and 
resources with national and global mission requirements to increase 
unit readiness and provide a progression of trained, ready, and 
cohesive units. We have aligned approximately 80 percent of Army 
Reserve units into the ARFORGEN process, and we are working toward 
achieving the 4 years at home to 1 year deployed objective.
    The President's fiscal year 2009 budget request is essential to 
implementing ARFORGEN. The $2.6 billion in the budget for OMAR is a 5.8 
percent increase over fiscal year 2008 and includes $66 million to 
support Army Reserve force structure rebalancing, increased training 
events and equipment. Our rebalance will replace less-equipment 
intensive units with more equipment-intensive units resulting in an 
increase demand for fuel, parts and sustained maintenance. Resources 
for base support services to 1,100 Army Reserve activities are funded 
at $548 million, which translates to 92 percent of our essential needs 
with an increased emphasis on family programs and youth services. The 
$256 million for sustainment, restoration, and modernization in the 
President's fiscal year 2009 budget will allow the Army Reserve to 
continue to reduce our facility maintenance backlog by increasing our 
commitment to restore our facilities sustainment program worldwide to 
an adequate readiness level.
    Our operational tempo is particularly difficult on families. 
Although we recruit soldiers, we retain families. Our readiness depends 
on the ability to provide predictability to our soldiers, their 
families and employers. As with RPA resources, the Army Reserve must 
rely on the fiscal year 2008 GWOT supplemental request for OMAR funding 
to ensure we take care of soldiers and their families. Our supplemental 
request includes $22.9 million for family programs, $4.1 million for 
the strong bonds program, $13.7 million for tuition assistance, and 
$3.6 million for post deployment health reassessments. The OMAR 
supplemental request also includes $23.7 million to offset rising fuel 
costs.
    Our warrior citizens are the core of your Army Reserve. Warrior 
citizens bring maturity, experience, and civilian-acquired skills to 
the Army. In theater, you cannot tell the difference between an active 
Army soldier and our warrior citizens. However, off the battlefield, 
the demands on our warrior citizens are great; in many respects greater 
than those an active duty soldier faces. Our soldiers must balance 
civilian careers with military and family obligations; and most of our 
families do not reside near military installations. Warrior citizens 
must manage a delicate balance with employers who are often left with 
one less employee to conduct business. This balance is made the more 
challenging for our soldiers by the Army Reserve's high operational 
tempo and ongoing organizational change.
    The President's fiscal year 2009 budget request for MCAR is $281.7 
million, which will allow the Army Reserve to invest in building five 
Army Reserve centers and to modernize Army Reserve centers in four 
States. The end result will be 15 Reserve Centers supporting nearly 
5,000 warrior citizens and four training ranges. We have also built in 
minor military construction funds to address unforeseen critical needs 
or emergent mission requirements that cannot wait for the normal 
programming cycle.
    The bottom line, this persistent conflict requires the Army Reserve 
to transform from a strategic force in reserve to an operational force. 
The Army cannot sustain this operational tempo without our warrior 
citizens and their contributions to the total force.
    As the Army Reserve evolves to a more fully integrated operational 
force we recognize we cannot overlook the critical contribution 
employers make to national defense. The citizen soldier legacy is built 
on the backbone of citizens and employers sacrificing together to 
ensure our security. Employers are looking for the same skilled, 
capable, disciplined personnel we are. We can and should cooperate with 
industry in a number of ways for our mutual advantage: recruiting, 
training and developing the best and the brightest to serve. For our 
part, the Army Reserve develops discipline, soldier and leader skills 
that are valuable to employers. Working with industry we can help 
employers fill occupational specialties where there have been 
traditional shortages of personnel. While we share an employee's 
talents and skills we can surely find ways to share the cost of 
benefits to our mutual advantage.
    Last month, I was proud to launch our Employment Partnership to 
foster formal relationships between the U.S. Army Reserve and private 
sector. We signed agreements with INOVA Health Systems and the American 
Trucking Association. In the future, we hope to enter into comparable 
partnership projects with law enforcement, corrections, transportation, 
and other industry organizations leveraging Army Reserve core skill 
sets.
    To improve Army Reserve personnel readiness, we rely on continued 
support from Congress to provide stable and predictable resourcing and 
the authority for flexible management of incentives to recruit, retain, 
reassign, promote, and train our personnel.
    As the first Federal Title 10 responder to support civil 
authorities during a domestic emergency, the Army Reserve is an 
important element of the current DOD ``Lead, Support, Enable'' strategy 
for Homeland Defense and Civil Support. Unit readiness for current and 
future peacetime contingency and major combat operations at home or 
abroad requires timely, predictable personnel resourcing and a full 
complement of equipment.
    During our first 100 years, the Army Reserve repeatedly provided 
the most cost-effective Federal force to the Nation. Continued support 
with resources and authorities from Congress ensures your Army Reserve 
is ready to serve the Nation any time, any where, now and in the 
future. Thank you for the opportunity to review the impact of the 
President's fiscal year 2009 budget request for the Army Reserve. I 
look forward to your questions.
                                 ______
                                 
           United States Army Reserve 2008 Posture Statement
                                                     April 1, 2008.
    Today's Warrior Citizens serve our Nation during an era of 
persistent conflict--a role unforeseen when the Army Reserve originated 
on April 23, 1908, as the Medical Reserve Corps. One hundred sixty 
civilian physicians comprised this first strategic reserve, one that 
could be ordered by the Secretary of War to active duty during a time 
of national emergency. A century later, the U.S. Army Reserve is a 
diversified, capable, skill-rich, community-based operational force 
with an authorized end strength of 205,000 Warrior Citizens.
    Throughout our first century of service, our mission was to support 
the Army to ensure mission success, and our Soldiers served with pride 
and distinction. In the final decade of the 20th century, the Army 
Reserve was called upon to support training, coalition-building, and 
stability missions, as well as foreign and domestic contingency 
operations. At the dawn of this century, with further demands placed on 
our Nation's military after September 11, 2001, it became necessary for 
the Army Reserve to transform to a more fully operational force.
    Today, the 21st century Army Reserve Soldier is a Soldier who 
serves in an expeditionary force that is an integral part of the 
world's best Army. Yet, as we have done for the past 100 years, our 
Soldiers live and work in their civilian communities while volunteering 
to serve their Nation in the U.S. Army Reserve. In the past six years, 
190,796 Army Reserve Soldiers have mobilized and deployed in support of 
the Global War on Terror. Currently 27,143 Warrior Citizens from 
communities around the Nation are serving in Iraq, Afghanistan, and in 
18 other countries. They serve at a time when the stakes for our Nation 
and our national security are high, the demands on our force are 
significant, and the need for a strong Army is undeniable.
    As we move forward in our transformation, we are undergoing the 
most dramatic change to our force structure, training, and readiness 
since World War II. However, as we continue to transform, one thing 
does not change--the Army's reliance on our Army Reserve Warrior 
Citizens' civilian-acquired skills, skills that are critical to the 
Army's success. As a result of the continuous state of mobilization and 
a high operational tempo, the Army Reserve has experienced stress on 
our Soldiers and their units, stress on their Families, stress on their 
employers, and stress on our equipment. We have come to realize that 
while we remain a committed, professional, All-Volunteer Force, the 
Army Reserve, like the Active Component, is increasingly out of 
balance.
    To help us build capacity and increase our military effectiveness, 
we have aligned our needs into four imperatives: to sustain our 
Soldiers, their Families, and employers; to prepare our Soldiers for 
success in current operations; to reset and rebuild readiness for 
future operations; and to transform to better meet the demands of the 
21st century.
    To continue our mission for the next 100 years, the Army Reserve 
depends on adequate essential resources in the fiscal year 2009 budget 
and beyond. The firm application of the individual and collective 
skills resident with Army Reserve Warrior Citizens is essential to the 
offense, defense, and stability operations of this persistent conflict. 
Operationalizing the Army Reserve meets the needs of the Army 
Transformation guidelines and strategies and gives taxpayers confidence 
we are using their resources wisely and efficiently. We agree with the 
January 31, 2008, Commission on the National Guard and Reserves 
characterization of the Nation's Reserve Forces; ``The Reserve 
Components are this nation's insurance policy against unexpected 
events, provide a daily connection between the military and their 
civilian communities, constitute a significant pool of pre-trained 
manpower, and are well-suited for a leading role in homeland response 
activities. Their value to the nation cannot be overstated.''
    We will continue to reflect the very best of our Nation by 
defeating the enemies of freedom and the proponents of terror, by 
defending our homeland, and by assisting our Nation to build a better 
future for coming generations. But we cannot fulfill our mission alone; 
we require continued support from Congress and the American people.
    The men and women of the U.S. Army Reserve epitomize what is best 
about America; it is an honor to serve with them. It is humbling to see 
the support our Families give to their Soldiers; for while it is the 
Soldier we recruit, it is their Families that we retain. It is also a 
privilege to work with the civilian employers who support our Soldiers 
in their communities; they continue to motivate us to find solutions 
for managing a shared workforce. Together, our Army Reserve Soldiers, 
their Families, and employers are the strength of the Nation.

                         Lieutenant General Jack C. Stultz,
                                          Chief, U.S. Army Reserve.
                        Command Sergeant Major Leon Caffie,
                         Command Sergeant Major, U.S. Army Reserve.
                           strategic context
Warrior Citizens: An Integral Part of Today's Army
    The quality of our Force is undeniable. Army Reserve Soldiers are 
Warrior Citizens who contribute to their local communities as they 
pursue their civilian careers. In uniform, they also contribute to our 
national security when they train, prepare, watch, and listen for a 
call to arms. Over the last century, Warrior Citizens have repeatedly 
answered that call and have proven the value of citizens serving in the 
Army Reserve to achieve national goals. Today, tens of thousands of men 
and women are in the Army Reserve; when they mobilize, they leave their 
homes, their Families, and their jobs to serve our Nation. And, over 
the course of the coming years, thousands more Army Reserve Warrior 
Citizens will step forward to serve and sacrifice on behalf of their 
friends and neighbors and the strangers they call countrymen--the 
citizens of the United States.
    Our Warrior Citizens are volunteer members of the best trained, 
best led, and best equipped fighting force our Nation has ever fielded. 
The 190,796 Army Reserve Soldiers mobilized since September 11, 2001, 
demonstrate why Warrior Citizens are among those proud to be called 
Army Strong.
    The men and women of the Army Reserve hail from every corner of 
this Nation, ordinary Americans volunteering for extraordinary service. 
They are black (22 percent), white (60 percent), Hispanic (12 percent), 
and Asian and Pacific Islanders (4 percent). Seventy-seven percent are 
men, 23 percent are women. They are young (46 percent are 17-29 years 
old) and they are mature (46 percent are aged 30-49). They don the 
uniform as enlisted Soldiers (81 percent), officers (18 percent), and 
warrant officers (1 percent). Our Warrior Citizens are men and women 
committed to their Families, their communities, and their country. They 
are the strength of our Nation.
    Our Force includes Soldiers like Staff Sgt. Jason Fetty, a civilian 
pharmacy technician from Parkersburg, West Virginia. In the Army 
Reserve, he is a pharmacy specialist with the 339th Combat Support 
Hospital in Coraopolis, Pennsylvania. When he deployed to Afghanistan 
in April 2006, he voluntarily transferred from his medical unit to the 
364th Civil Affairs brigade to join a Joint Provincial Reconstruction 
Team.
    With just a week left on his one-year tour, Fetty encountered a man 
dressed in a hospital lab coat that forever changed his life. On 
February 20, 2007, at a ribbon-cutting ceremony to open the emergency 
room his unit constructed at the Khost City Hospital, Fetty noticed one 
of the doctors acting strangely. He said the doctor looked ``crazy in 
the eyes.'' After ten months in Khost, he knew a lot of the medical 
personnel, and he didn't recognize this man, so he confronted him and 
immediately perceived him as a threat. He was right. The man was a 
suicide bomber.
    Fetty knew he couldn't risk hitting an innocent bystander if he 
were to shoot and miss, so he maneuvered away from the crowd, hoping 
the suicide bomber would follow. He did. Two other U.S. Soldiers began 
firing warning shots at the man, still not realizing he was a suicide 
bomber. After firing a warning shot, Fetty shot the man in the legs. He 
fell, but didn't go down completely so Fetty himself raised his weapon 
again and struck him in the abdomen. When Fetty saw the man slowly put 
his hand under his lab coat, he knew this was an indicator something 
was about to happen. Fetty yelled for everyone to get out of the way 
and he started running. He didn't get far. When the bomb exploded, 
Fetty sustained shrapnel wounds to his face, back, thighs, ankle, and 
elbow. The other two U.S. Soldiers were also wounded, but no one in the 
large crowd gathered for the ribbon cutting ceremony died; no 
civilians, no dignitaries, no Soldiers. Fetty was awarded the Purple 
Heart as he recovered from his wounds at the Task Force medical 
treatment facility at Bagram Airfield. On October 12, 2007, he was also 
awarded the Silver Star in recognition of his heroic service under 
fire. He is the first Army Reserve Soldier to earn this distinction for 
service in Afghanistan. From Fetty's perspective, ``Anyone would have 
done what I did if they were put in the same situation.''
    We are also privileged to have Soldiers like Jennifer J. Johnson in 
our ranks. She was a nurse practitioner who thoroughly enjoyed her 
civilian career in medicine, skills she brought with her when she 
joined the Army Reserve in 1985. But she felt something was missing, 
that perhaps nursing was a bridge to an even greater calling. In 2003, 
she was ordained as a minister and moved from the nurse corps to the 
chaplain corps in the Army Reserve. Of the 393 chaplains serving in the 
Army Reserve, only 29 are female. Chaplain Johnson says there are many 
qualities of nursing that are comparable to the ministry. ``We guide, 
we direct, we nurture,'' she said.
    Chaplain Johnson mobilized for one year in July 2006. Twenty-one 
years after she first joined the Army Reserve, her professional and 
military careers came full circle when she deployed to Iraq in 
September of that year. As the chaplain for the military hospital in 
Tikrit, she provided pastoral care at the 46-bed facility. There she 
saw first-hand how holistic care--taking care of the emotional and 
spiritual well-being of a patient--helps physical healing. Chaplain 
Johnson always carried a Prayer Book for U.S. Forces with her--in the 
operating room, visiting patients, or leading a congregation in 
prayers. She also provided spiritual healing to the medical staff. Like 
many Soldiers, her military duties kept her away from her family for 15 
months. She missed her daughter's first prom, family weddings and 
funerals, and routine family life. But her sense of duty to country by 
serving in the Army Reserve and her responsibility as a person of faith 
kept her focused. When she returned from Iraq, she was hired as the 
chaplain of a large university hospital. Chaplain Jennifer J. Johnson 
is an example of the kind of strength our Soldiers bring to the 
Operational Force as well as to their civilian communities.
    College student Bethany Gunter wanted to challenge herself mentally 
and physically, so she joined the Army Reserve; the educational 
assistance would help defray college expenses. In her Little Rock, 
Arkansas, unit she not only found the challenge she sought; she also 
found a soul mate, Nicholas Horn. After taking a few college courses 
and working for several years in the plumbing business, he was also 
ready for a change. He dreamed of being a Soldier, and the thought of 
becoming a husband never entered his mind, until he met Beth. The two 
Soldiers married shortly before deploying together to Mosul, Iraq, 
where they served with the 43 1st Civil Affairs Battalion. There, Spc. 
Bethany Horn worked in supply, but was trained to drive a 17,000-pound 
up-armored Humvee and to serve as the swiveling turret gunner behind a 
belt-fed machine gun. Sgt. Nicholas Horn was the operations non-
commissioned officer in charge. During his one-year deployment, he was 
awarded a Bronze Star for saving the life of a civilian injured in a 
mortar attack.
    Bethany said their joint deployment forced them to mature, ``We 
couldn't be kids anymore; our day-to-day objective was to survive and 
to try to make a difference in Iraq.'' Nicholas said the deployment 
reinforced to him the fact that marriage is a team effort, especially 
in a combat zone. ``We worked together 24 hours a day, seven days a 
week. We saw each other react when mortars hit and we grew to depend on 
each other, to stay alive as we build our lives together. She's the 
only battle buddy I'll ever need.'' They both believe the skills 
they've learned in the Army Reserve will help them be better leaders in 
their community as they interact with customers and classmates and 
improve their readiness and training with their unit in the Army 
Reserve.
    Our force also includes Soldiers like 1st Lt. Virgilio Villacorta. 
He's a senior scientist who works in algorithm development and image 
processing for defense applications. He earned his Ph.D. in health 
sciences and technology from MIT, where his research was on how the 
brain adapts to acoustic perturbations and resilient speech patterns. 
He joined the Army Reserve in October 2001 because he wanted to serve 
his country. He was commissioned in December 2004 and now serves with 
the 368th Military Intelligence Battalion. He attributes his work in 
military intelligence to providing him with a better understanding of 
the technology Military Intelligence units need in the field and how 
important the design of the technical equipment is to the Soldiers who 
depend on it. Villacorta, like many of our Warrior Citizens, came to 
the Army Reserve with an advanced degree.
    These Army Reserve Soldiers are typical of the patriotic men and 
women who have answered the Nation's call to serve. They are 
illustrative of why our Warrior Citizens are the strength of our 
Nation, are an integral part of today's U.S. Army, and deserve the best 
possible and most thorough training, resourcing, and support from 
Congress and the American people.
The 21st Century: A Century of Leadership and Strength
    The Army Reserve has experienced significant change during our 
first century of service to the American people. Our military forces 
support the American people and are connected directly to American 
communities through Soldiers such as the Warrior Citizens who serve in 
the Army Reserve.
    As we look to the future, we know without a doubt we will continue 
to adapt to change, to transform to a more effective operational force, 
and to meet the needs of the Army. Increasingly, we recognize that the 
uncertain security environment of the future and the challenging fiscal 
responsibilities faced by our Nation require more cost-effective, 
flexible sources of manpower that can be efficiently increased in times 
of need and reduced in a way that economically preserves capability 
when requirements diminish. As the Commission on the National Guard and 
Reserves concluded, ``Fundamental reforms are needed to ensure the 
Reserve Components are feasible in the short-term while sustainable 
over the long-term.'' This will impact the pace of the Army Reserve's 
transformation and how our Force is resourced, manned, and trained.
    We have entered a dynamic era--an era of extraordinary challenges--
an era marked by unprecedented technological and economic advances, 
expanded globalization, and a burgeoning world population. These 
advances have resulted in an increased demand on resources such as 
fresh water, food, and the elements that sustain economic enterprise. 
As the global community becomes more interconnected, an unstable 
natural environment and a growing world population will exacerbate the 
potential for conflict and increase the likelihood of humanitarian 
crises.
    Other contributing factors impacting international stability 
include the struggle for power involving economic and technological 
dominance, religious and cultural conformity, and the infrastructure to 
provide basic human necessities such as food, water, shelter, 
sanitation, medical care, and the economic means to sustain affected 
populations.
    The technological advances of the last century have contributed to 
an increase in the length and quality of life for many of the world's 
inhabitants. But technology has proven to be a double-edged sword. 
While it is used for many productive ends, it may also be leveraged for 
destructive purposes. Unstable governments and well-financed groups who 
seek to exploit weapons of mass destruction for diverse aims seriously 
threaten global peace and must be contained. State-on-state regional 
conflicts, failed states competing for internal and external resources, 
and global terrorism threaten world peace and stability.
    The challenges America faces are many, and the risks are great. We 
are in a position that is both envious and dubious. Global leadership 
demands global responsibility. The United States Army is one of the 
most far-reaching and capable forces available for the country to 
tackle global challenges of the 21st century. The United States Army 
Reserve is an integrated, operational component of the world's greatest 
Army--ready, willing, and able to face these challenges.
    The emerging trends of globalization, population growth, resource 
depletion, climate change and natural disasters, proliferation of 
weapons of mass destruction, and failed and failing states demonstrate 
a global environment of dynamic risk. These risks place high demands on 
our military. The core competencies that reside in the U.S. Army 
Reserve allow the Active Force to mitigate these risks to achieve 
national objectives.
    The Army Reserve is a valuable component of the Army because it is 
dynamic, flexible, and capable, as well as a significant provider of 
combat support and combat service support to the Total Force. The Army 
Reserve is well designed and well suited for operations in a global 
environment of instability. The Army Reserve possesses extensive 
capabilities to respond to nuclear, biological, and chemical weapons 
threats. Army Reserve Soldiers are uniquely suited, by way of the 
extensive civilian-acquired skills that complement military-acquired 
skills, to participate in missions to defeat threats to security, as 
well as stability and reconstruction operations. The Army Reserve also 
possesses unique capabilities and resources to address humanitarian 
contingencies at home or abroad and remains the Nation's first Title 10 
responder to provide support and assistance to civil authorities when a 
disaster or emergency occurs in the United States and its territories.
    The Army Reserve is postured to respond and execute, in real time, 
missions to support the national military strategy. We continue 
improving the Army Reserve's capability and efficiency. We are in the 
midst of restructuring and improving our business practices, reducing 
overhead, and fielding more deployable force structure to meet the wide 
array of missions ongoing or expected in the years ahead.
    The 21st century is proving to be a century in need of the 
capabilities of our Warrior Citizens. The strength of the Nation lies 
with the strength of her citizens to bear the burden, pay the price, 
and to commit and sacrifice for the greater good. Army Reserve Warrior 
Citizens are carrying forth that tradition into a second century of 
service and sacrifice. We are more fully integrating with the Active 
Army to leverage our mutual strengths as we effectively and 
successfully carry out every mission we are called upon to accomplish.
2007: A Year of Success and Achievement
    The year 2007 was one of commitment, sacrifice, and change. 
Although the Army Reserve's fiscal year 2007 budget of $6.9 billion 
represented only 3.1 percent of the $221 billion total Army executed 
budget, the Army Reserve proved itself a cost-effective, successful 
force with a global presence. In fiscal year 2007 we achieved the 
following:
  --Mobilized more than 30,400 Warrior Citizens in support of Operation 
        Enduring Freedom and Operation Iraqi Freedom. Currently, the 
        Army Reserve has 27,143 Warrior Citizens mobilized.
  --Recruited 39,055 Soldiers into the Army Reserve.
  --Trained 16,479 Soldiers as recruiting assistants through the Army 
        Reserve Recruiting Assistance Program.
  --Retained 19,727 Soldiers, which represents 119 percent of our 
        retention goals for first-term and career Soldiers.
  --Launched the Army Reserve Warrior and Family Assistance Center to 
        provide assistance to Soldiers and their Families, supporting 
        more than 900 Warriors in Transition.
  --Conducted 165 Strong Bonds programs for 8,500 Soldiers and Family 
        members to enhance Family and community relationships following 
        deployments.
  --Initiated contact with business leaders to begin a dialogue on how 
        the Army Reserve and employers can better share the skills of 
        our Warrior Citizens.
  --Trained 350 Soldiers, Family members, and teens using Stephen R. 
        Covey's ``7 Habits of Highly Effective Families'' method to 
        provide tools for Family members to communicate and resolve 
        problems effectively.
  --Graduated 33,605 Soldiers from basic, advanced, and skill-specific 
        courses and offered 2,797 courses to our Soldiers. Our 
        professional education requirements are essential to ensure 
        that Army Reserve Soldiers remain vital to the world's premier 
        military force.
  --Graduated 355 commanders and Command Sergeant Majors and more than 
        500 company commanders from pre-command courses.
  --Inaugurated the first two Army Reserve Enrichment Camps attended by 
        100 children of Army Reserve Soldiers.
  --Accelerated reorganization of the entire Army Reserve Training 
        Structure and Training Commands to ensure synchronization with 
        Army Reserve Training Initiatives.
  --Executed two major Warrior Exercises involving more than 8,000 
        Soldiers at Fort Bliss, Texas, and Fort Hunter-Liggett, 
        California. Conducted 16 functional exercises to sharpen 
        Soldiers' technical skills.
  --Processed 5,957 Soldiers through the Rapid Fielding Equipment 
        initiative.
  --Achieved initial entry rotor-wing training for 100 percent of the 
        helicopter pilots residing in the Army Reserve at the U.S. Army 
        Aviation Warfighting Center.
  --Moved over 6,700 pieces of unit equipment to regional training 
        centers in support of the Army Reserve Training Strategy.
  --Aligned 78 percent of Army Reserve strength into operational and 
        deployable forces.
  --Overhauled 4,139 pieces of equipment in the $144 million Depot 
        Maintenance program.
  --Recapitalized 420 High-Mobility Multi-Purpose Wheeled Vehicles and 
        61 Heavy Expanded-Mobility Tactical Trucks.
  --Fielded over 17,000 items of equipment to include: 12 Longbow 
        Apache attack helicopters, Medium and Light Tactical Vehicles, 
        Improved Ribbon Bridge, and communications equipment.
  --Increased Army Reserve Aviation force structure by two Blackhawk 
        companies.
  --Moved to increase Army Reserve operating force by over 16,000 
        deployable spaces by reducing and rebalancing force structure 
        from training and support organizations to deployable modular 
        operational units.
  --Activated and deployed the 316th Expeditionary Support Command, the 
        primary logistics command supporting multinational forces in 
        Iraq (from ``zero to Iraq'' in nine months).
  --Activated the 11th Theater Aviation Command at Fort Knox, Kentucky, 
        and mobilized and deployed a command and control element with 
        Aviation Task Force 49 in support of Operation Enduring 
        Freedom.
  --Activated or converted 386 organizations to new modular structure.
  --Initiated the disestablishment of 12 Regional Readiness Commands 
        and the establishment of four Regional Support Commands and 11 
        Operational Commands to reduce overhead and generate more 
        deployable capability.
  --Initiated 23 Base Realignment and Closure (BRAC) and Military 
        Construction Army Reserve (MCAR) projects to build 14 Armed 
        Forces Reserve Centers (AFRC), five Army Reserve Centers, and 
        four training support projects.
  --Commissioned two Logistic Support Vessels, including the first 
        watercraft in the U.S. military to be named after an African 
        American, Capt. Robert Smalls, a hero from the American Civil 
        War.
                   dynamic change, challenging times
    As the Army Reserve faces the threats of the 21st century security 
environment and responds to the Nation's call to serve, we continue to 
accelerate our transformation to a more effective, efficient, and 
relevant organization. We are carrying out dynamic institutional and 
operational changes in challenging times. We are not moving forward 
blindly, but we are adjusting to current conditions and responding to 
Army needs, as they develop. However, the current operational tempo is 
exacting a toll.
    Army Reserve Warrior Citizens are experiencing competing demands of 
civilian careers, Family, and repeated mobilization and deployments. 
The effect of these demands is most notable with junior noncommissioned 
officers and mid-grade commissioned officers. The Army Reserve faces a 
manning shortfall of experience and expertise at the ranks critical to 
the long-term health and vitality of the force. The Active Component is 
growing and the prospects of repeated long-term separations in rapid 
succession are not sitting well with Soldiers' Families and employers. 
The Army Reserve and the Nation must address these challenges to 
sustain our critical Warrior Citizen capability. This manning shortfall 
is the Army Reserve's most critical challenge.
    The Army's leadership has recognized the challenges impacting the 
force and taken steps to focus time, energy, talent, and resources to 
address these challenges. General George W. Casey, the Army Chief of 
Staff, established seven initiative working groups to tackle the Army's 
most critical challenges; the Army Reserve is engaged in each of these 
groups. The seven Army initiatives are:
  --Grow the Army;
  --Enhance support to Soldiers and Families;
  --Modernize the Force;
  --Transition the Reserve Component to an operational reserve;
  --Develop leaders;
  --Adapt institutional policies, programs, and procedures; and
  --Build strategic communications capability.
    The Army Reserve is addressing elements of all seven of these Army 
initiatives, but we are most focused on growth, enhancing support to 
Soldiers and Families, and transitioning to a more effective 
operational force. We direct our progress in each of these areas 
through the organizing construct of four imperatives: Sustain, prepare, 
reset, transform. To continue to succeed and meet the needs of the 
Nation, we must ensure we recruit and retain the best and brightest for 
our team, support our Soldiers, their Families, and their employers, 
and ensure they have the most efficient and effective organizations and 
processes to successfully accomplish their missions.
    We are organizing to address our personnel shortfall and improve 
the operational effectiveness of our formations. One of the 
cornerstones of our institutional transformation--the process that is 
driving much of our change in response to contemporary demands--is to 
organize Army Reserve units into a deployment cycle to maximize 
stability, predictability, and resource utilization. To increase the 
effectiveness of the Army Reserve and improve our contributions to the 
Active Component, we have aligned our units into synchronized training 
and force-sustainment packages supported by manning, equipping, and 
training processes. Taken together, we call this construct Army Force 
Generation (ARFORGEN), which mirrors and is directly aligned to the 
Army's ARFORGEN model.
    When fully implemented, this ARFORGEN process will improve our 
force by providing a predictable and rapid capability to synchronize 
our Soldiers and resources with national and global mission 
requirements. Based on a five-year training cycle, ARFORGEN involves a 
structured progression through three successive force pools: Reset/
Train, Ready, and Available. By establishing these three distinct force 
pools, the Army Reserve increases unit readiness and ensures a cyclical 
progression of trained, ready, and cohesive units.
    Since 2004, we have aligned 78 percent of our Force into the 
ARFORGEN process. To fully implement the five-year training model, we 
need approximately three years of stabilized Army deployment 
requirements. We have therefore programmed our combat support and 
combat service support into packages of approximately 35,000 Soldiers 
annually in the various stages of ARFORGEN.
    Implementing ARFORGEN has proven that the Army Reserve must fully 
integrate with the development and fielding of Army logistics 
information and management systems to meet our requirements for 
maintaining pre-mobilization readiness. ARFORGEN is an effective tool 
for our force, allowing the Army Reserve to focus on current operations 
while enabling Soldiers, Families, and employers to anticipate future 
Army requirements as a fully operational force.

    ----------------------------------------------------------------

                                ARFORGEN
Reset/Train
            ARFORGEN years one and two
    Activities during the first two years focus on obtaining or 
sustaining individual and squad training as well as refreshing unit 
leaders. Once these small team and section tasks are complete and 
leadership set, the unit will focus on subunit collective tasks or 
mission-specific tasks.
Ready
            ARFORGEN years three and four
    After building on individual and team training, during years three 
and four, the focus shifts to sustaining those skills and training at 
higher collective levels in increasingly challenging environments. This 
phase is designed to reduce post-mobilization training time and to 
provide unit depth or strategic capability that can be surged to meet 
unexpected operational demands. Once units are alerted for deployment 
mission, training is reoriented to prepare for specific missions and 
the conditions the units will likely face. Activities during this phase 
include unit training to support leaders as they prepare for and 
conduct full spectrum operations, growing team capabilities, and 
enhancing individual, collective, and organizational learning.
Available
            ARFORGEN year five
    During this year in the ARFORGEN cycle, Army Reserve units are 
available to mobilize and deploy, to execute specific programmed 
missions, or to stand ready to respond to unexpected events at home or 
abroad.

    ----------------------------------------------------------------

Critical Challenges to Operationalize the Army Reserve
    As the Army Reserve transforms to a more effective operational 
force, we continue to witness a change in how the American public views 
not only the Army Reserve, but also patriotic responsibilities to serve 
our Nation. Immediately after September 11th, Americans answered the 
call to serve. However, after more than six years of war, we recognize 
there is a compelling need to inspire a new generation to public 
service with the Army Reserve. Maintaining the Army Reserve as a world-
class provider of support and stability capability also requires:
  --Timely and predictable funding through base and supplemental budget 
        requests to fund Reserve Personnel, Army (RPA), Operation and 
        Maintenance, Army Reserve (OMAR), and Military Construction, 
        Army Reserve (MCAR).
  --Extend recruiting and retention incentives to assure the Army 
        Reserve enlists and retains the best and brightest to man the 
        force.
  --Extend incentive pay for health care professionals and other 
        specialized occupations to ensure we retain the professional 
        skills we need.
  --Support Army Reserve programmed increases for full-time personnel.
  --Improved employer partnership initiatives to ensure employers do 
        not bear an undue burden for employing Army Reserve Soldiers.
  --Fund Army Reserve Logistics Automation Operations and Maintenance 
        of new equipment training requirements to support the 
        integration of Army Reserve requirements into Army logistics 
        information technology systems.
  --Support Army Reserve request for funding for base operation support 
        and facilities, sustainment, restoration, and maintenance of 
        Army Reserve facilities.
  --Continued funding of depot maintenance to overhaul older generation 
        equipment.
  --Continued support to implement the ARFORGEN process, enabling the 
        Army Reserve to completely transform to an operational force.
  --Maintain momentum to achieve Base Realignment and Closure (BRAC) 
        mandates with modern facilities.
  --Support the Army Reserve program for secure communication systems 
        to ensure integrated capabilities--tactical to strategic--that 
        are plug-and-play, modular, and scalable to achieve jointness 
        and modularity.
  --Fund Army Reserve training program request to sustain four regional 
        training centers and combat support training centers.
             sustain our soldiers, families, and employers
    We live in an era in which Army Reserve Soldiers find themselves 
serving in a persistent conflict. This is the first time in history 
that our Warrior Citizens, who are patriotic, professional, and 
integral to our All-Volunteer Force, have been engaged in such a long 
conflict. No longer can Army Reserve Soldiers plan on one weekend a 
month and two weeks in the summer to fulfill their annual service/
training requirement. The impact of our transformation to an 
operational force, combined with a state of continuous mobilization, 
has put a strain not only on our force, but also the Families and 
employers whose support is vital to our Warrior Citizens.
    Today, the Army depends on the Army Reserve to sustain the tempo of 
deployments demanded by this persistent conflict. For the Army Reserve 
to remain a significant asset to the Army, our Nation, and the 
communities where our Soldiers live and work, it is necessary to take 
care of our most valuable resource--our people. To sustain our force, 
we must do more to ensure our Soldiers, their Families, and our 
Soldier's civilian employers are supported through solid programs and 
supportive communities.
    We care about the physical, spiritual, and mental health of our 
Soldiers and their Families. Sustaining the Army Reserve begins with 
recruiting high-quality men and women and then retaining them and their 
Families, as well as partnering with their civilian employers 
throughout their military careers. Our Soldiers cannot be sharp on the 
battlefield if their focus is the impact their military service is 
having on their Families and employers. We must take care of our 
Families and we must have a relationship with the employers of our 
Warrior Citizens. Without support from Families and employers, we 
cannot sustain our force.
    Sustaining the Army Reserve also reminds us of our moral obligation 
to take care of our Soldiers who are wounded, injured, or ill, as well 
as the Families of our Fallen Soldiers.
Recruit
    Our Warrior Citizens must be physically strong, mentally aware, 
fully trained and equipped, and ready to deploy when the Nation calls. 
In fiscal year 2007, the Army Reserve surpassed its overall recruiting 
goal. Although the Army Reserve is solely responsible for meeting our 
end strength objective, the Army Reserve recruiting mission is shared; 
thus, we do not have direct control of a recruiting budget that affords 
us the opportunity to market and advertise to specific Reserve 
Component demographics. As a result, we rely heavily on targeted 
initiatives such as Army Reserve-specific advertising and the Army 
Reserve Recruiting Assistance Program.
            Army Reserve Recruiting Assistance Program
    AR-RAP is a community-based recruiting program launched in July 
2007. The program leverages the personal contacts our Soldiers have 
within their communities. Essentially, every Army Reserve Soldier is 
now a recruiter who can earn up to $2,000 for each recruit that 
contracts and ships to Basic Combat Training, Basic Officer Leader 
Course, or for each Prior Service Soldier that completes 120 days of 
unit affiliation and attends a Battle Assembly.
Retain
    In an environment of scarce human resources, retaining our Warrior 
Citizens is a top priority. During fiscal year 2007, reenlistment of 
first-term Army Reserve Soldiers reached 155.2 percent of our goal. Our 
fiscal year 2007 goal was to reenlist 5,103 first-term Army Reserve 
Soldiers. We surpassed that number and actually reenlisted 7,887 first-
term Army Reserve Soldiers. We also surpassed our career reenlistment 
goals; we achieved 103.2 percent of that goal. However, our high 
operational tempo has resulted in a decline in our end strength. The 
primary cause of the decline is the number of Soldiers who transfer out 
of the Army Reserve into the Army and the Army National Guard.
    In fiscal year 2007, 7,107 Warrior Citizens transferred to the 
Active Army and 2,375 transferred to the National Guard. Though still 
good for the Army, to ensure Army Reserve readiness and sustain 
personnel strength of units scheduled for upcoming deployment, the Army 
Reserve instituted a policy that Soldiers in units transitioning into 
the fourth year of ARFORGEN are ineligible to voluntarily enlist or to 
be appointed in the Active Army, Army National Guard, or any other 
military service.
    The Army Reserve offers a variety of incentives through our 
selected Reserve Incentive Program to retain Soldiers who endure the 
stress and hardship of multiple mobilizations and deployments. 
Incentive packages are targeted to specific audiences such as Soldiers 
with prior service, those who complete 20 years of service, officer and 
warrant officer accession and affiliation bonuses, enlisted affiliation 
bonuses, and Army Civilian-acquired skills bonus programs. Incentives 
can range from $7,500 up to $20,000. An additional Army Reserve 
retention bonus specifically addresses mid-career officer and non-
commissioned officer shortages. Based on critical skill needs of our 
Soldiers, the Critical Skills Retention Bonus-Army Reserve can pay up 
to $50,000 per Soldier for a 3-year service obligation. This incentive 
is paid out to Captains, Chief Warrant Officers Three, Staff Sergeants, 
and Sergeants First Class who possess a critical military occupation 
specialty. This incentive authority was part of a recent National 
Defense Authorization Act Fiscal Year 2008 change; the Army Reserve is 
awaiting approval from the Office of the Secretary of Defense for 
implementation of enlisted and warrant officer bonuses.
Improve Quality of Life
    The most important element in sustaining the Army Reserve is the 
quality of life we provide our Warrior Citizens and their Families, 
impacted by their Soldiers' commitment to serve. We work aggressively 
to support our Soldiers and their Families with services that address 
health care, family programs, education, and employment. Support from 
our communities is vital to our Army Reserve Families, who do not 
traditionally reside on or near military installations. These Families 
often have more diverse needs than those of Active Component Soldiers. 
It is therefore essential that we continue to improve coordination of 
state and federal agencies, nonprofit organizations, and the military 
community to ensure our Warrior Citizen Families have integrated, 
accessible support available to them.
            Seamless Health Care
    Few programs reflect care for Soldiers more directly than health 
care plans; yet current medical management strategies and structures do 
not adequately support Army Reserve Soldiers and their Families, who, 
unlike the Active Component, transition back and forth between their 
civilian careers and their military careers. The Army Reserve believes 
that seamless health care coverage contributes to the military 
readiness of our Soldiers by preventing our Soldiers from being 
``whipsawed'' between military and civilian health care service 
providers. Additionally, fully supporting Army Reserve Soldiers who 
live in remote locations continues to be a top priority. The Army 
Reserve is working with the DOD to determine how best to solicit health 
care providers to support health care coverage for our Soldiers and 
their Families in communities where TRICARE is unavailable.
  --Restructured TRICARE Reserve Select.--As of October 1, 2007, 
        Selected Reserve (SELRES) Soldiers became eligible for TRICARE 
        health coverage. TRS is available to Soldiers and their 
        Families regardless of any active duty time served. Benefits of 
        the program include: worldwide availability to most Select 
        Reserve members and their Family members; freedom to manage 
        health care with no assigned primary care manager; no referrals 
        required; access to care in a military treatment facility on a 
        space-available basis; and comprehensive health care coverage 
        including a TRICARE prescription drug benefit.
            Strong Bonds Program
    The Strong Bonds program offers Soldier/Spouse and single Soldier 
Family reintegration events after deployment. This training helps 
Families of deployed and deploying Soldiers deal with the stress that 
often accompanies a Soldier's deployment. It is a proven, 
multicomponent program under the supervision of the Office of the Chief 
of Chaplains. As part of this program, the Army Reserve conducted 165 
Soldier retreats, serving more than 8,500 Soldiers and Families in 
fiscal year 2007. The Army Reserve anticipates conducting a comparable 
number of programs and outreach in fiscal year 2008.
            Army Reserve Warrior and Family Assistance Center
    The Army Reserve Warrior and Family Assistance Center was 
established in October 2007 to ensure that Warrior Citizens receive 
appropriate support under the Army Medical Action Plan. This center 
provides a sponsor to each Army Reserve Soldier and Family currently 
assigned to a Warrior Transition Unit, Community-Based Health Care 
Organization, or Veterans Affairs Poly-Trauma Center. The center also 
manages a toll-free hotline (866-436-6290) and Web site (www.arfp.org/
wfac) to provide assistance to Army Reserve Soldiers, Families, and 
retirees on a variety of issues, such as medical, financial, 
administrative, and pastoral concerns.
            Family Programs and Services
    Our commitment to family readiness is further demonstrated by Army 
Reserve Family Programs (ARFP) initiatives that continue to develop and 
evolve to meet the unique needs of our Soldiers and their Families. The 
Army Reserve is hiring Employer Support Program Managers who will be 
assigned to 27 major subordinate commands throughout our Force to meet 
Army Reserve Soldier and Family needs on a full-time basis. Soldiers 
and their Families can log on to www.arfp.org to learn about other 
Family program initiatives including:
  --Virtual Family Readiness Groups where Army Reserve Families can 
        utilize the information and resources provided by the Army's 
        Integrated Family Support Network. Funding and staffing have 
        increased, allowing more face-to-face, as well as telephonic 
        and virtual, contact with Families.
  --Virtual Installations.--The Army Reserve will conduct a pilot test 
        of our Virtual Installation in May 2008. Virtual Installations 
        will consolidate our services and allow Families to stay in 
        touch, stay informed, and stay together. The Virtual 
        Installation represents a conglomerate of Families, volunteers, 
        associations, military programs, and civic organizations such 
        as the American Legion and Veterans of Foreign Wars. Services 
        that will be available online include registering for ID cards, 
        enrollment in TRICARE, and the ability to get counseling, 
        support, financial assistance, job placement, or to take 
        classes.
  --Outreach.--Army Reserve staffers are able to share information, 
        conduct education and training, and provide appropriate crisis 
        response, conflict resolution, or referral to an appropriate 
        helping agency. The first issue of ``Family Strong,'' a full-
        color quarterly publication providing Family readiness 
        information, was distributed to 22,000 households of deployed 
        Army Reserve Soldiers in the fall of 2007. Future issues will 
        be distributed to the entire Army Reserve population.
  --Welcome Home Warrior Citizen Award Program.--This award was created 
        to publicly recognize the sacrifices that Army Reserve Soldiers 
        and their Families have made to the Global War on Terror. Since 
        the program's inception in fiscal year 2004, 124,887 awards 
        have been delivered to Soldiers, their Families, and their 
        employers.
  --Child and Youth Services.--Child and Youth Services ensures that 
        children of our Warrior Citizens understand how their family 
        dynamics may change when a parent is mobilized. Programs and 
        initiatives are designed to meet the needs of children and 
        young adults and include child care, leadership and development 
        conferences, and Army Reserve Enrichment Camps. These camps 
        provide youth an opportunity to learn new skills, develop 
        relationships, and learn more about the Army Reserve. The Army 
        Reserve will host five Enrichment Camps in 2008.
  --Operation Purple Camps are free one-week residential camping 
        programs funded by the National Military Family Association. 
        The camps bring together children who have a parent or guardian 
        experiencing some stage of a deployment. During the summer of 
        2007, 566 children of Army Reserve Soldiers attended these 
        camps; four camps were hosted by Children and Youth Services in 
        partnership with Boys & Girls Clubs of America and 4-H. The 
        Army Reserve will host eight Operation Purple Camps (in 
        partnership with national organizations dedicated to serving 
        youth) in 2008.
  --Civilian Education for Soldiers.--Education benefits clearly 
        enhance the development of Army Reserve Soldiers, as well as 
        our ability to retain Soldiers. During fiscal year 2007, 28,115 
        Army Reserve Soldiers used tuition assistance and 1,265 
        participants earned degrees.
Warrior Care and Transition
    The Army Reserve will never forget its moral obligation to our 
injured and wounded Soldiers and their Families. At the core of our 
service, Army Reserve Warrior Citizens are Army Strong. It is the duty 
of all Soldiers to care for their fellow Soldiers in time of battle and 
in time of healing; our actions exemplify the strength of our Force as 
it supports the strength of the Nation. It is also the duty of all 
Soldiers who are wounded, injured, or ill to focus their energies on 
healing as intently as they focused on their mission in theater.
    The Warriors in Transition Program assists disabled Soldiers who 
suffered severe injuries on or after September 11, 2001, and who have 
been awarded (or are likely to receive) an Army disability rating of at 
least 30 percent. Assistance is provided from initial casualty 
notification through the Soldier's assimilation into civilian community 
services (for up to five years after medical retirement).
            Warrior Transition Units
    Injured Army Reserve Soldiers who are on active duty healing are 
assigned to WTUs. The Army Reserve has approximately 1,400 Soldiers in 
these units. We made available 380 Soldiers to assist the full-time WTU 
staff in manning these units and providing continuous, dedicated 
support to these Warriors in Transition. All Soldiers assigned to WTUs 
are given this mission:
    ``I am a Warrior in Transition. My job is to heal as I transition 
back to duty or continue serving the Nation as a Veteran in my 
community. This is not a status, but a mission. I will succeed in this 
mission because I am a warrior and I am army strong.''
Support to Families of Our Fallen Soldiers
    In support of Operation Enduring Freedom and Operation Iraqi 
Freedom, 156 Warrior Citizens have made the ultimate sacrifice and 
given their lives in service to their Nation, each with a Family back 
home. We recognize the distinguished service, selfless acts of bravery 
and leadership, and the ultimate sacrifice these Soldiers and their 
Families have made for the cause of freedom.
    As part of our commitment to the Families of our fallen comrades, 
the Army Reserve conducts a memorial service to honor their loved one's 
sacrifice, offers chaplain support, and offers ongoing support to help 
the Family through its period of mourning and beyond, with follow-on 
counseling, support, and services. The Warrior Citizens of the United 
States Army Reserve will never leave a fallen comrade. We will also 
never forget Sergeant Ahmed Kousay Altaie of Ann Arbor, Michigan, who 
was assigned to the Provincial Reconstruction Team Baghdad. He was 
declared missing-captured on December 11, 2006.
Employer Partnerships
    The Army Reserve Employer Relations Program fosters better 
understanding between commands, Soldiers, and Soldiers' civilian 
employers. Building enduring partnerships with the civilian employer 
community is vital to Soldier readiness and positively impacts 
retention. It would be impossible for the Army Reserve to sustain our 
force without the support of the nearly 44,000 businesses that employ 
our Warrior Citizens in communities around the country. Employers who 
hire Army Reserve Soldiers earn a great return on their investment: 
they benefit from the values, experiences, and leadership skills that 
Warrior Citizens bring to the workplace. A solid partnership requires 
efforts and sacrifices from all parties through an open and candid 
dialogue based on a clear appreciation of each party's interests and 
requirements.
    In fiscal year 2007, the Army Reserve focused its efforts on 
alleviating the burden on corporate America when their employees, our 
Warrior Citizens, mobilize and deploy. We are working to enhance 
employer support through a systemic blending of grass-roots objectives: 
mitigation, mediation, employer outreach and awareness, and Soldier-
employer relations. Throughout fiscal year 2008 we will continue to 
develop and improve employer relations with the following initiatives:
  --Hiring Employer Support Program Managers for assignment to 27 major 
        subordinate commands throughout the Army Reserve. These 
        managers will participate with state-level Committees for 
        Employer Support of the Guard and Reserve to proactively engage 
        with employers on behalf of the Army Reserve's Warrior 
        Citizens. These managers will provide commanders with the 
        expertise and support required to carry out the employer 
        relations initiatives established by the leadership of the Army 
        Reserve.
  --``Partnering with Industry.'' The Army Reserve is experiencing 
        increased challenges and demands in providing personnel to meet 
        mission requirements abroad and in support of domestic civil 
        authorities. In a tight labor market, employers such as local 
        law enforcement, interstate trucking companies, and medical 
        care facilities are competing for the same qualified pool of 
        talent as the Army Reserve. We continue to look for 
        opportunities to build enduring partnerships with industry and 
        to focus our efforts on ``Optimizing a Shared Workforce'' with 
        and between the Army Reserve and civilian employers. Army 
        Reserve Aviation, for example, has found success by partnering 
        local medical facilities with new air ambulance (MEDEVAC) 
        companies and providing mutual benefits through the 
        credentialing of common but critical skills sets in a shared 
        labor pool.
  --Establishing the Employer Outreach General Officer Steering 
        Committee to ensure Army Reserve Soldiers remain competitive in 
        both their military and civilian careers. The committee 
        consists of general officers who engage with the business 
        community to foster relationships and exchange ideas and 
        methods to support a strong Army Reserve.
  --An initiative currently being reviewed is the creation of a virtual 
        ``job bank'' for Soldiers. This job bank would create a direct 
        and focused link between employers and Soldiers in targeted 
        career fields and specialties across a wide spectrum of 
        positions.
    To sustain our Warrior Citizens, their Families, and their 
employers throughout fiscal year 2008 and beyond, the Army Reserve will 
continue to identify incentives, initiatives, and legislative changes 
to increase recruiting and retention and minimize attrition as we 
transform to a more effective operational force. We cannot realize 
long-term success as a force if we cannot create a stimulating 
environment that fosters growth and personal satisfaction. We must 
continue to maintain and improve the quality of life for our Soldiers, 
Families, and employers. This requires sustained and predictable 
funding to meet our manning objectives. Our focus on the imperative of 
Sustain will help bring the Army Reserve into balance and will support 
our full transformation to an effective, capable, sustainable, and 
enduring operational force.
           prepare soldiers for success in current operations
    The prepare imperative is defined as the readying of Soldiers, 
units, and equipment to succeed in the current operational environments 
of Iraq and Afghanistan and the 18 other countries where Army Reserve 
Soldiers serve. Our military success in the Global War on Terror is 
dependent on our ability to prepare and equip Army Reserve Soldiers as 
full cohesive units for current and future operations. Our Warrior 
Citizens serve the Nation as an operational force for which they were 
neither designed nor resourced; as a result, our primary focus is on 
the demands of current operations. We consume readiness as fast as we 
build it.
    Our mission is enduring: to provide necessary forces and 
capabilities to the Combatant Commanders in support of national 
security and defense strategies. Growing and transforming the force 
during an era of persistent conflict is driving the need for increased 
resources to train Soldiers and units; we risk failure if faced with a 
rate of change that exceeds our capability to respond.
    As outlined earlier in this Posture Statement, Army Reserve 
Soldiers are organized into a five-year cyclical manning, equipping, 
and training process--ARFORGEN--to increase the effectiveness of the 
Army Reserve and to improve our contributions to the Army.
Train Soldiers and Units
    We have updated the Army Reserve training strategy over the past 
year. The update was necessary to accommodate the continued maturation 
of Army ARFORGEN plans and concepts; to implement the Army Campaign 
Plan; to execute DOD mobilization policies; and to prepare for the 
dynamic environment Soldiers and units will face. To accomplish this, 
we revised the following:
  --Command Relationships.--The U.S. Army Reserve Command (USARC) 
        continues to grow into its new role as a direct reporting unit 
        to Headquarters, Department of the Army (previously USARC was a 
        major subordinate command of U.S. Forces Command). This has 
        resulted in additional responsibility and more direct 
        accountability to Army senior leadership for all matters 
        attendant with providing, maintaining, training, equipping, and 
        the readiness of Army Reserve forces.
  --Post-mobilization Training Time.--During the first quarter of 
        fiscal year 2007, the Secretary of Defense announced a policy 
        to limit involuntary mobilization of Reserve Component members 
        to a maximum of one year, inclusive of post-mobilization 
        training. The goal is to provide predictability to Reserve 
        Component Soldiers, their Families, and their employers so they 
        can better prepare for recurring mobilizations. This 
        necessitated a streamlining of pre- and post-mobilization 
        training to increase time in theater conducting combat and 
        support operations. Thus far, the Army has supported our 
        request for additional pre-mobilization training time to 
        perform theater-specified, required training--17 days in the 
        fourth year of ARFORGEN. Training performed to standard during 
        pre-mobilization will not be repeated at the mobilization 
        station.
  --Army Reserve Generating Force Transformation.--Fiscal year 2007 was 
        a year for dramatic and fundamental change for training 
        organization, certification, and support to the Army Campaign 
        Plan. The Army Reserve became the certifying official for all 
        Army Reserve pre-mobilization training. Upon mobilization, the 
        Army continues to validate deployment readiness. Additionally, 
        six Institutional Training Divisions were reorganized into a 
        three-division structure consisting of initial entry training, 
        the Army school system, and battle command staff training. 
        These changes to our generation force resulted in reducing non-
        deployable headquarters structure, yet we retained essential 
        training capabilities.
  --Regional Training Centers.--The Army Reserve began to field the 
        first of four RTCs where units can train Soldiers and leaders 
        on tasks that are too difficult to execute at Army Reserve 
        Centers. On November 1, 2007, Fort Hunter-Liggett, California, 
        was established as the first of these centers. Training began 
        later that month with more than 100 Army Reserve units 
        scheduled to attend pre-deployment training in 2008. Major 
        training conducted at these centers includes weapons 
        qualifications, convoy operations, and live fire. Three 
        additional centers will be established in 2008: Fort Dix, New 
        Jersey, Fort McCoy, Wisconsin, and a location to be determined 
        in the Southeast. These centers are crucial enablers to reduce 
        post-mobilization training time, improve pre-mobilization 
        training, and enhance readiness of Army Reserve forces.
Collective Training
    In 2007, the Army Reserve continued to improve pre-mobilization 
collective training, most visibly through the execution of two Warrior 
Exercises and the continued refinement of functional exercises. Warrior 
Exercises are ARFORGEN year-three events, which focus on collective 
war-fighting skills in eight-day, continuous-operation, field-training 
exercises that replicate the process of mobilization, deployment, and 
employment in theater. In fiscal year 2007, more than 8,000 Army 
Reserve Soldiers participated in Desert Warrior at Fort Bliss, Texas, 
and Pacific Warrior at Fort Hunter-Liggett, California.
    We also conducted 16 functional exercises to sharpen Soldiers' 
technical skills in a tactical environment. Functional exercises are 
ARFORGEN year-two events, which feature branch specific training in a 
field environment at the small team level. For instance, the 
Quartermaster Liquid Logistics Exercise is the prime venue to train 
Army Reserve petroleum, oil and lubricant, and water units. The 
exercise replicates theater-level petroleum and water operations to 
include storage, distribution, and production.
    Collective medical training at Fort McCoy, Wisconsin, Camp Parks, 
California, and Fort Gordon, Georgia, provide Soldiers with hands-on 
training on the latest theater-specific equipment.
    Throughout fiscal year 2007, we continued to support a train alert-
deploy model. We realized that the Army's current installation 
inventory was not capable of meeting demand for training to standard 
Combat Support and Combat Service Support units. Additionally, the 
Army's Combat Training Center community could not sufficiently meet the 
Army Reserve training strategy requirement that all deploying units 
receive a ``Combat Training Center-like'' experience, nor could it meet 
the new mandate to complete many post-mobilization training 
requirements during the pre-mobilization period.
    As a result, in addition to the Regional Training Centers, the Army 
Reserve is developing concepts for Combat Support Training Centers.
    The Combat Support Training Center program will provide the Army 
and Army Reserve with the ability to design training scenarios, 
simulate theater operations in a contemporary environment, and provide 
exercise exit evaluation for the Army Reserve's performance of Combat 
Support and Combat Service Support missions across the full spectrum of 
operating environments.
    The Ready Response Reserve Units initiative is a pilot program 
designed to create units capable of meeting short-notice requirements 
from Combatant Commanders. Test units are manned with volunteer 
Soldiers who are willing to serve on ``part-time active duty''--more 
than 39 days but less than 365 days per year. This is a key initiative 
to fill gaps in force-structure capabilities. Once this pilot program 
validates its proof of principle, it can be expanded and synchronized 
with ARFORGEN to fill gaps in high-demand, low-density units. At 
present, the current pilot directed by the Assistant Secretary of the 
Army for Manpower and Reserve Affairs has identified three categories 
of units to test. These include: Early Entry Operations, Known Surge 
Operations, and Sustainment Operations, all scheduled to begin October 
1, 2008.
Develop Agile and Adaptive Leaders
    Army Reserve senior leaders serve in Army Reserve Operational and 
Functional formations and at all levels of Army Commands throughout the 
force. They bring a unique blend of civilian-acquired skills and honed 
warrior-leader attributes to the fight.
    The Army Reserve continues to explore avenues to increase the 
primary war-fighting skills through direct management, development, and 
utilization of our senior leaders from the Active Guard and Reserve 
(AGR), Troop Program Unit (TPU), and Individual Mobilization Augmentee 
(IMA) ranks.
  --The Senior Leader Training Program.--The Senior Leader Training 
        Program develops the intellectual and strategic-thinking skills 
        senior leaders need to implement, manage, and lead change in 
        the Army Reserve. Topics covered include: strategic leadership 
        skills, ethical decision making, critical thinking, and Army 
        Reserve transformation. The program focuses on general officer 
        and colonel-level leaders with seminars that assist subordinate 
        commanders in working through transformation and organizational 
        change.
  --Pre-Command Courses.--The Army Reserve upgraded brigade and 
        battalion pre-command courses to enhance training to prepare 
        field grade commanders and command sergeant majors to lead Army 
        Reserve Soldiers.
Equipping Soldiers
    The Army Reserve is committed to providing our Warrior Citizens 
with the best, most technologically advanced equipment available when 
they train and deploy. We are implementing innovative initiatives and 
programs to support the Army Reserve Training Strategy to concentrate 
equipment and sustainment capabilities at regional training sites.
    During fiscal year 2007, the Army Reserve was able to mobilize all 
of its sourced units and elements while meeting pre-mobilization 
training objectives. The existence of theater-provided equipment 
relieved some pressure on the Army Reserve to find Modular Force-
compatible equipment for our mobilizing units. However, providing the 
same equipment for pre-mobilization training has forced the Army 
Reserve to expend limited resources to move Modular Force-compatible 
equipment between units and training locations. Over 6,700 items were 
shipped from unit-home stations and equipment-demobilization sites to 
pre-mobilization training sites during fiscal year 2007. We anticipate 
approximately 7,000 pieces of equipment to be shipped to pre-
mobilization sites in fiscal year 2008.
    The Army Reserve has continued to maintain 90 percent or better 
availability of its limited inventory for deployment and training 
through extensive use of overtime and contracting. Much of this success 
can be attributed to the availability of supplemental funds to contract 
for support to offset the shortfall in facilities and manpower and to 
sustain logistics operations in support of the training and 
mobilization of ``next-deployers.''
    The continuing shift of pre-mobilization training objectives under 
the ARFORGEN process not only continues to add pressure to our aging 
and limited equipment inventory for training, it could impact our 
response during a domestic emergency or a second foreign or domestic 
contingency.
    Currently programmed funding for equipment procurement will 
alleviate this concern, but the equipment procured will not be 
completely delivered until fiscal year 2016. At that time, our 
equipment on hand against unit requirements will increase from the 
current 68 percent to approximately 85 percent. The programmed funding, 
however, will only cover current shortages in Modular Force equipment.
    Other critical factors in maintaining the readiness of our 
equipment to support pre-mobilization training and deployment are the 
national level sustainment programs, such as Recapitalization and Depot 
Maintenance. The Recapitalization program affected only two major Army 
Reserve systems, the High Mobility Multi-Purpose Vehicle and the Heavy 
Expanded Mobility Tactical Truck. The Depot Maintenance program, 
however, provides the opportunity to extend the service life, reduce 
life-cycle costs, and maintain safe operation of older items required 
to substitute for Modular Force equipment due to equipment shortages in 
the Army Reserve.
Homeland Defense and Support to Civil Authorities
    As the first Title 10 responder to support civil authorities during 
a domestic emergency, the Army Reserve is in the best position to 
respond to an attack that occurs in the United States. Our personnel 
and equipment are located in 1,200 communities across the Nation. As 
such, the Army Reserve is an important element of the current DOD 
``Lead, Support, Enable'' Strategy for Homeland Defense and Civil 
Support. U.S. military forces organize, train, and equip to operate in 
contaminated environments, as well as manage the consequences of 
chemical, biological, radiological, or nuclear explosion incidents on a 
level unmatched by any other single domestic agency or international 
partner.
    The Chemical, Biological, and Radiological Nuclear Explosion 
Consequence Management Response Force consists of a rotational pool of 
Active and Reserve units from each of the services. When assigned to 
this force rotation, these units are kept on short notice to conduct a 
secondary mission of domestic consequence management should the need 
arise. Forces for direct response to the effects of an incident deploy 
when directed by the President or Secretary of Defense.
    The Army Reserve is uniquely positioned to support the Army and 
protect our homeland with experience, knowledge, capability, and 
competency. During this persistent conflict, the Army Reserve has the 
capabilities to keep watch at home and to respond to domestic 
emergencies. The imperative of Prepare will help bring the Army Reserve 
back into balance by ensuring our Warrior Citizens are prepared to 
succeed in current and future operational environments.
     reset our equipment to restore readiness and depth for future 
                               operations
    To succeed in current and future operations, the Army Reserve must 
take deliberate steps to ensure that our force is reset as a result of 
repeated deployments, and that our Families and employers are 
revitalized between their Soldiers' deployments so they too can sustain 
the continuous state of mobilization that their Warrior Citizens now 
experience. The Reset imperative now focuses on our equipment with the 
goal of undoing the accumulated effects of repeated equipment use by 
repairing, replacing, and recapitalizing our equipment to rebalance the 
Force.
    In response to the ARFORGEN process, the Army Reserve is building 
pools of equipment to support the mobilization of Army Reserve units in 
year five (Available) at strategic deployment sites, where the 
equipment is maintained in controlled humidity storage. If no Army 
Reserve units are mobilized for a contingency, foreign or domestic, the 
equipment will remain ready for the next cycle. The equipment in the 
hands of our units will remain with these units, be inducted into 
national sustainment programs, or be redistributed to meet the needs of 
the Army Reserve units as they enter the Reset/Train phase (year one).
    The Army Reserve does not budget for unplanned requirements. 
Therefore, should any Army Reserve units be mobilized, additional funds 
will be required to reset the equipment assigned to the mobilized units 
when they demobilize. These funds will prevent an adverse impact on the 
Army Reserve's ability to sustain the ARFORGEN process.
    A critical enabler for the Army Reserve during Reset is an array of 
standard Army management information systems, such as the Army Reset 
Management Tool and supplementary logistics information and management 
systems developed and fielded by the Army Reserve.
Repair and Replace Equipment
    Currently, logistics operations and support for the Reset Program 
is managed and executed by the Army Materiel Command and the Army 
Installation Management Command. The fiscal year 2007 supplemental 
budget fully funded the reset of Army Reserve equipment redeployed from 
Operation Enduring Freedom and Operation Iraqi Freedom. In fiscal year 
2007, the Army Reserve significantly reduced its logistics reset 
backlog. We recovered, repaired, and serviced all redeployed equipment 
not inducted into national level maintenance by the Reset program. With 
the shortage of equipment in the Army Reserve, this recovered equipment 
was immediately transferred from redeployed units to ``next deployers'' 
in order to sustain pre-mobilization and pre-deployment training.
    In fiscal year 2007, equipment losses incurred by the Army Reserve 
during mobilization and deployment were identified to the Army for 
integration into procurement and redistribution planning. Equipment is 
programmed for replacement over the next five years. The Reset 
imperative will contribute to restoring balance to the Army Reserve by 
reconstituting our equipment to match the operational tempo of this 
persistent conflict.
   transform the army reserve to meet the demands of the 21st century
    Demand for the authorized 205,000 Army Reserve Soldiers continues 
to verify the value of their contributions to the Total Force. Our 
transformation to a more effective, integral operational force allows 
us to meet today's demands and to position the Force for future 
deployments and contingency operations and commitments at home and 
abroad. Army Reserve Soldiers, Families, and employers continue to be 
an integral part of this transformation as we form and confirm bonds 
that support changes in the way we train, equip, resource, and mobilize 
our Force. The men and women of the Army Reserve are the centerpiece of 
our transformation. They are the strength of the Army Reserve force and 
the Nation--as both Soldiers and Citizens.
    On January 31, 2008, after releasing two interim reports, the 
Commission on the National Guard and Reserves submitted its final 
report to Congress. In it, the Commission concluded, ``The reliance (on 
the Reserve Components) should grow, even after the demands for forces 
associated with current operations are reduced.'' The report noted 
that, ``Their service in the operational force will be required in 
peacetime, and they will continue to provide a cost-effective means of 
ensuring that strategic requirements to meet a large wartime threat are 
also available. . . . Employing the Reserves in this fashion has proven 
necessary and effective and they have been relied on in every major 
military operation since Operation Desert Storm, yet the structural 
foundations of Reserve Component organization have been changed little 
to facilitate this employment.''
    Fully integrating with the Active Component and effectively 
operationalizing the Army Reserve are fundamental to the Transform 
imperative. The implementation of this imperative will return balance 
to the Army Reserve as we seek to grow the Army, modernize, undergo 
organizational and institutional change, and improve communications.
Grow the Army
    As the Army Reserve continues to shape our force in preparation to 
support an era of persistent conflict, the challenge continues to be 
recruiting enough Soldiers to man units and equip new units with modern 
equipment compatible with the units and services with which we 
integrate and serve. Ready units will enable Soldiers as they train and 
prepare for deployment. Once activated, these modular units will 
increase our rotational depth and provide additional flexibility by 
having units that can be tailored to meet specific mission requirements 
for the Army.
    In fiscal year 2007, the Army Reserve programmed to make 
efficiencies and reintegrate 16,000 spaces to build into modular 
operational units. Additionally, we will also add 1,000 spaces to our 
Force Structure Allowance. The approximately 17,000 spaces of structure 
incorporated into our Force will help to mitigate anticipated 
shortfalls in combat support and combat service-support personnel and 
equipment according to the Total Army Analysis. The Army Reserve 
resourced force will then be a force structure of 206,000--with an 
operating force of 145,500, generating force of 48,500, and Trainee, 
Transient, Holding, and Student force of 12,000.
    The process of shifting our command and control from generating to 
operational commands is nearing completion. In the next two fiscal 
years, we will finalize the disestablishment of the 12 two-star 
readiness commands and transfer command and control of subordinate 
units to 11 one- and two-star operational and functional commands. This 
shift enables the Army Reserve to source more operational units from 
the space savings as a result of reductions in headquarters structure 
throughout the Army Reserve. Additionally, we will create structure 
savings as the four two-star Regional Support Commands (RSCs) are 
established during fiscal year 2008 to assume the base operations 
functions in support of more than 1,000 Army Reserve centers throughout 
the United States. These four RSCs will relieve operational commands of 
facility/garrison-type functions and allow these commands to focus on 
unit readiness training. The RSCs will be the Army Reserve's link to 
Installation Management Command to ensure standardization in garrison 
operations.
Modernize
    As a result of historically low levels of modern equipment, the 
Army Reserve still faces equipping challenges, even though no Army 
Reserve unit deploys without a full complement of compatible or 
interoperable deployable equipment. In support of our transformation to 
an operational force, the Army has committed to spending approximately 
$5 billion in new equipment procurements for deploying Soldiers and 
next-deploying units in scheduled equipment deliveries between July 
2007 and June 2010. These deliveries represent some of the Army's most 
modern systems--such as the biological integrated and detection 
systems, armored security vehicles, and various models of tactical-
wheeled vehicles.
    In fiscal year 2007, the Army Reserve fielded the joint biological 
detection system, the self-powered biological warfare agent detection 
and identification instrument suite, the all-terrain lifter Army 
system, and various communications equipment and individual weapon 
systems. The Army Reserve is also gaining aviation capability with the 
delivery of six of 36 HH-60 MEDEVAC helicopters identified in the Army 
Campaign Plan, and 12 AH-64D Longbow Apache helicopters as part of the 
Attack Helicopter Conversion program.
    The centerpiece of Army transformation as well as the biggest 
acquisition challenge is the Future Combat Systems (FCS). FCS will link 
a new generation of 14 manned and unmanned ground vehicles, air 
vehicles, sensors, and munitions. The architectural platforms within 
each of the individual systems will be designed simultaneously, and 
will ensure compatibility and interoperability of combat support and 
combat service support with the combat forces.
    The Army is modularizing all of its formations--in both the Active 
and Reserve Components--representing a net increase of new modern 
equipment required in all components, and allowing the Army to retire 
several obsolete equipment systems. Modularity seeks to make 
independent, deployable organizations at the lowest levels possible. 
Decentralizing logistics support means recreating that capability at 
unit level. Cooks, mechanics, drivers, equipment operators, and 
warehouse personnel--once concentrated above platoon, company, and 
battalion level--are now required to support independent modular units. 
This also increases the requirements for equipment, including: trucks, 
kitchen trailers, material handling equipment, and computers, as well 
as logistics information and management systems. These are items that 
are often already in short supply within the Army Reserve. Modularity 
has put increased stress on a limited inventory of Modular Force and 
Modular Force-compatible equipment available to the Army Reserve.
Organizational Change
    Transformation is changing the way logistics support and operations 
are conducted by the Army Reserve. Command and control and 
responsibility for unit logistics readiness are being transferred from 
the Regional Readiness Commands to Operational and Functional Commands, 
such as the 377th Theater Sustainment Command in New Orleans, 
Louisiana. Four regional support commands will provide logistics 
support for pre-mobilization training and domestic operations. The 
operation of Army Reserve maintenance and storage facilities, such as 
area maintenance support activities, equipment concentration sites, and 
strategic deployment sites, will become the responsibility of the 
regional commands. Critical enablers include renovated or new 
facilities and the required logistics information and management 
technologies for effectively and efficiently managing logistics 
readiness and operations.
    The Army Reserve has a strategic commitment to fulfill the vision 
of the Army Campaign Plan. By 2013, we will have built 77 brigade force 
equivalents to include 12 multifunctional support brigades (nine 
sustainment brigades and three maneuver enhancement brigades) and 53 
functional support brigades (three Army field support brigades, one 
chemical brigade, four engineer brigades, three military police 
brigades, three petroleum, oil, lubricant brigades, one signal brigade, 
ten medical brigades, two information operations brigades, one theater 
aviation brigade, and 25 regional support groups); eight civil affairs 
brigades; and two psychological operations groups.
  --Base Realignment and Closure Execution.--BRAC 2005 has effectively 
        ``flattened'' the hierarchy that characterized the Army Reserve 
        force structure during the Cold War. As we convert to 
        operational commands, we currently have five regional support 
        groups with projected gains of two information operations 
        groups, one combat support brigade, two sustainment brigades, 
        one Army field support brigade, and seven expeditionary support 
        commands. BRAC represents significant cost efficiencies to the 
        American taxpayer via the Army Reserve; its mandate is to 
        improve the support we provide Soldiers.
Institutional Change
    Our transformation to an operational force cannot succeed without 
institutional change to adapt processes, policies, and procedures to 
meet the realities of current and future needs. A critical aspect of 
institutional change is our Business Transformation initiative, which 
challenges the Army Reserve to transform our business methods and 
culture to apply the best civilian business practices to increase 
effectiveness and efficiency.
    Our Business Transformation Office, established in April 2006 at 
the U.S. Army Reserve Command, reviews all business processes for 
waste, inefficiency, and duplication, and assures best business 
practices. One of the most effective business improvement methodologies 
the Army Reserve has adapted from the business world is Lean Six Sigma, 
a business methodology to define and analyze opportunities and to 
measure, improve, and control performance. In order to maximize the 
unique skills and certifications Army Reserve Soldiers have that are 
not normally resident within the Active Component, we have identified 
more than 50 Army Reserve Soldiers highly qualified in Lean Six Sigma 
methodologies as a result of their civilian occupations. Utilization of 
civilian-acquired skills instead of relying solely on contractors 
provides a cost avoidance of approximately $3.5 million.
    Additional best business practice oversight is conducted by the 
Army Reserve Internal Review Program to evaluate risk; assess internal 
controls; improve quality, economy, and efficiency; and foster 
stewardship. In fiscal year 2007, more than 350 internal reviews 
resulted in monetary benefits of over $34 million.
    The Army Reserve, like the Active Army, is also concerned about 
problems in Army contracting; we are, therefore, committed to improving 
our contracting operations across the Army Reserve. Our plan to 
implement improvement initiatives maintains that Acquisition Planning 
is critical for this effort to succeed. World-class acquisitions don't 
just happen--they are planned! Planning is the most pivotal activity 
the Army Reserve must perform in the acquisition process to ensure we 
get what we want, when we need it, for the most cost-effective, value-
added, economical price.
    In the military, we are trained to plan for combat. When planning 
for and conducting combat operations, we focus on the enemy by knowing 
the enemy, developing plans to keep the enemy foremost in mind, and 
strategizing war games that allow us to enhance or adjust the plan once 
enemy contact is made. As a vital component to the Active Army, the 
Army Reserve must approach acquisition planning the same way we 
approach planning for a military campaign. For an acquisition, cost 
overruns, schedule/delivery delays, and performance shortfalls are our 
enemy. We will develop our acquisition plan via market research, and 
finally, war-game the acquisition from start to finish, applying the 
Acquisition Planning Process. We will involve our supporting 
contracting professionals in every step of the process to ensure 
contract operations best practices and proper use of resources.
Communications
    The geographic dispersion of the Army Reserve makes communications 
and information technology (voice, data, and video) services the 
primary means of conducting command and control, managing mobilization 
timelines, facilitating training data exchange, and providing Army 
Reserve ``reach-back'' capabilities to support the Combatant Commander 
and the Soldiers in the field. As the Army Reserve transforms to adapt 
to the emerging Modular Force structure, the Command, Control, 
Communications, Computers/Information Technology infrastructure 
supporting the mission must also adapt and expand mobile services to 
those Modular Forces.
    Over the past two years, we have successfully consolidated 
information technology services including network operations, 
authentication, security/protection, e-mail, and critical application 
hosting, which have resulted in significant improvements in terms of 
systems availability and reliability. In coordination with the Army, 
the Army Reserve is executing a strategy for network convergence that 
will provide more robust access and service to Army Reserve mobile 
forces worldwide, and thereby tremendously improve the availability and 
security of these systems and application data.
    At both organizational and unit levels, the ability to communicate 
via secure video teleconferencing and secure Internet communication are 
paramount for deploying forces. Services directly affected by mission 
changes include expanded bandwidth to relieve network traffic 
saturation; force protection and home-station command operations for 
locations within the continental United States; secure audio and video 
connectivity; and support for ongoing reach-back operations that 
provide logistics and personnel support and satellite operations.
    Progressive change, as outlined in the Transform imperative, is 
essential for the Army Reserve to improve capabilities and to ensure 
our ability to regain balance as an operational federal force.
                      ready for the next 100 years
    The Army Reserve will require considerable resources and several 
years to optimize structure and build capacity for the future. Our plan 
to mitigate near-term risk and regain balance by 2011 centers on the 
four imperatives described in this report: Sustain, Prepare, Reset, and 
Transform. Recent decisions by the President, the Secretary of Defense, 
and Congress have accelerated the growth of the Total Force, increased 
the Army's access to the Reserve Component, and generated momentum 
needed to restore balance for the Army and the Army Reserve. Due to 
current operational demands, however, an imbalance exists between our 
supply of forces and capabilities and the Combatant Commanders' 
requirements for them. To enhance readiness for current operational 
demands and future challenges, we require sustained, predictable 
funding and operational timelines under ARFORGEN for the foreseeable 
future.
    Although we have adapted our training for counterinsurgency 
operations in Iraq and Afghanistan, we must rebuild readiness across 
the Army Reserve to succeed throughout this persistent conflict. 
Funding for the Army Reserve not only affects equipment readiness, but 
also Soldier readiness for current and future peacetime military 
engagements and major combat operations.
            Sustain Army Reserve Soldiers, their Families, and their 
                    Employers
    Failure to provide the resources necessary to sustain Army Reserve 
Soldiers, their Families, and their employers jeopardizes the ability 
for the Army Reserve to respond when the Nation calls. The Army Reserve 
has been able to manage the risk of mission failure thus far because we 
have not faced a major contingency operation in conjunction with 
support to Operation Enduring Freedom and Operation Iraqi Freedom. Such 
a contingency, especially one in the continental United States, would 
compromise the ability of the Army Reserve to train and supply the 
force for deploying missions. To mitigate this risk we continue a two-
pronged approach: (1) provide Soldiers, their Families, and their 
employers the resources, programs, and services they deserve and the 
Army requires to ensure readiness and to sustain the All-Volunteer 
Force; and (2) procure modern equipment, appropriate facilities, and 
the full-time support personnel necessary to train the force and 
maintain equipment.
    Failure to motivate our current and future Warrior Citizens to 
serve their Nation and to take care of our Soldiers, their Families, 
and their employers will adversely impact our ability to transform to 
an operational force.
            Prepare the Army Reserve for Success in the Current 
                    Conflict
    Without an immediate and continuing investment in procuring 
training dollars and sustaining enough Modular Force equipment to 
completely equip the Army Reserve, the ability to meet pre-mobilization 
training and mobilization objectives under the ARFORGEN process will be 
put at risk. Training on obsolete equipment is ineffective and 
wasteful. Failure to fund the maintenance (including parts, full-time 
personnel, and storage facilities) of new equipment will be more 
expensive in the long run. To mitigate this risk, the Army Reserve 
continues to fund the training resource model, including full-time 
personnel and the best available equipment. Additionally, the Army 
Reserve continues to fund and fully integrate Army Reserve logistics 
information technology to sustain future Army requirements.
            Reset the Army Reserve to Rebuild for Future Contingencies
    Shortfalls to repairing and replacing our equipment directly impair 
unit readiness. Lack of retraining and revitalizing our Soldiers 
directly impacts personnel readiness (to include Soldiers' Families and 
their employers). Simply put, failure to fully fund resetting the 
force, including equipment and people, hinders our ability to perform 
our Title 10 responsibilities. To mitigate risk during reset we will 
bring all of our current resources to bear on the problem. We will 
consolidate repair operations whenever and wherever feasible. We will 
consolidate training activities where we can. However, program support 
is critical in order to correct equipment shortages incurred as a 
result of the operational tempo our equipment has endured during this 
persistent conflict.
            Transform the Army Reserve to Meet the Demands of the 21st 
                    Century
    By increasing the depth and breadth of its overall capacity, Army 
Reserve transformation is improving the Army Reserve's ability to 
execute and support protracted operational requirements. Sustained 
resources to continue this transformation will improve the readiness of 
non-deployed Army Reserve forces, reduce stress on Army Reserve 
Soldiers, their Families, and their employers, and improve the 
readiness of Army Reserve equipment and facilities. Failure to support 
Army Reserve transformation compromises the Army's ability to develop 
relevant capabilities to respond to current and future operations. To 
mitigate this risk, the Army Reserve must continue to receive full 
funding of its budget request and retain flexibility to manage the 
force.
            The Next 100 Years
    The Army Reserve is a community-based, All-Volunteer, federal 
force. As the Commission on the National Guard and Reserves recently 
concluded, ``There is no reasonable alternative to the nation's 
continued reliance on the Reserve.'' Ensuring that our force of skill-
rich, Warrior Citizens remains relevant requires a significant 
investment from our Nation. Sustaining the Army Reserve requires 
resources to fund issues such as quality of life, restructuring 
initiatives, and the ability to provide competitive pay and benefits 
for our Soldiers. Recruiting and retaining our Warrior Citizens 
involves support from our communities, Families, and employers.
    During our first 100 years, the Army Reserve repeatedly provided 
the most cost-effective federal force to the Nation. To remain a value-
added, skill-rich Force that is the strength of the Nation requires 
your support to the Army Reserve now and in the future. We remain 
committed as a Force that is Army Strong!

    Senator Stevens. Our next witness is Vice Admiral John 
Cotton, Chief of the Navy Reserve.
STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVY 
            RESERVE
    Admiral Cotton. Good morning, Mr. Chairman, and thanks for 
the nice comments. It has, indeed, been a privilege and real 
honor to serve the past 4 years.
    As a result of our Active Reserve integration efforts in 
the United States Navy, I am proud to say this morning that our 
Navy Reserve is slightly over strength. That is a good position 
to be in. We recruit as a total force and we emphasize sailor 
for life and a continuum of service. It frankly has never been 
better. About 70,000 reservists this morning, about 21,000 on 
orders, about 5,000 are mobilized, and about 4,000 are in 
theater supporting Central Command.
    We are fully funded to support the fleet and the combatant 
commanders, and that is the great news.
    If I look back over the 4 years, the one item that we have 
not fixed that we talked about here 4 years ago is still a 
single pay and benefits system for all the services because 
back here in the States, we have our own systems. We need to go 
forward. It is very tough for the combatant commanders with all 
the joint forces that are there. I know we are working on it. 
We have some solutions, but it always seems to be a couple of 
years out. So I think that is something we need to work on in 
the future.
    We also have all been working together. We mobilize a lot 
better than we used to. We fight extremely well together. We 
demobilize a little bit better. We still need to put a lot more 
attention, I think, into our wounded warrior efforts and 
especially our family efforts. And back in our States, each 
service cannot do it alone. We need to do it jointly, and I 
think that is where the Guard and Reserve components can really 
help out especially the active component members that are going 
forward on IAs and their families move back to their home 
States.

                           PREPARED STATEMENT

    So, sir, I will put my statement in the record. I thank you 
for your support, especially to our National Guard and Reserve 
equipment account that we use to plug the holes where we have 
emergent needs for our warfighters, especially our 
expeditionary maritime security forces. Thank you, sir.
    Senator Stevens. Thank you, Admiral.
    [The statement follows:]
           Prepared Statement of Vice Admiral John G. Cotton
                              introduction
    Chairman Inouye, Senator Stevens, and distinguished members of the 
committee, thank you for the opportunity to speak with you today about 
the capabilities, capacity, and readiness of the dedicated men and 
women who serve in our Navy's Reserve Component (RC).
    With continued emphasis on Active Reserve Integration (ARI), our 
Navy Reserve force is more ready, responsive, and relevant as a full 
partner in the Navy's total force. Alongside Active Component (AC) 
sailors, RC sailors provide integrated operational support to the Fleet 
and Combatant Commands (COCOMs). Nearly 70,000 Navy reservists are 
deployed in support of global coalition forces, at their supported 
commands or in strategic reserve, ready 24/7/365 to surge to homeland 
defense. Since September 11, 2001, over 50,000 Navy reservists have 
been mobilized in support of the global war on terror, and on any given 
day more than 21,000 talented men and women, or 30 percent of the Navy 
Reserve, are on some type of orders as part of the total Naval 
workforce, fully leveraging their military and civilian skill sets and 
capabilities. Included are about 6,000 RC sailors mobilized in support 
of Operations ENDURING FREEDOM and IRAQI FREEDOM (OEF/OIF), and with 
this steady state requirement, we maintain the capacity to rapidly 
increase contingency support with more than 28,000 additional ready 
reservists.
    Whether supporting combat operations in Iraq or Afghanistan, 
providing humanitarian assistance and disaster relief at home or abroad 
or supporting daily Navy missions at every Fleet and COCOM, Navy 
reservists provide integrated operational support while continuing to 
maintain the RC's role as a strategic baseline.
    As demonstrated through force generation, deployment, and 
redeployment, it is clear that RC forces meet two significant needs of 
our Navy. First, reservists deliver a strategic capability and capacity 
in support of major combat operations, and second, they provide 
operational augmentation to meet predictable and periodic routine 
military missions. By continuing to fully develop ARI, our Navy has 
institutionalized an operational Navy Reserve. The Navy simply cannot 
meet all Fleet and global war on terror requirements without the many 
contributions of its Reserve force.
    The vision of the Navy Reserve is ``Support to the Fleet--Ready and 
Fully Integrated.'' Our overall Navy Reserve force effectiveness is 
measured by the level of integrated operational support it provides to 
the Fleet and COCOMs. While some RC sailors are only able to perform 
the minimum contractual requirement of 2 drill-days a month and 2 weeks 
active duty each year, over two-thirds of the force are far exceeding 
these minimums while performing essential operational support. When the 
work is predictable, periodic and requires special skill sets, 
utilizing a ready and responsive reservist is often the most cost 
effective and capable solution.
    On September 29, 2007, Admiral Gary Roughead assumed the watch as 
our 29th Chief of Naval Operations (CNO) and issued his top three 
priorities to the fleet: current readiness, a Navy for tomorrow, and 
people.
                           current readiness
    Maintaining our warfighting readiness demands that we are agile, 
capable, and ready. We generate forces for the current fight and employ 
our Navy much differently than in years past. Simultaneously, we 
provide ready naval forces and personnel for Joint Force Commanders, 
sustain forward presence, fulfill commitments to allies and respond to 
increasing demands in regions where we have not routinely operated, 
specifically South America and Africa.
    To provide sustained combat readiness, the Navy has moved from 
predictable deployment cycles to a more flexible Fleet Response Plan 
(FRP), under which a surge Navy is able to provide a requirement-based 
and continually ready posture which produces greater warfighting 
capability at reduced cost. As part of the FRP, a fully integrated and 
ready Navy Reserve provides an enhanced surge capacity to meet 
validated requirements with individuals and units. Our FRP increases 
operational availability and allows us to operate with greater 
flexibility. The RC continues to emphasize current readiness and is 
capable of engaging future geopolitical challenges as an affordable and 
effective element of our total force.
    Our force readiness is comprised of two interdependent categories: 
sailor and family readiness. Sailor readiness is defined by the 
medical, physical and administrative preparedness of the sailor. We 
also recognize the fundamental contribution of the Navy family to 
overall readiness. Therefore, we must continue to provide families 
better and more responsive assistance which enables them to be prepared 
for their sailor's call to service.
    Medical Readiness.--Navy Reserve continues to be a leader in 
individual medical readiness. Four years ago, Navy Reserve was 63 
percent medically ready to deploy. Today, our force exceeds 84 percent 
medically ready, which leads all military components. Our significant 
improvement can be attributed in part to the Medical Readiness 
Reporting System (MRRS), which has given Navy leadership improved 
visibility of the medical readiness of the Force. As a comprehensive 
web-based management tool, MRRS has enabled leaders to identify 
deficiencies and promptly address them, as well as plan for future 
medical readiness requirements. Due to the success of MRRS in the Navy 
Reserve, all Navy and Marine Corps commands are being incorporated into 
the system, which will automatically report accurate and timely medical 
readiness. Additionally, the United States Coast Guard is also planning 
to implement MRRS this year.
    Physical Readiness.--Navy Reserve continues to emphasize physical 
readiness for all sailors. We have established a culture of fitness by 
emphasizing both individual and command accountability for physical 
readiness. Every Navy unit has a Command Fitness Leader (CFL) who is 
responsible to the Commanding Officer (CO) to administer the unit's 
Fitness Enhancement Program (FEP), which emphasizes individual physical 
readiness. Our COs are held accountable in their personal evaluations 
for their sailors' performance in the FEP. Commanders have visibility 
into the physical readiness of both individual sailors and larger units 
via the web-based Physical Readiness Information Management System 
(PRIMS). CFLs are enabled to enter data from physical readiness tests 
into PRIMS for each member of their command. Commanders then have the 
ability to accurately assess their units' physical readiness and adjust 
the FEP as necessary. Sailor readiness is also a primary discussion 
topic during weekly Reserve force communications, placing further 
command emphasis on the importance of medical and physical 
requirements.
    Administrative Readiness.--The Navy Reserve has enhanced 
administrative readiness through the employment of the Type Commander 
(TYCOM) Readiness Management System--Navy Reserve Readiness Module 
(TRMS-NRRM), which provides a scalable view of readiness for the entire 
force. Commanders can quickly determine readiness information for 
individuals, units, activities, regions, and many other desired 
echelons. TRMS-NRRM, a Navy Reserve developed system, has served as a 
prototype for the Defense Readiness Reporting System--Navy (DRRS-N), 
which is currently under development by Commander, U.S. Fleet Forces 
Command for use by the total force. DRRS-N will provide a database to 
collect and display readiness information across the force enabling 
commanders to make real-time capability-based assessments and 
decisions.
    Navy is considering additional options for total force systems that 
will reduce administrative impediments. The administrative 
inefficiencies created by multiple electronic pay and manpower systems 
create waste and unnecessary burdens on leadership and hinder force 
readiness. A common AC/RC pay system is crucial to the success of our 
Sailor for Life and Continuum of Service initiatives. In the future, 
manpower transactions will ideally be accomplished on a laptop with the 
click of a mouse, and records will be shared through a common data 
repository with all DOD enterprises. Navy fully supports the vision of 
an integrated set of processes to manage all pay and personnel needs 
for the individual and provide necessary levels of personnel visibility 
to support joint warfighter requirements. Manpower management tools 
should enable the ability for a financial audit of personnel costs and 
support accurate, agile decision-making at all levels of DOD through a 
common system and standardized data structure.
    One constraint to these initiatives is the RC order writing 
process. Our current system has roughly 30 types of duty, including 
Inactive Duty for Training (IDT), Inactive Duty for Training-Travel 
(IDT-T), Annual Training (AT), Active Duty for Training (ADT), and 
Active Duty for Operational Support (ADOS). Numerous funding categories 
of orders are inefficient, wasteful and inhibit Navy's ability to 
access reservists and quickly respond to Fleet and COCOM requirements. 
Process delays are especially troubling at a time when we are relying 
on our reservists to serve as ``first responders'' in the case of a 
domestic emergency. A reduction in the number of duty types, coupled 
with a well-developed, web-based personnel management system, will 
enable RC sailors to rapidly surge to validated requirements. In 
addition to multiple types of orders, the disparate funding processes 
are equally complex. The consolidation of most RC order writing to the 
Navy Reserve Order Writing System (NROWS) has been a significant 
evolution in Navy's effort to integrate its Total Force capabilities by 
aligning funding sources and accurately resourcing operational support 
accounts.
    Family Readiness.--We recruit the sailor, but retain the family; 
which means family readiness is more important than ever as we face the 
challenge of constant conflict with the expectations of multiple, 
predictable and periodic deployments. Navy is dedicated to the support 
of our families and is engaged in an ongoing effort to expand family 
support programs. Since our sailors are stationed in all 50 States, we 
have improved access to available family support resources, including 
those of the Guard. We have developed a family support program that 
employs professional administrators at each Navy Region Reserve 
Component Command (RCC) who are knowledgeable in every aspect of sailor 
and family assistance, especially for those mobilized and deployed. 
Recent initiatives include the Returning Warrior Workshops (RWW), 
pioneered by Navy Region Southwest RCC, which assist returning warriors 
and their families with a smooth transition from a deployed status. The 
weekend-long sessions include interactive group presentations by 
trained facilitators, breakout sessions, vendor information, and one-
on-one counseling in a conference-style setting. Qualified facilitators 
help the participants cope with potentially sensitive and emotional 
discussions as they adjust to family life and civilian employment. By 
continually incorporating lessons learned, RWW effectively deal with 
the broad array of issues facing Navy families before, during and after 
deployments. Workshops also provide additional resources for sailors as 
they return to non-mobilized status.
                          a navy for tomorrow
    The global war on terror has demonstrated the increasing importance 
of the Navy's expeditionary capabilities. Emergent requirements enabled 
Navy leadership to program the expansion of our core maritime 
capabilities into the coastal and inland environments, and Navy Reserve 
continues to perform many important roles in these evolving warfighting 
operations. Almost half of the Navy Expeditionary Combat Command (NECC) 
30,000 sailors are reservists. NECC is an adaptable force which deploys 
Navy capabilities in the green and brown water environments and ashore. 
Our sailors perform a variety of global missions, including security on 
North Arabian Gulf oil platforms, counter-improvised explosive device 
operations in Afghanistan and Iraq, customs inspections in Kuwait and 
drilling and developing potable water wells in villages in the Horn of 
Africa.
    Reservists comprise over 90 percent of the Navy Expeditionary 
Logistics Support Group (NAVELSG), a component of NECC. NAVELSG 
performs air cargo handling missions, customs inspections, freight 
terminal operations, and ordnance handling. Navy Customs Battalion 
(NCB) UNIFORM recently deployed with more than 400 reservists and 
typifies the diversity and relevance of the Navy Reserve as it supports 
the war from Main Street, USA. More than 107 Navy Operational Support 
Centers (NOSCs) in 43 States, Washington, DC, Puerto Rico, and Guam 
mobilized our diverse group of UNIFORM sailors who range in age from 21 
to 58, and include; police officers, school teachers, postal clerks, 
safety inspector agents, engineers, trauma nurses, and carpenters. NCB 
UNIFORM is the seventh rotation of Navy Reservists activated to perform 
this unique mission in support of OIF.
    Navy reservists are 60 percent of the Naval Construction Force 
(SEABEES), who help fulfill more than one-third of NECC's manpower 
requirements. SEABEES are engaged throughout Afghanistan and Iraq 
constructing base camps, roads, and airfields, and repairing bridges 
and buildings. Sailors have constructed school dormitories and water 
wells in Djibouti, erected shelters for flood victims in Ethiopia and 
provided humanitarian relief in Pakistan, Indonesia, Bangladesh, East 
and West Timor, and the Philippines.
    The Navy League recently honored a Reserve SEABEE with the 
prestigious Admiral Ben Morell Award for Logistics Competence. Senior 
Chief Equipment Operator (SEABEE combat warfare) Jason Jones, from 
Naval Construction Battalion 21, mobilized and deployed to Kuwait with 
a detachment of 145 shipmates. Drawing from his civilian construction 
skills, he successfully led his sailors to complete several vital 
projects, including the rebuilding of an operationally critical 
airfield in Afghanistan. Similar NECC RC operational support is 
evidenced daily in Naval Coastal Warfare with Embarked Security 
Detachments (ESDs), Maritime Civil Affairs Group (MCAG) and the 
Expeditionary Combat Readiness Center (ECRC). ESD sailors provide force 
protection for naval assets in the Suez Canal, Arabian Gulf, and Strait 
of Hormuz.
    Because of their experience, Reserve sailors frequently train AC 
security team members. The MCAG works directly with civil authorities 
and civilian populations in the maritime environment and is capable of 
addressing issues such as maritime law, marine fisheries, port 
operations, security and immigration. ECRC, 25 percent RC, is a 
dedicated team of more than 200 professionals overseeing the training, 
equipping, deploying and redeploying of augmentation forces.
    Navy Reserve sailors are fully integrated into the Naval Aviation 
Enterprise (NAE) and play critical roles in training, air logistics, 
adversary support, counter narcotics operations and combat support. 
Exemplifying the relevance to the total force, Reserve instructor 
pilots fly nearly 1,000 sorties per week while assigned to squadron 
augment units under the Chief of Naval Aviation Training (CNATRA). 
While only 10 percent of CNATRA's training squadron instructor cadre 
are reservists, they are responsible for about 17 percent of the 
instructional flight events. Fleet Logistics Support Wing assets are 
routinely deployed and provide responsive air logistics support to the 
Fleet and COCOMs. The active and reserve sailors of Helicopter Sea 
Combat Squadron-84 are forward deployed in Iraq in direct support of 
combat operations. The Reserve sailors of Electronic Attack Squadron-
209 recently returned from a 3-month deployment to Afghanistan. The 
Reserve sailors of Helicopter Antisubmarine (Light) Squadron SIX ZERO 
and Carrier Airborne Early Warning Squadron SEVEN SEVEN deploy in 
support of counter-narcotics operations under United States Southern 
Command. The missions that RC sailors perform serve to make the NAE 
more cost-effective and efficient, while capitalizing on the experience 
and maturity of talented reservists.
    Expeditionary Capabilities. The global war on terror examples of 
surge support include:
SEABEES
Engineers
EOD
Supply Corps
Coastal Warfare
Cargo Handling
Customs Inspectors
Civil Affairs
Chaplains
Medicine/Corpsmen
Trainers/Instructors
JTF Staff Augmentation
Intelligence
Linguists
Public Affairs
IT/Network Support
Anti-Terrorism/Force-Protection (AT/FP)
Law Enforcement
Logistics & Logistical transport/airlift
    Navy Medicine.--We value our RC doctors, nurses and corpsmen 
serving on hospital ships during disaster relief and humanitarian 
missions and supporting the Fleet Marine Forces ashore. At Landstuhl 
Regional Medical Center, Germany, 332 of 361 positions are currently 
filled with Navy Reserve medical professionals. When USNS COMFORT (T-AH 
20) left its homeport in June 2007 for a 4-month humanitarian 
deployment, 10 Navy reservists embarked. RC medical professionals are 
critical to Navy's overall readiness, but are often unable to mobilize 
for extended periods due to the requirements of their civilian 
practices. Therefore, Navy is working to provide them flexible service 
options such as shorter but more frequent mobilizations and 
deployments. Feedback from RC medical professionals and potential 
recruits indicates that 90 days is optimum, but up to 6 months can be 
performed with adequate notification.
    Alignment.--Flexibility is a key component to the success of ARI, 
and several initiatives aim to facilitate more effective and efficient 
operational support. Former Reserve Readiness Commanders now serve as 
integrated Navy Region RCCs, responsible to the region commanders for 
RC readiness, training, assets and surge capabilities within the 
region. Additionally, Naval Reserve Centers were renamed Navy 
Operational Support Centers to indicate that our mission is to provide 
ready, responsive, and relevant integrated operational support to their 
supported commands, the Fleet and COCOMs. ARI remains the catalyst for 
aligning our organizations and processes to CNO's guidance and 
strategic goals, providing increased warfighting wholeness and greater 
return on investment to taxpayers. Navy Reserve continues to lead 
change while emphasizing speed, agility, innovation and support to our 
customers; the Fleet, COCOMs, our sailors, and their families.
                                 people
    Our sailors, Navy civilians and contractors are talented, dedicated 
professionals. We must devote our resources and shape our policies to 
ensure they are personally and professionally fulfilled by their 
service. Recruiting, developing, and retaining diverse and capable men 
and women are imperative to the success of our future Total Force. We 
must continually address the changing national demographic in order to 
remain competitive in today's employment market. Only 3 out of 10 high 
school graduates meet the minimum criteria for military service, and 
the propensity of our Nation's youth to serve in the military is 
declining in many areas.
    The next generation, known as ``Millennials,'' is now entering the 
workplace. These young men and women expect to change jobs or career 
fields multiple times, and they expect a life/work balance that permits 
them the opportunity to serve as well as attend to personal and family 
needs. Career path pay and benefits must evolve to a more flexible 
system that supports ``off'' and ``on'' ramps to and from active to 
reserve service, as well as temporary sabbaticals. Born into a 
globalized world saturated with information and technology, Millennials 
comprise 43 percent of our Navy and are more accomplished than previous 
generations. They are a technologically savvy and cyber-connected group 
who may find the military's hierarchical command and control structure 
contradictory to the flat social networks they are accustomed to 
navigating. The different paradigm under which this generation views 
the world and the workplace has implications for how our Navy attracts, 
recruits and retains top talent.
    The members of the Millennial generation are reticent to consider 
military service as their first career option. The Navy must recognize 
and respect generational traits to ensure we appeal to those talented 
young people who we seek to recruit and retain. Today's influencers, 
most of whom have never served in the military, are often not inclined 
to steer Millennials toward a military career. Our focus in the next 
several years is building a variety of service options to entice 
potential recruits and striving to capitalize on the diversity and 
differences of our total force to ensure our Navy is a family-friendly, 
``Top 50'' workplace.
    Our talented personnel are the foundation of all we do, and Navy 
Reserve is dedicated to policies, programs, and initiatives that 
improve the quality of service for our sailors and their families. In 
fiscal year 2007, 12 percent of enlisted and 23 percent of officers who 
transitioned from the AC chose to affiliate with the Navy Reserve. 
Recent initiatives intended to attract transitioning sailors include 
higher affiliation bonuses, mobilization deferment and the Fleet-to-
NOSC Program. Affiliation bonuses as high as $20,000 are offered to 
sailors possessing specific skill sets, particularly those in high 
demand for the global war on terror.
    Mobilization Deferment.--To afford transitioning AC sailors who 
affiliate with the RC ample time to become settled in their civilian 
careers, the mobilization deferment policy was established. All 
veterans who affiliate with Navy Reserve within 6 months of 
transitioning from the AC qualify for a 2-year deferment from 
involuntary mobilization, and those who affiliate with Navy Reserve 
within 12 months are eligible for a 1-year deferment.
    In order to be a competitive employer, our Navy realizes that we 
must offer opportunities for personnel to pursue their respective 
interests. We have initiated the AC to RC transition program, which is 
changing the paradigm of sailors who decide to terminate their AC 
service at the end of their enlistment. By providing veterans an 
informed, systematic option to convert to the RC, we preserve the 
ability to surge their talents and realize a much higher return on 
their initial training investment. Previous force shaping efforts have 
been designed to achieve a specific end strength, or ``fill,'' but our 
focus has shifted to building a competency-based workforce with the 
right skill sets, or ``fit,'' to more rapidly and effectively meet 
emergent global war on terror requirements.
    Created by the Commander, Navy Recruiting Command, the Fleet-to-
NOSC Program streamlines the Navy Reserve affiliation process. Thirty-
two commands are currently participating in the program, and since its 
inception in November 2006, 27 percent more sailors have affiliated. In 
fiscal year 2009, this program will be expanded to allow AC sailors to 
select from vacant Reserve billets prior to transitioning. To 
facilitate the continuation of a Navy career, members will also have 
visibility of Navy Reserve positions located in the geographic area 
where the sailor plans to reside.
    Health Care.--We have some of the finest medical professionals in 
the world serving in our Navy and the health care they provide to our 
sailors is a valuable recruitment and retention incentive. Our missions 
in OEF and OIF increased the demand for medical services in combat and 
casualty care. Another more complex aspect of health care is the mental 
well-being of our sailors returning from combat operations. Medical 
professionals are rapidly learning more about assessing and treating 
the effects of mental health issues associated with war, such as post 
traumatic stress and traumatic brain injury. We are constantly 
integrating these lessons into our health care system.
    Wounded Warrior/SAFE HARBOR Program.--Our care for combat wounded 
personnel does not end at the Military Treatment Facility (MTF). The 
Navy established the SAFE HARBOR Program in 2005 to ensure seamless 
transition for the seriously wounded from arrival at an MTF through 
subsequent rehabilitation and recovery. As soon as our warriors are 
medically stabilized and arrive at an MTF, SAFE HARBOR staff members 
establish close contact with each severely injured sailor. Typical 
assistance provided by SAFE HARBOR includes; personal financial 
management, member or family member employment, permanent change-of-
station moves, non-medical attendant orders for assisting attendants, 
post-separation case management, travel claims, Veterans Administration 
and Social Security benefits and resolving administrative issues. Since 
its inception, 193 sailors, including 29 from the RC, have benefited 
from the program. We are committed to providing the individualized non-
clinical care that each of these sailors and their families deserve.
    Continuum of Service.--Essential to a dynamic, diverse, and capable 
Navy workforce is establishing a continuum of service by which a sailor 
may serve and reserve over the course of a lifetime. A Sailor for Life 
philosophy removes administrative and policy impediments and creates 
more flexibility to transition between active and reserve statuses, 
manage a civilian career, pursue advanced education and account for 
unique life circumstances. The Navy has asked Congress, via the 
Secretary of Defense, for authorization to begin a pilot program in 
fiscal year 2009. We plan to enable sailors to seamlessly navigate 
``off ramps'' to the RC and ``on ramps'' to the AC. Our vision also 
provides the taxpayer a better return on investment by extending the 
opportunities for our personnel to serve, thereby taking full advantage 
of both military and civilian training and work experience. A well-
developed continuum of service will create a Sailor for Life, ready to 
surge in support of national interests and defense.
    Navy continues its total force approach to manpower management by 
utilizing an enterprise framework and providing cost-wise readiness. We 
are improving processes to deliver increased readiness and combat 
capabilities, provide better organizational alignment and recapitalize 
our Navy. The Navy Reserve has the capacity to meet current and future 
requirements and to continue to transform into the right Force for 
tomorrow.
                                summary
    Since September 11, 2001, over 50,000 Navy Reservists have been 
mobilized to support the GWOT. Leveraging unique military and civilian 
skill sets and capabilities, our RC continues to transform and increase 
the effectiveness and efficiency of our commands while meeting all 
Fleet and COCOM requirements. As we strive to provide more responsive 
and relevant operational support, Navy Reserve will strengthen our 
culture of continual readiness while balancing predictable and periodic 
mobilizations for contingencies. Yes, we are asking more of our 
reservists, but they are responding and performing magnificently across 
all Navy enterprises while surging for the GWOT, serving as a strategic 
baseline and maintaining a ready alert posture for homeland 
contingencies. Our total Navy is a powerful force which will continue 
to enhance the opportunities for our sailors and their families to 
serve and reserve. On behalf of the sailors, civilians and contractors 
of our Navy Reserve, we thank you for the continued support of Congress 
and your commitment to our Navy's total force.

    Senator Stevens. The next witness is Lieutenant General 
John Bergman, Commander of the Marine Corps Reserve. General.
STATEMENT OF LIEUTENANT GENERAL JACK W. BERGMAN, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS RESERVE
    General Bergman. Good morning, Mr. Chairman, again and 
thank you so much for your kind words.
    I am not the only one retiring from the leadership of the 
Marine Corps Reserve this summer. My sergeant major, Jimmy 
Cummings, will retire in August with over 30 years of service, 
and he is the reason that I can travel and do things freely 
because I know that those 60,000 to 70,000 young enlisted 
marines that we have under our command are well taken care of. 
In fact, he just returned from Alaska visiting our AT battalion 
up there, and he said they are plenty good on cold weather 
gear, but they need some other weapon strengths. We are going 
to take care of that.
    Over the last several years, as we have realized that we 
are going to be in the long war for literally generations, the 
development of the force generation model within the Marine 
Corps has proven already to be paying dividends. What that 
means is we can tell an individual, we can tell the Congress, 
we can tell OSD when a unit is going with a level of 
predictability that before was not there. It was previously 
kind of a pick-up ball game, to be quite honest.
    With that predictability now to tell that reservist 5 years 
from now you will be headed out with your unit again, it allows 
us to train, first of all, recruit to that unit, then train to 
it, set it up in such a way that over a 4- to 5-year period, 
building blocks of the training can be designed in order to, in 
the short term, prior to a deployment, possibly beyond the step 
of homeland defense, homeland security, humanitarian 
assistance, disaster relief missions, in preparation for a 
worldwide deployment at the end of the dwell time.
    It is adaptable. We know that the enemy changes their 
tactics as quickly as we change ours. With the predictive model 
of the force generation piece, we can adapt our training so 
that when those marines go to fight, they have the latest of 
the tactics, techniques, procedures that are going to enable 
them to fight and win.
    Last, it is affordable. When you predict that far out, you 
know that a unit that is in the beginning of its dwell time may 
not necessarily need the resources and equipment and training, 
but it may need it more on the post-deployment, family support 
side to make sure that everybody assimilates back into society.
    So the force generation model will allow us for the long 
term to be able to tell the people when they are going and to 
be able to tell the Congress and everybody else how much it is 
going to cost in the meantime and where we need to place our 
resources to keep our readiness level up.
    Last, on the family readiness side, the Marine Corps, 
through the efforts of General Conway, has gone to a 
professional family readiness officer group where we are in the 
process of hiring people for full-time support of our units, 
both Active and Reserve, so that at all times, whether they are 
deployed or whether they are home in dwell time, we have a 
professional network that will provide the continued support. 
And that, dovetailing with the Yellow Ribbon Panel and all the 
efforts that are coming out from that, is a nice dovetailed 
approach to increasing the ability of our marines and their 
families and our sailors who serve with us to maintain a 
healthy level of physical and mental readiness.

                           PREPARED STATEMENT

    Sir, again, it is a pleasure to be here with you all today, 
and I look forward to your questions.
    Senator Stevens. Thank you very much.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack W. Bergman
    Chairman Inouye, Senator Stevens, and distinguished members of the 
subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve as a major contributor to the total force Marine 
Corps.
    Your Marine Corps Reserve fully understands that the road ahead 
will be challenging--not only in the immediate conflict in Iraq, but in 
subsequent campaigns of the long war on terror, which we believe to be 
a multi-faceted, generational struggle. In an environment where the 
total force Marine Corps must be able to rapidly adapt to broad 
strategic conditions and wide-ranging threats, your Marine Corps 
Reserve, a primarily operational Reserve, stands ready to meet the 
challenges before us.
    We continue to recruit and retain the best of our Nation's sons and 
daughters. We continue to train them in tough, realistic scenarios and 
we continue to provide them the best equipment available.
    On behalf of all our marines and their families, I would like to 
take this opportunity to thank the committee for your continuing 
support. The support of Congress and the American people reveal both a 
commitment to ensure the common defense and a genuine concern for the 
welfare of our Marines and their families.
                      today's marine corps reserve
    Today's Marine Corps Reserve is firmly committed to and capable of 
war fighting excellence and continues to be a major contributor to the 
total force Marine Corps. We remain steadfast in our commitment to 
provide Reserve units and personnel who can stand as full partners with 
their active component counterparts while seamlessly performing in all 
contingencies. Today's Marine Corps Reserve continues to maintain the 
pace during the longest mobilization period in our history, and will 
continue to meet the challenge of sustaining that pace for the 
foreseeable future.
    Last year I reported to this committee on the implementation of an 
integrated total force generation model that would lay out future 
activation and deployment schedules for Marine units. The model was 
designed to provide predictability for the individual Reserve marine 
who is striving to strike a balance between family, civilian career, 
and service to community as well as country and Corps. I am happy to 
report that implementation has been successful and we are about to 
activate the third rotation based upon the model.
    To date, we have activated and deployed 6,600 marines in two 
rotations to Operations Iraqi and Enduring Freedom based on the model 
and are activating approximately 2,400 in April, May, and June of this 
year in order to train and deploy late summer to early fall. The 
predictability the force generation model provides has been well 
received by the Reserve marine who can now confidently plan for the 
future; whether going to school, building a civilian career, or making 
major family decisions.
    The force generation model continues to assist service and joint 
force planners who can count on a consistent flow of manned, equipped, 
trained, and ready selected Marine Corps Reserve units to support 
future operations in the long war. This steady flow of Reserve force 
packages also supports our active component in reaching their stated 
goal of 1:2 dwell time. The model, based on a 1-year activation to 4-
plus years in a non-activated status, continues to be both supportable 
and sustainable, thus providing the Marine Corps with a truly 
operational Reserve force. Predictable activation dates permit unit 
commanders to focus their training on core mission capabilities early 
in the dwell and then train to specific OIF and OEF mission tasks once 
they are within 12 to 18 months of activation. Furthermore, regularly 
scheduled dwell time enables our units to recover from past activation 
practices that had required substantial cross-leveling while 
simultaneously degrading parent unit cohesion in order to deploy combat 
capabilities. With each subsequent rotation, the requirement to cross-
level Reserve units decreases. In fact, for an upcoming activation of 
2nd Battalion, 23d Marine Regiment, we foresee little to no required 
cross-leveling of enlisted personnel in order to activate a full 
battalion.
    We believe the full benefit of the force generation model will be 
realized once we have completed a full cycle of rotations, which is 
presently nine rotations per cycle, and the active component reaches 
the authorized end strength of 202,000. That, coupled with our use of 
the force generation model, will be instrumental in the Reserve 
component migrating to a 1:5 dwell time.
    In addition to the 6,600 marines activated and deployed in support 
of OIF and OEF, an additional 4,000 marines from Marine Forces Reserve 
deployed worldwide in support of joint/combined security cooperation 
exercises in the past year as we continue to fill the gap left by a 
lack of available active component forces. Between OIF and OEF and 
security cooperation exercises, nearly one-third of our force has 
deployed outside the continental United States both in an activated and 
non-activated status, again, demonstrating the operational nature of 
the Marine Corps Reserve. We believe that this level of operational 
tempo will continue and we are prepared to maintain and sustain this 
pace for the foreseeable future.
    During this past year, more than 3,500 marines from Fourth Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, and truck units. A 
highlight during this past year was the deployment of Battery F, 2nd 
Battalion, 14th Marine Regiment, a Reserve unit from Oklahoma City. 
Battery F was the first Marine Corps High Mobility Artillery Rocket 
System (HIMARS) unit to be deployed in a combat role; thus 
demonstrating the success of horizontal fielding of equipment within 
the total force Marine Corps.
    The Division also deployed two of its regimental headquarters in 
the role of Marine Air Ground Task Forces (MAGTF) command elements. The 
24th Marine Regiment headquarters deployed as a Special Purpose MAGTF 
to U.S. Southern Command to support the new Partnership of the Americas 
series of small combined security cooperation exercises in South 
America, while 25th Marine Regiment headquarters led the MAGTF in 
support of the combined/joint exercise Talisman Sabre in Australia with 
more than 1,500 marines from across Marine Forces Reserve. The Division 
also conducted training to assist our friends and allies in foreign 
militaries from Mongolia to the Republic of Georgia. The Division 
continued its ongoing relationship with the Moroccan military during 
combined exercise African Lion. The upcoming year will be another busy 
one for the Division as they will conduct training in Nigeria, Ghana, 
Tanzania, Korea, the Dominican Republic, Honduras, Brazil, Peru, 
Colombia, Curacao, Aruba, Argentina and Bosnia. They will also be 
returning for exercises in Morocco and the Republic of Georgia.
    Fourth Marine Aircraft Wing has provided necessary exercise support 
and pre-deployment training as the active component squadrons continued 
supporting deployments to Iraq and Afghanistan. The Marine Corps' 
premier pre-deployment training exercise, Mojave Viper, received a 
majority of air support from our fixed wing and helicopter squadrons. 
Fourth Marine Aircraft Wing deployed Marine Wing Support Squadron 473 
to run airfield operations and Light Attack Helicopter Squadron 773 (-) 
to support combat operations for Multi-national Forces--West in Iraq. 
Additionally, they deployed a Marine Transport Squadron Detachment with 
the UC-35 Citation Encore in order to bring time-critical lift 
capability to U.S. Central Command.
    In addition to these missions, the Fourth Marine Aircraft Wing has 
participated in several combined, bi-lateral and joint exercises in 
Africa, Asia, and Australia. Support for these exercises not only 
includes supporting U.S. and Marine Corp forces, but also can focus on 
training and supporting our allies, as in African Lion, when our pilots 
trained Moroccan pilots in techniques of air-to-air refueling.
    Fourth Marine Aircraft Wing is an integral partner in the Marine 
Corps aviation transition strategy. Focused on the long-term war 
fighting capability of total force aviation, the initial steps require 
a transfer of certain Reserve component aviation manpower, airframes, 
and support structure to the active component Marine Corps. As a 
result, two Reserve Fighter/Attack-18 squadrons will be placed in cadre 
status and a Reserve Light Attack UH-1N/AH-1W helicopter squadron, a 
Heavy Lift CH-53E helicopter squadron, an Aviation Logistics Squadron, 
and two Marine Aircraft Group Headquarters will be decommissioned. 
Another Heavy Lift CH-53E helicopter squadron will be reduced in size. 
Additionally, as part of the Aviation Transition Strategy, Fourth 
Marine Aircraft Wing has commissioned two Tactical Air Command Center 
Augmentation Units to reinforce the total force in the prosecution of 
the global war on terror. Long term, to complete the aviation 
transition strategy, Fourth Marine Aircraft Wing will be equipped with 
21st century airframes and C2 capabilities.
    Fourth Marine Logistics Group continues to provide the active 
component with highly skilled, dedicated personnel capable of 
delivering sustained tactical logistics support. During the past year, 
Fourth Marine Logistics Group provided more than 1,800 marines and 
sailors from across the spectrum of combat service support for its 
ongoing support of OIF. Also during this past year, Fourth Marine 
Logistics Group demonstrated the true meaning of total force as they 
provided a headquarters for an engineer support battalion comprised of 
marines from their own 6th Engineer Support Battalion combined with 
active component Marines from 7th and 8th Engineer Support Battalions 
and deployed in support of OIF.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of Operation Iraqi Freedom. Air-Naval Gunfire Liaison Detachments from 
Marine Forces Reserve have augmented the supported Marine Air Ground 
Task Forces and adjacent commands with air/ground fires liaison 
elements. Marine Forces Reserve also continues to provide intelligence 
augmentation for Operation Iraqi Freedom, to include human exploitation 
teams, sensor employment teams, and intelligence production teams.
    The trend in recent years toward increased participation of our 
Individual Ready Reserve (IRR) marines continued in fiscal year 2007. 
During the fiscal year, the Marine Corps Mobilization Command (MOBCOM) 
processed 2,500 sets of active duty orders for IRR marines. 
Consequently, the readiness requirements of our IRR marines and their 
families have also increased. We have modified IRR management practices 
accordingly. In fiscal year 2007, the Marine Corps Mobilization Command 
screened 4,000 more IRR marines than in fiscal year 2006, just short of 
11,000 of the 60,000 marines in our IRR population. MOBCOM accomplished 
this by increasing the number of administrative musters conducted at 
locations throughout the United States and, also, by increasing the 
quality of communications between the Marine Corps and members of the 
IRR. Higher quality communications keeps our marines better informed 
and prolongs their connection with each other and our Corps. We believe 
that these longer-term connections will be critical as we truly seek to 
create the continuum of service necessary to support a sustainable 
operational Reserve and our total force through the long war.
    In summary, more than 6 years into the long war, the Marine Corps 
Reserve continues to serve shoulder-to-shoulder with our active 
component counterparts. Operations Enduring Freedom and Iraqi Freedom 
have required continuous activations of Reserve forces. Accordingly, 
your Marine Corps Reserve continues to focus upon the future challenges 
of the total force and corresponding requirements of modernization, 
training and personnel readiness to ensure that the Marine Corps 
Reserve meets and exceeds its obligations within the total force.
    While we continue to support the long war, it is not without a 
cost. Continuing activations and high Reserve operational tempo 
highlights the fact that we have personnel challenges in some areas and 
we are putting additional strain on Reserve equipment.
                            equipment status
    The Marine Corps Reserve, like the active component, faces two 
primary equipping challenges: supporting and sustaining our forward 
deployed forces in the long war while simultaneously resetting and 
modernizing our force to prepare for future challenges.
    Our priorities for supporting and sustaining our deployed forces 
are: first, to provide every marine and sailor in a deploying Reserve 
unit with the latest generation of individual combat and protective 
equipment; second, to procure essential communications equipment; 
third, to procure simulation training devices that provide our marines 
with valuable training to enhance survivability in hostile 
environments; and fourth, to provide adequate funding to our operation 
and maintenance accounts to sustain training and pre-deployment 
operations.
    Our priorities in support of resetting and modernizing the force 
include the following: first, to procure principal end items necessary 
to reestablish on hand equipment to the level dictated by our training 
allowance, which is the amount of equipment needed by each unit to 
conduct home station training; and, second, to procure the equipment 
necessary to enhance our capability to augment and reinforce the active 
component. Since the Marine Corps procures and fields equipment as a 
total force, equipment modernization efforts of the Marine Corps 
Reserve are synchronized with the efforts of the active component.
    As with all we do, our focus is on the individual marine and 
sailor. Our ongoing efforts to equip and train this most valued 
resource have resulted in obtaining the latest generation individual 
combat and protective equipment: M16A4 service rifles, M4 carbines, 
rifle combat optic scopes, improved helmet pad suspension systems, 
enhanced small arms protective insert plates, modular tactical vests, 
and the latest generation AN/PVS-14 Night Vision Devices, to name a 
few. I am pleased to report, as I did last year, that every member of 
Marine Forces Reserve deployed in support of the long war is fully 
equipped with the most current authorized individual combat clothing 
and equipment to include personal protective equipment.
    Deployed Marine Corps unit equipment readiness rates remain high--
above 90 percent. Ground equipment readiness rates for non-deployed 
Marine Forces Reserve units average 88 percent, based on training 
allowance. the slightly lower equipment readiness posture is primarily 
attributable to home station training allowance equipment shortages 
caused by sustainment requirements of the long war. The Marine Corps 
Reserve equipment investment overseas since 2004 in support of the long 
war is approximately 5 percent of our overall equipment. This 
investment includes various communications, motor transport, engineer, 
and ordnance equipment, as well as several modern weapons systems such 
as the new HIMARS artillery system and the latest generation light 
armored vehicle. This investment greatly adds to the war fighting 
capability of the Total Force while providing minimal impact to our 
home station training requirements. Deliberate planning at the service 
level is currently underway to reset the total force, to include 
resourcing the Reserve equipment investment made to the long war. This 
will allow the Marine Corps Reserve to remain ready, relevant, and 
responsive to the demands of our Corps.
    Reduced supply availability continues to necessitate innovative 
resourcing approaches to ensure Reserve marines can adequately train in 
preparation for deployment, until the effects of supplemental funding 
produce tangible results. Despite ongoing efforts to mitigate 
shortfalls, the inherent latency in procurement timelines and competing 
priorities for resources will continue to challenge the training and 
equipping of Reserve forces for the long war.
    Your continued support of current budget and procurement-related 
initiatives, such as the President's budget submissions, supplemental 
requests, and National Guard and Reserve Equipment Appropriations 
(NGREA), will guarantee our ability to properly equip our individual 
marines and sailors. Marine Corps Reserve equipment requirements are 
registered in each of these as part of the Marine Corps total force 
submissions. Reserve equipment requirements that cannot be timely met 
with these vehicles are identified as the Reserve portion of the 
unfunded priorities list and equipment procurement requirements are 
sometimes resourced by NGREA. It would be impossible for me to 
overstate the value and importance of NGREA to the Marine Corps 
Reserve. We appreciate Congress' continued support of the Marine Corps 
Reserve through NGREA. Since 2002, NGREA has provided more than $200 
million to Marine Forces Reserve for equipment procurements. It is safe 
to say that we couldn't have provided some critical capabilities to our 
Nation without NGREA. Moreover, I want to emphasize this year the value 
of consistent NGREA funding for our Reserve components and 
specifically, the Marine Corps Reserve. In the last 3 years, through 
consistent funding, we have been able to ``close out'' equipment 
purchases--or to buy to our established training allowance--in 32 
different end items. Examples of equipment purchases we have been or 
will be able to close out using fiscal year 2006, fiscal year 2007, and 
fiscal year 2008 NGREA funding are: the Virtual Combat Convoy Trainer; 
the Medium Tactical Vehicle Replacement--Training Systems; the LITENING 
II Targeting Pod; the AN/ARC-210 (V) Multi-Modal Radio system for our 
KC-130 aircraft; the UC-12+ aircraft; and, multiple C2 systems 
components. We've also been able to come close to closing out other 
equipment purchases. If consistent NGREA funding is received in the 
coming year, and if requirements for these and other items of equipment 
do not change, we envision closing out four other equipment purchases 
with fiscal year 2009 funding: the BRITE STAR FLIR; the Tactical Remote 
Sensor System; the Deployable Virtual Training Environment; and, the 
HMMWV Egress Assistance Trainer.
                               facilities
    Marine Forces Reserve is comprised of 183 sites in 48 States, the 
District of Columbia, and Puerto Rico. These sites are comprised of 32 
owned, and 151 tenant sites. In contrast to active duty installations, 
normally closed to the general public, our Reserve sites are openly 
located within civilian communities. This arrangement requires close 
partnering with State and local entities nationwide. The condition and 
appearance of our facilities may directly influence the American 
people's perception of the Marine Corps, the Armed Forces, and our 
recruitment and retention efforts.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Restoration and Modernization (R&M) funding continues to 
be a challenge due to its current $4.5 million programmed funding 
shortfall across the Future Years Defense Plan (FYDP) and an overall 
backlog of $130.2 million created through significant funding 
shortfalls in prior years. Currently, 10 of our 32 owned sites are 
rated C-3 or C-4 under the Marine Corps' facility readiness reporting 
system. Our OSD-mandated objective is to maintain levels of C-2 or 
better. The fiscal year 2009 budget, if approved, will see programmed 
upgrades for eight sites to C-2 or better, with the remaining sites 
programmed to meet C-2 or better by fiscal year 2010. The fiscal year 
2009 budget attempts to bring the R&M program back on track to address 
remaining deficiencies. However, it should be noted that this funding 
does not address the reported backlog created through prior year 
funding shortfalls. As such, we continue to apply internal savings to 
address R&M projects at the end of each fiscal year.
    The programmed R&M funding shortfalls in the current FYDP, when 
combined with lingering R&M requirements carried over from prior fiscal 
years, continue to increase the FSRM backlog exponentially over the 
FYDP. This jeopardizes our ability to meet the C-2 or better rating for 
quality by 2010. The fiscal year 2007 sale of the former Marine Corps 
Reserve Center in San Juan, Puerto Rico, will potentially provide 
funding to address nearly 20 percent of this combined R&M shortfall. 
Further use of Real Property Exchanges (RPX), and other similar laws, 
has been an invaluable tool towards addressing shortfalls and emerging 
requirements. The RPX program extension to 2010 will allow us further 
opportunities to use proceeds from existing older properties to fill 
gaps in minor construction projects for our centers to meet evolving 
needs.
    The Military Construction, Navy Reserve (MCNR) program, including 
Marine Corps Exclusive and Navy-led projects, is addressing critical 
needs for new facilities to replace older buildings and accommodate 
changes in Marine Corps Reserve force structure. The President's 
proposed fiscal year 2009 budget contains $22.8 million for military 
construction and $836,000 in planning and design funding. Congressional 
approval of this budget provides new Marine Corps Reserve Centers in 
Atlanta, Georgia, and at the Naval Air Station Lemoore, California. 
Your continued support for both the MCNR program and a strong FSRM 
program are essential to addressing the aging infrastructure of the 
Marine Corps Reserve. With more than 50 percent of our Reserve Centers 
being more than 40 years old and 35 percent being more than 50 years 
old, support for both MCNR and FSRM cannot be overstated.
    The Base Realignment & Closure (BRAC) 2005 is an area of continuing 
concern due to the limited funding for BRAC military construction 
projects. Unique to the Marine Corps Reserve BRAC program is the 
secondary impact to our Reserve Centers that are part of Army and Navy 
BRAC actions. Of the 25 BRAC actions for the Marine Corps Reserve, 21 
are in conjunction with Army and Navy military construction projects, 
reflecting OSD policies toward shared joint Reserve centers. As a 
result, any funding shortfalls experienced by these two services will 
have a secondary negative effect on the Marine Corps Reserve. 
Escalating prices in the construction industry continue to challenge 
the Reserves in narrowing the gap between funding requirements for 
projects and budgetary allowances. In fiscal year 2007, two of three 
BRAC projects awarded for Marine Forces Reserve required significant 
increases in funding over what was programmed, ranging from $500,000 to 
$3 million over the budgeted amounts. These factors challenge Marine 
Forces Reserve and its designated construction agents, as well as the 
other Reserve components, to award projects and comply with BRAC law 
deadline. The ramifications of this trend are that Marine Forces 
Reserve will have less funding available in later years for any 
overages and be forced to either significantly cut our requirements at 
the cost of facility mission functionality or move funds from other 
required facility programs. Adequate and timely receipt of funding for 
the entire BRAC program, including restoration of the fiscal year 2008 
budget cut no later than fiscal year 2009, is essential to meeting the 
statutory requirements of BRAC 2005. The compounding effect of the 
back-to-back continuing resolutions we have experienced to date, during 
peak BRAC construction years, has heightened the risk that we will not 
meet statutory compliance by September 15, 2011.
    Our Marine Forces Reserve Environmental Program promotes accepted 
stewardship principles as well as compliance with all regulatory 
requirements in support of training both on site and outside the fence 
line. Marine Forces Reserve has initiated a nationwide program to 
reduce waste production and ensure proper disposal at our centers. We 
have also executed several major projects to protect the nation's 
waterways near our drill centers. Continued funding is essential to 
ensure that both emerging environmental requirements are met and 
critical ongoing training continues.
                                training
    Since 9-11, approximately 99 percent of U.S. Marine Corps Reserve 
units have been activated and 98 percent of those units have deployed 
to the U.S. Central Command area of responsibility in support of 
Operations Enduring Freedom and Iraqi Freedom and the global war on 
terrorism. The collective lessons wrought from their experiences abroad 
have helped improve nearly all facets of our current Reserve component 
training. In this regard, one of the most exciting areas where we are 
continuing to transform the depth and scope of our training is in the 
cutting-edge arena of modeling and simulations technology.
    Rapid advancement in modeling and simulation software, hardware, 
and network technologies are providing ever new and increasingly 
realistic training capabilities. Marine Forces Reserve is training with 
and continuing to field several complex digital video-based training 
systems which literally immerse our Reserve Component Marines into 
``virtual'' combat environments, complete with the sights, sounds, and 
chaos of today's battlefield environment in any clime or place, day or 
night, spanning the full continuum of warfare from high-intensity 
conventional warfare to low-intensity urban conflict.
    Some of these new training capabilities that we are training with 
and continuing to field to support our Reserve marines stationed at our 
183 training sites located throughout the country include the Indoor 
Simulated Marksmanship Trainer--XP. This interactive audio/video 
weapons simulator provides enhanced marksmanship, weapons employment, 
and tactical decision making training for a variety of small arms. The 
system consists of infantry weapons instrumented with lasers that 
enable Marines to simulate engaging multiple target types.
    Another system that we addressed in lasts year's testimony that 
continues to prove invaluable in the pre-deployment training of our 
tactical drivers is the Virtual Combat Convoy Trainer--Reconfigurable 
Vehicle System. This is an advanced, full-scale vehicle simulator that 
trains Marines in both basic and advanced combat convoy skills using 
variable terrain and roads in a variety of weather, visibility and 
vehicle conditions. The simulator is a mobile trailer configured 
platform that utilizes a HMMWV mock-up, small arms, crew-served 
weapons, 360-degree visual display and after action review/instant 
replay capability. Marine Forces Reserve was the lead agency for 
initial procurement, training, and evaluation of this revolutionary 
training system, which is now being used to train the total force.
    Starting this summer, we will begin fielding the newly developed 
Deployable Virtual Training Environment. This is an advanced, first-
person, immersive, simulation-based training system, made up of 16 
laptops and peripherals packaged in ruggedized deployable cases. The 
system is capable of emulating and simulating a wide variety of weapons 
systems and generating hi-fidelity, relevant terrain databases in any 
clime or place. It also provides small-unit echelons with the 
opportunity to continuously review and rehearse Command and Control 
procedures and battlefield concepts in a virtual environment. The 
system consists of two components, the Combined Arms Network providing 
integrated first person combat skills and Tactical Decision Simulations 
providing individual, fire team, squad and platoon-level training 
associated with patrolling, ambushes and convoy operations. Additional 
environment features include combat engineer training, small-unit 
tactics training, tactical foreign language training and event-driven, 
ethics-based, decisionmaking training.
    All of these advanced training systems have been rapidly acquired 
and fielded with vital supplemental and NGREA funding. These critical 
funding resources are not only providing a near-term training 
capability in support of combat deployments, but are also providing a 
solid foundation for the transformation of our training environment 
from legacy static training methods to more realistic virtual combat 
training environments that are preparing our Reserve marines and 
sailors to succeed on future battlefields.
                          personnel readiness
    Like the active component, Marine Corps Reserve units primarily 
rely upon a first-term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve marines, their families, and 
employers remains extraordinarily high.
    In fiscal year 2007, the Marine Corps Reserve achieved 100 percent 
of its recruiting goal for non-prior service recruiting (5,287) and 
exceeded its goal for prior service recruiting (3,575). As of April 1, 
2008, we have accessed 1,890 non-prior service and 2,482 prior service 
marines, which reflects 50 percent of our annual mission.
    Our selected Reserve population is comprised of Reserve unit 
marines, active Reserve marines, individual mobilization augmentees, 
and Reserve marines in the training pipeline. An additional 60,000 
marines are included in our Individual Ready Reserve, representing a 
significant pool of trained and experienced prior service manpower. 
Realizing that deployments take a toll on active component marines, 
causing some to transition from active duty because of high personnel 
tempo, we continue to offer the selected Marine Corps Reserve 
Affiliation Involuntary Activation Deferment policy, which was 
instituted in June 2006. This program allows a marine who has recently 
deployed an option for a 2-year deferment from involuntary activation 
if they join a Selected Marine Corps Reserve unit. The intent of the 2-
year involuntary deferment is to encourage good Marines to participate 
and still maintain breathing room to build a new civilian career.
    I do anticipate greater numbers of Marines from the Reserve 
component will volunteer for full-time active duty with the active 
component throughout fiscal year 2008 as they take advantage of new 
incentives aimed at encouraging marines to return to active duty. These 
incentives support our plan to bolster active component end strength. 
the fact is we need good marines to serve longer, either active or 
Reserve.
    Our focus is to provide an environment that attracts and retains 
dedicated, high performing individuals. For the current year, Reserve 
officer retention has thus far remained above historical norms. 
Enlisted Reserve retention is currently slightly lower than the fiscal 
year 2006/fiscal year 2007 average, and is being monitored very 
closely. We continue to offer several incentives for enlisted Marines 
to stay in the Selected Marine Corps Reserve, which includes increasing 
the initial 3-year re-enlistment bonus from the current $7,500 level to 
the maximum allowable $15,000. I greatly appreciate the increased 
reenlistment incentive provided in the fiscal year 2008 National 
Defense Authorization Act.
    Junior officer recruiting and consequently meeting our Reserve 
company grade requirement remains the most challenging area. At the 
beginning of fiscal year 2007, the Marine Corps modified an existing 
program and implemented two new Reserve officer commissioning programs 
in order to increase the number of company grade officers within 
deploying Reserve units and address our overall shortage of junior 
officers in our Reserve units. Eligibility for the Reserve Enlisted 
Commissioning Program was expanded to qualified Active Duty enlisted 
Marines. The Meritorious Commissioning Program--Reserve was established 
for qualified enlisted marines, Reserve and active, who possess an 
associates degree or equivalent number of semester hours. As of May 1, 
the Officer Candidate Course--Reserve (OCC-R) has proven to be the most 
successful of the three programs. Eighty-four candidates have been 
commissioned second lieutenants in the Marine Corps Reserve. The OCC-R 
focuses on ground-related billets. Priorities of fill for recruitment 
of candidates are tied to our force generation model.
    In the long run, if the Marine Corps Reserve is to remain ready and 
relevant, we must begin to implement necessary changes to the 
superseded cold war reserve model. In particular, we must develop a new 
paradigm that allows our top performing marines to extend their service 
to the total force through a continuum of service. We must continue to 
develop policies and procedures that allow the seamless transition of 
individual reservists on and off of active duty and that would permit 
varying levels of participation by the servicemembers over the course 
of a military career. Current administrative policies routinely raise 
unnecessary obstacles to transitions between military jobs and duty 
status creating barriers to volunteerism. Presently, there are a 
significant number of different types of Reserve service, primarily 
tied to the cold war model of a strategic Reserve. In order to 
successfully transition a specified number of individuals and unit 
capabilities to an operational Reserve, that number of duty statuses 
could and should be reduced.
                            quality of life
    Whether we are taking care of our marines in the desert or families 
back home, quality of life support programs are designed to help all 
marines and their families. Because marines and their families make 
great sacrifices in service to our country, they deserve the very best 
support.
    We are aggressively instituting new Family Readiness Programs, 
revitalizing services, and proactively reaching out to our young 
demographic to ensure our programs and services have transitioned to a 
wartime footing.
    As part of widespread Marine Corps reforms to enhance family 
support, we are placing paid, full-time civilian employees to fill the 
position of Family Readiness Officer at the battalion/squadron level 
and above to support the Commander's family readiness mission. Modern 
communication technologies, procedures and processes are being expanded 
to support family members including spouses, children and parents of 
single marines.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. The program is not only beneficial to career 
marines, but also those intending to transition to civilian life. More 
than 1,300 Marine Forces Reserve personnel (active and Reserve) enjoyed 
the benefit of tuition assistance, which paid out more than $2.6 
million and funded more than 4,000 courses during fiscal year 2007. 
Tuition assistance greatly eases the financial burden of education for 
our service members while enabling them to maintain progress toward 
their education goals.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for servicemembers and their families in selecting child care, before, 
during, and after a deployment in support of the long war. The Boys and 
Girls Clubs of America provide outstanding programs for our Reserve 
Marines' children between the ages of 6 and 18 after school and on the 
weekends. Under our agreement with BGCA, Reserve families can 
participate in more than 40 programs at no cost. With NACCRRA, we help 
families of our reservists locate affordable child care that is 
comparable to high-quality, on-base, military-operated programs. 
NACCRRA provides child care subsidies at quality child care providers 
for our reservists who are deployed in support of the long war and for 
those active duty Marines who are stationed in regions that are 
geographically separated from military installations. We also partnered 
with the Early Head Start National Resource Center Zero to Three to 
expand services for family members of our reservists who reside in 
isolated and geographically-separated areas.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (pre-
deployment, deployment, post-deployment, and follow-on) by providing 
educational opportunities at unit family days, pre-deployment briefs, 
return and reunion briefs, post-deployment briefs and through programs 
such as the Key Volunteer Network (KVN) and Lifestyle, Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.).
    Every Marine Corps Reserve unit throughout the country has a KVN 
program, which is a volunteer-based program that serves as the link 
between the command and family members--providing official 
communication, information, and referrals. The KVN proactively educates 
families on the military lifestyle and benefits, provides answers for 
individual questions and areas of concerns, and enhances the sense of 
community and camaraderie within the unit. L.I.N.K.S. is a training and 
mentoring program designed by Marine spouses to help new spouses thrive 
in the military lifestyle and adapt to challenges--including those 
brought about by deployments. Online and CD-ROM versions of L.I.N.K.S 
make this valuable tool more readily accessible to families of Reserve 
marines who are not located near Marine Corps installations.
    To better prepare our marines and their families for activation, 
Marine Forces Reserve continues to implement an interactive approach 
that provides numerous resources and services throughout the deployment 
cycle. Available resources include, but are not limited to, family-
related publications, on-line volunteer training opportunities, and a 
family readiness/mobilization support toll free number. Family 
readiness educational materials have been updated to reflect the 
current deployment environment. Specifically, deployment guide 
templates that are easily adapted to be unit-specific were distributed 
to unit commanders and family readiness personnel, as well as Marine 
Corps families, and are currently available on our Web site. Services 
such as pastoral care, Military One Source, and various mental health 
services are readily available to our Reserve marines' families.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve Training Centers to support all phases of 
the deployment cycle. Marine Forces Reserve has incorporated this 
resource into post-demobilization drill periods, family days, pre-
deployment briefs, and return and reunion briefs. follow-up services 
are scheduled after marines return from combat at various intervals to 
facilitate on-site individual and group counseling. Additionally, we 
are utilizing these counselors to conduct post-demobilization 
telephonic contact with IRR marines in order to assess their needs and 
connect them to services.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs at our Reserve sites provides families 
of activated and deployed Marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the dependent 
eligibility and enrollment reporting system. During their homecoming, 
our Marines who have deployed consistently cite the positive importance 
of family support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. We believe current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
correspond to current requirements. We are particularly supportive of 
Military One Source, which provides our reservists and their families 
with an around-the-clock information and referral service via toll-free 
telephone and Internet access on a variety of subjects such as 
parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    Marines and their families, who sacrifice so much for our Nation's 
defense, should not be asked to sacrifice quality of life. We will 
continue to be a forceful advocate for these programs and services. We 
will continue to evolve and adapt to the changing needs and 
environments in order to ensure that quality support programs and 
services are provided to our Marines and their families.
               employer support of the guard and reserve
    Marine Forces Reserve continues to be acutely aware of the 
importance of a good relationship between our Reserve marines and their 
employers. We fully support all the initiatives of the Employer Support 
of the Guard and Reserve (ESGR) and have been proactive in providing 
the information to our Reserve marines on the Five Star Employer 
Program, Patriot Award and Secretary of Defense Employer Support 
Freedom Awards, which are tangible ways for us to recognize those 
employers who provide tremendous support to our men and women who go 
into harm's way. I recently directed all of my major subordinate 
commands to appoint a field grade officer to ensure that units have all 
relevant information to take full advantage of ESGR programs. This will 
ensure that the most current information is passed down to Marine 
Reserve units and personnel, and that all units comply with the new 
requirement for annual ESGR training at the company level. Reserve unit 
commanders are strongly encouraged to correspond with Marines' 
employers prior to deployment.
                               conclusion
    The Marine Corps Reserve continues to be a highly ready, relevant 
and responsive component of the Total Force Marine Corps. As our 
Commandant has stated in the past, ``Our Marines and sailors in combat 
are our number one priority.'' There is no distinction between Active 
or Reserve personnel or units regarding that priority. We fight 
shoulder-to-shoulder with our active component counterparts and our 
Reserve Marines have consistently met every challenge placed before 
them. Your consistent and steadfast support of our marines and their 
families has directly contributed to our successes.
    As I've stated in past testimony, appearing before congressional 
committees and subcommittees is a great opportunity to showcase the 
absolutely outstanding long-term contributions and commitment of this 
patriotic group of citizens we have in the Marine Corps Reserve. It has 
been my honor to serve this great Nation and Corps for the past 38 
years, and although I will be retiring from the Marine Corps in the 
near future, I look forward to continuing serving our great country and 
the Marines and families of the Total Force Marine Corps for many years 
to come. Thank you for your continued support. Semper Fidelis!

    Senator Stevens. Next is Lieutenant General John Bradley, 
Chief of the Air Force Reserve. General.
STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE
    General Bradley. Senator Stevens, it is a pleasure to be 
here with you again today. Senator Mikulski, thank you for 
being with us as well, ma'am.
    I am very proud to be the Commander of the Air Force 
Reserve, and as you indicated, my last hearing perhaps here. I 
want to thank you and all of the members of this subcommittee 
for the great support you have given us over these years.
    I am very, very proud of my airmen in the Air Force Reserve 
Command, and I do not usually spend a lot of time introducing 
folks, but I do like to brag about my folks. And I want to tell 
you about our special 70,000 airmen we have doing great work 
for us today around the world.
    Senator Mikulski will know. We have a very large air 
refueling unit in her State who do fabulous work for us in many 
areas around this country, providing air refueling support for 
important fighter cap missions and deployments. They do 
missions in the U.S. Central Command Area of Responsibility 
(AOR). They fly injured soldiers and marines and airmen and 
sailors from Bagram Air Base, Afghanistan, back home 
frequently. So they are a great unit.
    I hope perhaps I can talk to Senator Bond later about a 
fabulous A-10 unit in Missouri that deployed to Afghanistan 
last week for their third Afghan deployment in the last 3 
years, which followed in 2003 a 9-month deployment to Iraq. 
They were on the ground in Iraq and flying missions, doing 
close air support for soldiers and marines in Iraq in 2003 for 
9 months. I am very, very proud of that unit in Missouri, just 
as I am many others.
    I have with me today representing more than 55,000 enlisted 
airmen my command chief, Chief Master Sergeant Troy McIntosh, 
with me in this hearing today, sir. Chief McIntosh helps me 
invaluably keep track of how our airmen are doing and tells me 
about the issues about which they are concerned and what help 
they need. He is a great advisor to me and I am honored to get 
to serve with him. Thank you, Chief.
    I also have with me Colonel Eric Overturf, Senator Stevens, 
who is based at Elmendorf Air Force Base, Alaska. He is the 
commander of the 477th Fighter Group which is our associate F-
22 group flying with the 3rd Fighter Wing at Elmendorf, this 
phenomenal new air superiority fighter, the F-22. I am proud of 
Colonel Overturf and the operations and maintenance folks that 
he has hired to help the 3rd Wing with its important mission in 
Alaska.
    I also have with me Major Karen MacKenzie. Dr. MacKenzie in 
civilian life is a trauma surgeon who lives near Fresno, 
California doing trauma surgery every day. But she volunteered 
for a tour last year and deployed to Al Udeid, Qatar to be on a 
critical care air transport team, which is a team of a doctor 
and a respiratory specialist and a nurse to transport injured 
soldiers, marines, airmen, and sailors, and was involved in an 
alert scramble to Afghanistan following the crash of a Chinook 
helicopter with 22 Army Special Forces soldiers on board. Eight 
were killed in the crash; 14 survived. They were flown to 
Kandahar, Afghanistan, and her team, along with another team 
from Bagram Air Base triaged and took care of those 14 injured 
soldiers, put them on a C-17 within 2 hours and flew them to 
Landstuhl, Germany. She took them to the hospital and all 14 of 
those brave soldiers survived.
    She is a fabulous representative of our medical community 
in the Air Force Reserve. We do 60 percent of the aeromedical 
evacuation for the Air Force in the Air Force Reserve. She is 
one representative of that great community that has saved so 
many lives of those who have been badly injured in Iraq and 
Afghanistan. So I am very proud to have Dr. MacKenzie behind 
me, as well as Colonel Overturf and Chief McIntosh.

                           PREPARED STATEMENT

    I am very proud of all 70,000 airmen I have in the Air 
Force Reserve, the many deployments they do to support this 
Nation and our Air Force.
    And I look forward to your questions, sir.
    [The statement follows:]
        Prepared Statement of Lieutenant General John A. Bradley
    Mr. Chairman, and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today and discuss the 
fiscal year 2009 President's budget request of the Air Force Reserve.
    This year marks the 60th anniversary of the Air Force Reserve. We 
remain an equal partner in the Total Air Force and an integral part of 
our Nation's defense. The Air Force Reserve has provided significant 
contributions during that time, made possible because we remain tier-
one ready for the Air Force. We have frequently responded to global 
events within 24 hours of notification. For the last 17 of our 60 
years, we have maintained a persistent presence in the USCENTCOM area 
of responsibility. It began with Operation DESERT STORM and we have 
been continually engaged, never leaving the Persian Gulf. During the 
intervening years we again responded to the needs of the Nation after 
the attacks of September 11, 2001, protecting the homeland through 
Operation NOBLE EAGLE and supporting operations abroad in Iraq and 
Afghanistan. The Air Force Reserve also supplied humanitarian relief in 
the wake of natural disasters both home and abroad following 
hurricanes, tsunamis and earthquakes. These efforts are possible 
because we have dedicated, professional, highly trained reservists 
volunteering to participate in these noble causes and the support of 
their families and employers.
    The Air Force Reserve is a strong and steady Total Force partner. 
As operational demands continue, we face challenges that can adversely 
impact our readiness and overall combat capability. We are always alert 
to the need to stay ahead of those challenges so we remain strong 
partners in our country's defense. As an unrivaled wingman, we share 
the same priorities as the Regular Air Force: Win Today's Fight, Take 
Care of Our People, and Prepare for Tomorrow's Challenges.
                           win today's fight
Air Force Reserve Global War on Terror Contributions
    I am proud to say that your Air Force Reserve continues to play a 
vital role in support of our nation's Global War on Terror (GWOT). 
Side-by-side with our Air Force and Air National Guard partners, we 
continue to support the war effort primarily in a volunteer status.
    Our Reserve mobility community stepped up with large numbers of 
volunteers and is providing essential support to combatant commanders. 
We currently have seventy-four C-17 and C-5 strategic airlift crews on 
long term active duty orders in support of the GWOT. Ten Reserve KC-10 
crews remain on active duty orders supporting the air bridge, aerial 
refueling and other airlift requirements.
    Our Reserve F-16s and A-10s remain engaged in Operation ENDURING 
FREEDOM and Operation IRAQI FREEDOM with regularly scheduled rotations. 
We provide eighteen crews and twelve fighter aircraft to USCENTCOM 
annually for close air support missions.
    With little fanfare, our Special Operations and Combat Search and 
Rescue units continue their support of combat operations. Although 
rarely receiving public recognition for their actions, our personnel 
are heavily engaged on the ground and in the air.
    To date, sixty percent of the aeromedical evacuation sorties have 
been flown by Air Force Reserve crews, providing a lifeline home for 
the Joint warfighter. Since September 11, 2001 we have flown nearly 
5,000 aeromedical evacuation sorties, safely delivering 26,769 
patients: 11,030 litters, 10,955 ambulatory and 4,784 attendants. I 
could not be more proud of these men and women. Their selfless 
dedication and professionalism have saved countless lives and 
dramatically improved the chances of recovery for those injured in the 
line of duty.
Tier One Ready
    We in the Air Force Reserve pride ourselves on our ability to 
respond to any global crisis or natural disasters immediately or within 
hours. The Selected Reserve is trained to the same standards as active 
duty Airmen for a reason. We are one Air Force engaged in the same 
fight. With a single level of readiness in the Selected Reserve, we are 
able to seamlessly operate side-by-side with the Regular Air Force and 
Air National Guard in the full spectrum of combat operations. As an 
equal partner in day-to-day combat operations, it is critical we remain 
ready, resourced, and relevant.
Combat Training
    As part of the Total Force Integration initiatives, Air Force 
Reserve Officer Training School was moved to Maxwell AFB, Alabama and 
combined with the Regular Air Force Officer Training School. Recently 
the Air Force initiated several programs to incorporate additional 
combat training for our Airmen. For example, officer training now 
teaches fundamentals of unarmed combat to their officer candidates. 
This is just one part of a 70-hour course of expeditionary skills 
training.
    Basic war fighting skills will be incorporated into Basic Military 
Training for enlisted recruits beginning October 1, 2008. This course 
will be two and a half weeks longer in order to produce more lethal and 
adaptable Airmen with emphasis on weapons training and participation in 
an intense exercise that replicates the deployed environment and the 
challenges it presents.
    The Air Force is developing other training total force 
opportunities such as Common Battlefield Airman Training, and Survival, 
Evasion, Resistance, and Escape training because the battlefield 
continually changes shape and venue, and Airmen need to be able to 
react and survive in any situation.
Fiscal Year 2008 National Guard and Reserve Equipment Account
    A significant reason for our relevance as a combat force is the 
National Guard and Reserve Equipment Account (NGREA). The items we 
purchase with NGREA are prioritized from the Airmen in the field up to 
the Air Force Reserve Command Headquarters and vetted through the Air 
Staff. The cornerstone is innovation and the foundation is 
capabilities-based and has been for many years. I am grateful for the 
National Guard and Reserve Equipment Account because those 
authorizations enable us to remain relevant to the fight. The Congress 
provided $45 million in NGREA last year, with which we secured critical 
combat capability for our Airmen in the field.
  --C5A Airlift Defensive Systems.--Protects our aircrews and C-5A 
        aircraft from Infrared Guided Missiles.
  --C-130 Secure Line of Sight/Beyond Line of Sight capability.--
        Provides clear communication, interoperability and improved 
        situational awareness for our C-130 aircrews.
  --C-130 Small Arms Fire Lookout Capability.--Procures troop door with 
        large windows for C-130 aircraft to visually scan for threats 
        to the aircraft and aircrew.
  --F-16 Upgraded Commercial Fire Control Computer.--Enables use of the 
        helmet mounted cueing sight and software improvements for 
        continued upgrades to the aircraft.
  --LITENING POD Spiral Upgrades.--Upgrades current targeting system by 
        providing improved visual and guidance system.
    This account is critical to the combat capability of the Air Force 
Reserve and the safety of our people. Many of the new capabilities 
resulted in top-of-the-line improvements that are directly tied to 
better Close Air Support for our Soldiers and Marines in both Iraq and 
Afghanistan. These capabilities save lives. There is much more we can 
do if we continue to receive your support.
Readiness Challenges
    While we maintain sufficient combat readiness to meet our current 
missions, we are accepting risk in a number of critical areas. For 
example, Depot Purchased Equipment Maintenance is budgeted at seventy-
nine percent. This reduces aircraft availability for training and 
operations. We will continue to work within our budget guidance levels 
to balance this risk and others while accomplishing wartime taskings.
                        take care of our people
Family Support
    It is a long standing belief the Air Force recruits members but we 
retain families, and that statement is as true today as in the past. As 
we continue playing a large role in prosecuting the GWOT, our members 
and their families are making huge sacrifices. While the Air Force's 
Air Expeditionary Force construct provides predictability for members, 
families and employers, we recognize the impact of the demands of 
operations and are committed to providing services and support to the 
families that support us so well. We continue to place considerable 
emphasis on looking for new, innovative ways to reach our Reserve 
families of deployed members as well as to continue to improve programs 
already in place. To meet their needs, our Air Force community support 
programs and services are there for both married and single Total Force 
Airmen, whether at home or deployed. New initiatives include 
predeployment, deployment, and post deployment Airmen and family 
wellness programs. Specific areas of improvement include a standardized 
predeployment checklist as well as mandatory, comprehensive 
redeployment services, post-deployment health assessment and 
reassessment, non-clinical counseling, and education on reunion 
challenges that Airmen and their families face.
    In 2007, several surveys were launched to evaluate the state of our 
members and families. Included were the Community Action Information 
Board Community Assessment Survey, with 8,440 Reserve respondents, and 
the Caring for People Airmen's Questionnaire Assessment, which noted 
family as one of the top concerns. We continue to provide information 
and referral services, assistance with financial questions and 
concerns, family support groups, morale calls and video telephone 
access, volunteer opportunities, reunion activities, letter writing 
kits for children, and a myriad of other services.
    The commuting nature of the Air Force Reserve combined with base 
closures and realignments create additional challenges for reservists 
and their families. Unlike the Regular Air Force, many of our Reserve 
members do not live in the local area of their host unit. In many 
cases, the families are scattered over various geographical regions, 
making access to centralized counselors difficult. With the 
transformation to an operational force, mobilizations and the need for 
more volunteerism, we are engaged in addressing several issues that 
have surfaced with this target population to include adjusting to the 
new steady state (more deployments, less predictable intervals and tour 
lengths, etc.), access to affordable child care, and employment 
opportunities. We are pursuing solutions to these problems and will 
continue to until they are resolved.
Force Shaping in Fiscal Year 2009
    In the 2006 and 2007 President's budget requests, the Air Force 
reduced Total Force end strength by 37,000 full-time equivalents and 
reprogrammed active military, civilian, and reserve end strength funds 
into the modernization and recapitalization accounts. As a result of 
these actions, the Air Force Reserve reduced its end strength from 
74,900 to 67,500. Additionally, BRAC and Total Force Integration 
initiatives impacted nearly twenty percent of our personnel, many of 
whom we transitioned from operating, maintaining, and supporting legacy 
systems to new and emerging missions such as CYBER, Predator, Global 
Hawk, Falconer Air Operations Centers, and Distributed Common Ground 
Systems. Over the past three years the Air Force has made difficult 
choices in respect to its People, Readiness, Infrastructure, and 
Modernization and Procurement accounts. The Air Force is in the process 
of reevaluating its end strength requirements based on new and emerging 
mission types as well as Air Force support for manpower increases 
programmed for the Army and Marine Corps.
Recruiting and Retention
    We met our recruiting goals for the last seven years thanks to our 
great recruiters and the many authorities and funding the Congress has 
provided such as increased bonus incentives, opening TRICARE Reserve 
Select at the lowest premium to all selected reserve members, and 
expanding the Montgomery G.I. Bill eligibility window from 10 to 14 
years. Our retention targets are also being met. While we continue to 
maintain manning levels to meet mission requirements, we anticipate 
significant recruiting and retention challenges in the near term, and 
potentially the long term, due to base closures and mission 
realignments. BRAC also reviewed the Air Force Reserve's new missions 
and realigned some of the locations. We are not allowed to move our 
Reserve Airmen when we close a base or unit, as is done in the Regular 
Air Force. Reductions and displacement of reservists present 
significant recruiting and retention challenges for the Air Force 
Reserve.
    One new mission area is the stand-up of an F-22 associate unit at 
Elmendorf AFB in Anchorage, Alaska, and Holloman AFB in Alamagordo, New 
Mexico. This mission will have reservists associate with their regular 
component partners on the fifth generation fighter. While we are 
excited about the opportunity, we have had to increase the number of 
recruiters for officer, enlisted and Air Reserve Technician positions 
to overcome the obstacles of this challenging recruiting market.
    We must continue to identify opportunities to attract members 
separating from the Regular Air Force. With a shrinking pool of prior-
service Air Force members, recruitment and retention of these 
experienced individuals is vital to avoid the costs of training non-
prior service members. For some of our most critical specialties, 
affiliation and retention bonuses actually provide a greater return on 
investment versus recruiting non-prior service Airmen. Finally, force 
shaping authorities and incentives should be viewed from a Total Force 
perspective to ensure that provisions do not discourage continued 
service in the Reserve components.
                   prepare for tomorrow's challenges
Air Force Reserve Transformation
    The Air Force Reserve is accepting an increased share in the Total 
Force partnership with accelerated mission growth and associations. We 
continue to combine with our Regular and Air National Guard partners to 
deliver 21st Century capabilities in Global Vigilance, Reach and Power.
    The technological skills and civilian experience of Reserve Airmen 
are ideally suited to expanding the Nation's eye in Global Vigilance. 
To support Air Force dominance in space, the 310th Space Group at 
Schriever AFB, CO expanded to become the 310th Space Wing just last 
month. A further example of our growth in space is the increased 
manpower we are adding to associate with the Regular Air Force's 8th 
Space Warning Squadron at Schiever AFB, and the increase of our own 9th 
Space Operations Squadron at the Joint Space Operations Center at 
Vandenberg AFB, CA. The Air Force Reserve also operates a Global Hawk 
unit and other Intelligence, Surveillance and Reconnaissance systems at 
Beale AFB, CA, as well as Predator units at Nellis AFB, NV. All of 
these reservists contribute to the Nation's ability to gain and 
maintain awareness anywhere in the world, to provide warning and fuse 
data together to route relevant information to Combatant Commanders.
    To extend the arm of Global Reach, we are creating Active 
Associations, where the Air Force Reserve has primary responsibility 
for the aircraft and the Regular Air Force will augment with manpower. 
This will occur with our KC-135s at Seymour Johnson AFB, NC and March 
ARB, CA, and with our C-130s at Pope AFB, NC. The Air Force Reserve 
will cease operating at Selfridge ANGB, MI and move manpower to augment 
the regular component in a classic Associate KC-135 unit at MacDill 
AFB, FL. In the third associate model, an Air Reserve Component (ARC) 
Associate, the Air National Guard is providing manpower to augment our 
Reserve KC-135s at Tinker AFB, OK. Additionally, we will host an Active 
Associate C-130 unit at Peterson AFB, CO, as well as an ARC Associate 
C-130 unit at Niagara Falls, NY, the Nation's first-ever combat 
delivery ARC association. These units will provide responsive military 
capability anywhere on the globe to rapidly supply, position, or 
reposition Joint Forces.
    To increase Global Power projection, we are assuming new missions 
by associating with the regular component in the F-22 at Elmendorf AFB, 
AK and will soon begin standing up an F-22 association at Holloman AFB, 
NM. In another new mission area, we will associate in the F-15E at 
Seymour Johnson AFB, NC. In a mission we are very familiar with, we 
will provide experienced instructors to train the Total Force in the A-
10 at Davis-Monthan AFB, AZ and extend operational experience in a 
classic A-10 association at Moody AFB, GA. These new and expanded 
missions help increase the Nation's ability to hold at risk or strike 
any target, anywhere in the world, and achieve swift, decisive precise 
effects.
Commission on the National Guard and Reserves
    The Congressionally directed commission completed an extensive 
review of the Guard and Reserves' role as an operational force. In the 
report the Commission acknowledged that the Air Force Reserve has been 
a leader in developing the force to meet operational requirements while 
maintaining a significant level of strategic capability. The Commission 
recognized the uniqueness of each Service and acknowledged the need to 
develop discretionary authority that provides flexible tools for the 
Service Secretaries to use when meeting requirements. The Department of 
Defense is studying many of the recommendations and part of that review 
will be the impact on the budget if any of the recommendations are 
adopted in fiscal year 2009.
                                closing
    Mr. Chairman, I take pride in the fact that when our Nation calls 
on the Air Force Reserve, we are trained and ready to go to the fight. 
Everyday we have reservists who are training and deploying around the 
globe in support of our Nation's defense. Our ability to respond is due 
to our focus on readiness. In order to maintain this readiness, we 
budget wisely and ensure we have the proper funding levels to support 
our Airmen and weapon systems.
    On behalf of over 67,500 Air Force Reservists, I appreciate the 
support this committee provides to our readiness and combat capability. 
The Air Force Reserve, as with the other Services, is facing many 
challenges. While we maintain our heritage of providing a strategic 
reserve capability, today and into the future, we are your operational 
warfighting Reserve bringing a lethal, agile, combat hardened and ready 
force to Combatant Commanders in the daily execution of the long war. 
We are proud of the fact that we provide the world's best mutual 
support to the United States Air Force and our joint partners.

    Senator Stevens. Well, thank you very much, and we welcome 
Chief McIntosh and Colonel Overturf. I am proud to have an 
Alaskan here. And, Dr. MacKenzie, thank you very much for 
distinguished service.
    Let me call first on Senator Mikulski.
    Senator Mikulski. Well, thank you, Generals and Admiral. Of 
course, all the wonderful men and women in the Reserves, those 
who were introduced here and those here and around the world, 
we would like to just greet so personally, and we want to thank 
them for their service.

                               RETENTION

    My concerns are recruitment--not recruitment, but 
retention. I think during this intense time and this intense 
OPTEMPO, you have done a good job with recruiting, but my 
concern is retention when one thinks about just the tempo of 
being a flight surgeon, if a flight surgeon or a chaplain were 
all that you do. Could you just go down what your retention 
rates are and what other kinds of support services, 
particularly either to the troops themselves or to their 
families, that we should be focusing on?
    My concern is that they are very worried about their 
families and both their financial situation and then the stress 
of the kind of deployments that they are being called upon that 
reserves never originally anticipated. Maybe we could just go 
down the line on that.
    General Stultz. Yes, ma'am. The good news is our retention 
rates are very good. Last year in 2007, we achieved 119 percent 
of our goals in retention. The good news about that is 
traditionally we have made our retention goals on the backs of 
our career soldiers who have 10 to 15 years and they are 
working toward a 20-year retirement.
    Where we have struggled has been with our first-termers who 
joined and now they are trying to make a decision on whether 
they are going to continue. In 2007, our first-term 
reenlistment rate was almost 150 percent of goal. It was 
tremendous, which means these young soldiers, just as was 
epitomized here today that joined after 9/11, knowing what they 
were getting into, are staying with us.
    So it is a good news story that we are meeting our 
retention goals and currently this year, we are on par for 
about 110 percent of goal at a time when we increased the 
overall number of our goal by almost 3,000. So we increased the 
total number, and we are still exceeding what our goals are.
    To your question, though, we recruit a soldier. We retain a 
family. If you do not have the families with us, that soldier 
is not going to stay with us. And I think what we have got to 
do--and some of the panel here have already mentioned things 
like the Yellow Ribbon Program, the family support networks. We 
have got to continue to pay more and more attention to taking 
care of families and taking care of soldiers prior to 
deployment, during deployment, and post-deployment. And we 
cannot have this approach which we have a legacy strategic 
system that said we mobilize the soldier. When he comes back 
from Iraq, we take him off orders and send him back home, and 
fine, thank you for your service. We are done with you.
    We know now that we are seeing things like post-traumatic 
stress, traumatic brain injury, those types of wounds that 
manifest themselves 6 months after the soldier has returned, 
those types of injuries that the soldiers do not know they have 
got until they get back. And what we are looking at is instead 
of the traditional approach--I was gone for 22 months. I was 
gone from October 2002 through August 2004. I got ready to come 
home from Iraq and Kuwait, and they said to me, okay, tell us 
if there is something wrong so we can keep you. I am leaving. 
Okay, I get back to this side to my mobilization station, and 
they ask you the same question. Tell us if there is something 
wrong so we can keep you here. I am going home. We have got to 
change that approach. We have got to say, okay, let us get the 
soldier back with their family and then let us take an approach 
after they get home for the next 3 to 6----

                         YELLOW RIBBON PROGRAM

    Senator Mikulski. General, I appreciate that. I know I have 
limited time on my question.
    I would just like to say to my colleagues--and I am sorry 
Senator Inouye is not here and this has also been very helpful 
to the leadership of General Blum. Our Yellow Ribbon Program is 
something I have been advocating and one of the pioneer States 
was Maryland. It is the military reintegration program for when 
either the Guard or the Reserve comes home.
    I think my colleagues would be stunned to know that the 
civilian leadership at the Pentagon did not include it in this 
year's appropriation request. Fortunately, our bipartisan 
leadership has chosen to include it in the supplemental which 
would pay, I think, $65 million and will cover 15 States and a 
down payment on those States that are initiating the program.
    Our concern with the Yellow Ribbon Program is that it is an 
excellent program as far as it goes. But, General, I think what 
you are saying, even that excellent program does not go far 
enough because it is about an immediate reentry program, but if 
anyone has other issues that go on for a period of time, it 
presents challenges.
    And what we heard at a Maryland roundtable--the Governor 
and I--was that for a lot of people, they do not really know 
what they need until they have been home 1 year, that year of 
just getting cleaned up and the noise level going down and all 
of the things that it takes just to reconnect. Has that been 
your experience that we have to think about the Yellow Ribbon 
Program not only as it is, but really what our men and women 
are experiencing?
    General Stultz. Yes, ma'am. We have got to be able to 
provide that soldier and his family the confidence that we are 
going to take care of them for any kind of related illnesses, 
services, or whatever no matter when it manifests itself.
    Senator Mikulski. Well, I know my time is up. But is this 
pretty much in agreement with what you all would say?

                               RETENTION

    Admiral Cotton. Yes, ma'am. I just want to say retention is 
great for all of us, but it is not just numbers. We call that 
fill. There is also fit. It is the right skill sets. There are 
certain skill sets that are used over and over again. That 
compresses the back-home time. So that is what we have really 
got to work on.
    Thank you to all of you. TRICARE Reserve Select went into 
effect last October 1 for all reservists. So if you are a 
drilling reservist, a selected reservist, a traditional 
reservist, you can buy health care. This is a huge, huge thing 
for our soldiers, sailors, airmen, and marines. And this has 
picked up our retention. So I thank you for that benefit.
    Senator Mikulski. Thank you, Mr. Chairman.
    Senator Stevens. Senator Murray.
    Senator Murray. I think Senator Durbin was here ahead of 
me. He can go ahead. I will wait.
    Senator Stevens. My list shows you came in first. Why do 
you not go ahead?
    Senator Murray. Well, thank you very much, first of all, to 
all of you for all you have done for our country. I really 
appreciate it, and for all the men and women who serve in the 
Guard and Reserve. There are just tremendous tasks that we have 
asked all of them to do, and I want them to know how much we 
appreciate it.

                              KC-X PROGRAM

    But, General Bradley, let me turn to you first for a 
question because I have really been working hard to better 
understand how the KC-X program was run and to what level each 
branch participated in the selection process. As you are aware, 
this program is the number one procurement effort the Air Force 
has, and the selection process has been touted as the most 
thorough and transparent competition. And I wanted to ask you 
this morning if you could please tell this subcommittee what 
input the Air Force Reserve had on that selection process.
    General Bradley. Senator Murray, the Air Force Reserve had 
no input on that process. As a major command like the other 
major commands, we are not in any way connected to the 
acquisition process.
    Senator Murray. So you were not asked to give any input 
about this procurement process even though the Reserves fly a 
number of these tankers?
    General Bradley. No, ma'am. I was not asked at all. I was 
not involved in any way. We do fly the current old tankers, but 
we are not part of the acquisition and no one talked to me or 
my command in any way about this program.
    Senator Murray. I find that interesting.
    Now, you know, this protest is now before the Government 
Accountability Office (GAO). So I know you cannot comment in 
particular.
    But let me ask you a simpler question rather than something 
about that, and it is one I have asked General Moseley and 
Secretary Wynne. And that is, would you be proud to fly the 
Boeing 767, had that been chosen?
    General Bradley. Of course, ma'am. Every airplane we have 
had over the course of my 41 years in the Air Force I think has 
been a very good, capable aircraft. There are many very capable 
aircraft out there. The Air Force is proud to have any 
aircraft. We would be proud to have any.
    Senator Murray. Thank you. I appreciate that.
    General Bradley. Yes, ma'am.

                           FULL-TIME SUPPORT

    Senator Murray. Let me turn to a broader question. Each one 
of you has a full-time support entity within your organization, 
and with the increased usage of the Reserve component, do you 
feel you have the full-time end strength to fulfill your 
obligations to each of your active duty components' 
requirements? And I would like each one of you to respond. 
General Bradley, we can start with you.
    General Bradley. Senator Murray, we have come down in size 
a little over the last couple of years. We have had a 10 
percent personnel cut to help pay for acquisition programs, the 
same kind of cut that the active Air Force underwent. And what 
we have had to do is evaluate what missions the Air Force needs 
us to do the most and what the least, and we have had to cut 
some things out. We have had to do some reorganization. We have 
cut one flying wing out of our organization, as well as doing a 
lot of restructuring and closing of some smaller units.
    That being said, we have enough people to do everything the 
Air Force wants us to do now. There are more things that they 
would like us to do, if there were more funds. So the Air Force 
has on its unfunded requirements list a personnel increase, if 
they had more funds available, and they have included an Air 
Force Reserve piece in that unfunded request, a growth of 
4,200-plus positions over the course of a few years.
    Senator Murray. An unfunded request. So we need this but we 
do not have the funds?
    General Bradley. Yes, ma'am. There are more things the Air 
Force believes it needs to do for this Nation, and they include 
the Air Force Reserve and the Air National Guard and all of 
those kinds of missions in which they are involved and the 
things they see for the future. They believe with the future we 
are presented and the threats we face, there are some more 
things we could do if we had more people and more funds, but we 
do not have enough funds in the budget for it today.
    Senator Murray. Thank you.
    General Bergman. Good morning, Senator. In the full-time 
support category, the active component Marine Corps for decades 
has provided over 4,000 active component marines to support the 
183 sites of Marine Forces Reserves. Those active component 
marines, literally from the rank of corporal through colonel, 
come to serve with the Reserve component for a 2- to 3-year 
period. They bring with them the current tactics, techniques, 
and procedures that the big Marine Corps is using to go to the 
fight. That usage of those 4,000-plus marines over the course 
of the last several decades has paid off big time for us 
because our units were ready to go to the fight from the 
beginning.
    The better news is that when those active component marines 
return to the big Marine Corps, they come with the knowledge of 
the challenges of the Reserve component when it comes to the 
integration piece and how it all works. We also have about 
2,200 AR, Active Reserve, billets which are our equivalent of 
the full-time support. They are Reserve marines on active duty. 
Historically they did administration type of work. The number 
is about right.
    But what we are looking at is providing two things: number 
one, career tracks for that small of a population, very 
challenging, especially on the enlisted side; but number two, 
providing them tours in the appropriate place. So if they are 
going to be viewed by the active component folks as experts in 
the Reserve component, they had better have served with the 
Reserve component in some way, shape or form. Otherwise, they 
are just another marine who may or may not be able to 
articulate the needs of the Reserve component. So we are 
focusing on restructuring those 2,200 billets to provide, 
number one, the career potential and, two, the expertise that 
is needed across the big Marine Corps in order to understand 
the nuances.
    The best opportunity I believe we have for the future here 
is to provide the continued numbers dollar-wise of ADOS money, 
formerly ADSW, to bring now the new qualified reservist on 
active duty for 2 or 3 years and provide them opportunities as 
they work through their personal continuum of service. Now you 
have an individual, whether it be officer or enlisted, who can 
talk both sides of the equation with a level of articulation 
that everybody needs. So that is the big picture of where we 
stand.
    Senator Murray. Excellent. Thank you.
    Admiral.
    Admiral Cotton. The Navy has enough FTS. Just like the 
Marine Corps, we fully integrate them. We have got about 760 
FTS deployed right now in support of combatant commanders 
getting joint experience. The Commission on National Guard and 
Reserve recommended we continue this integration. FTS stands 
for full-time sailor. We are part of the Navy, not separate 
Active and Reserve.
    And I think the highlight of this right now is the 
commander of Task Force 76 off the coast of Myanmar, or Burma, 
is Rear Admiral Carol Pottinger on board U.S.S. Essex, and she 
is a full-time support admiral and she is fully integrated in 
command of a task force. So this is what Navy has done in the 
integration.
    Senator Murray. Excellent.

                      FULL-TIME SUPPORT STRUCTURE

    General Stultz. I echo what Jack Bergman just said. I think 
in the Army Reserve, two things. One is we have got to reform 
the full-time support structure. We have got to get more 
integration with active components and Reserve soldiers moving 
back and forth between assignments so that we get that 
experience level. And we can take a soldier who is coming 
back--let us say he has been with the 101st at Fort Campbell. 
He has done two tours in Iraq. Maybe he comes back and his next 
tour is in a Reserve unit where he gets some dwell time, but 
also he brings that experience back to us and helps us train 
that unit. In the meantime, I take one of my soldiers and put 
him in the 101st and let him get that experience there. So we 
have got to start getting this continuum of service with 
soldiers moving back and forth.
    In terms of the number, though, we still continue to need 
additional full-time support in our forces. Now, when I have 
talked to the Chief of Staff of the Army, General Casey, I have 
said there are two ways to go about it. One is to give me more 
additional full-time authorizations or give me back the full-
time support that are in what I call the above the line. They 
are in the DA staff. They are in the joint staff. They are in 
the COCOM's.
    I have got 2,700 full-time support soldiers that are Army 
Reserve that are serving outside of Army Reserve assignments. 
They are supporting the Army staff. They are supporting the 
joint staff. They are supporting a lot of other operations, 
good experience in some cases, but they are coming out of my 
ranks.
    And so we are looking and saying we need to recapture that 
2,700 whether or not it is an increase in our full-time support 
authorization to make up for that or to give them back to me so 
I can put them back into those units where the readiness really 
needs to be.
    We also need more flexibility. This cycle we keep talking 
about--and it gets to what Senator Mikulski was talking about 
with reintegration. As a unit goes through a 5-year cycle that 
we are going to put them through, when they come back from 
theater and they are in year one, I probably need a full-time 
staff that looks like a supply sergeant to get my equipment 
straight and accounted for, maybe a chaplain for reintegration. 
I probably need a trainer to get school seats for soldiers who 
need to go to school, those kinds of things, some admin people 
to get orders straight, get reassignments and promotions 
accounted for.
    But 2 years from then when they are getting ready to deploy 
again, they are about 2 years from deployment, I probably need 
to change the mix of that full-time structure, and maybe I need 
a full-time commander and a full-time first sergeant and a 
full-time operations NCO. And so I think one of the things we 
have got to do is make the system we have got more flexible.
    Senator Murray. And what is the barrier to doing that?
    General Stultz. Part of it is the type of structure we 
have--military technicians as full-time people who we do not 
have the capability to move around like that. And then our own 
systems of where we designate full-time positions and it takes, 
for lack of a better term, an act of Congress almost to get 
that changed. And that is our own bureaucracy. That has nothing 
to do with you. It is our own bureaucracy. We have got to get 
more flexible in the way we do things.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Durbin.
    Senator Durbin. Thank you, Senator.

                             MENTAL HEALTH

    I would like to address an issue which is not talked about 
a lot, but needs to be. Admiral Mullen briefed us recently and 
gave us a very candid briefing about the state of our military 
in terms of problems they are facing, both in continuing to 
serve in theater and after they return. He spoke, I thought, in 
very candid terms and honest terms about the toll that this war 
has taken on many of our great citizen soldiers, as well as 
those in the regular Army and regular branches of the service. 
And he talked to us about the concern he has about how long we 
can continue to ask these men and women to make the sacrifices 
that they are making.
    We recently received a report through the Veterans 
Administration, November 2007. It found that 42.4 percent of 
National Guard and reservists screened by the Department of 
Defense required mental health treatment after service. Many of 
these citizen soldiers do not live close to VA facilities and 
have some challenges there.
    The recent VA data on suicide deaths among returning 
veterans from Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) indicate that Guard and reservists 
account for 53 percent of those suicides. Significantly, only 
one in five had been seen at a VA facility before they took 
their lives.
    When it comes to these issues--heartbreaking issues--of 
divorce, mental illness, and suicide, can you tell me what is 
going on in each of your branches now, having watched this war 
over more than 5 years with repeated deployments, longer 
deployments, strains on individuals and families that they 
might never have contemplated? General Stultz?

                                SUICIDES

    General Stultz. Yes, sir. It is a big concern of mine.
    Now, we have looked at the suicides. I will tell you that 
our suicide rates in the Army Reserve have not spiked or 
increased. We are averaging about 20 suicides a year. Now, we 
used to report only those suicides that occurred while the 
soldier was on duty. We changed that policy because I said, no, 
when I lose a soldier, I lose a soldier. It does not matter if 
he is on duty or off duty. And it is my responsibility. So we 
have been tracking them for the last 3 years, and we have 
averaged right at around 20.
    We have looked at the suicides and to date we cannot 
correlate anything with the deployment and the suicide rate. A 
lot of my suicides occur among soldiers who have never 
deployed, who are not facing deployment. They just have some 
kind of traumatic events in their life. And so in that 
relationship, I said, I cannot make the correlation yet. 
However----
    Senator Durbin. Excuse me. The 20 is for Army Reserve?
    General Stultz. Yes, sir.
    Now, that being said, just as I spoke with Senator Mikulski 
about, what does concern me is the stress. What I have told my 
soldiers is everybody suffers stress from deployment. Everybody 
does. When I was gone for 22 months and came back and I went 
back to my civilian life at Proctor & Gamble and I was sitting 
in a board room talking about how many sizes of Charmin toilet 
paper do we need on the shelf, I could not take it. I said this 
has nothing to do with what is the reality in the world. That 
is stress. Now, how you deal with that is one thing.
    But what we have got to recognize is every one of our 
soldiers goes through stress, and to me, every one of them 
needs to go through the mental counseling. Do not make it 
voluntary. Make it mandatory that everybody gets screened so 
that there is no stigma attached to it. And you do it 3 to 6 
months after they come back.
    Senator Durbin. That was an excellent suggestion. I heard 
exactly the same thing from returning guardsmen in Illinois 
when they were sent to Fort McCoy in Wisconsin and asked, 
``Before you go home, do you have any problems?'' The answer 
was, ``Of course not.'' And they did. They just did not want 
to, in any way, be delayed in going home.
    General Stultz. Well, I think the other thing we cannot 
forget is the families and the kids. They suffer stress also. 
They have got to be part of this process.
    I went down to Camp Rockfish last summer, which is one of 
our summer camps we have for children of soldiers that are 
deployed. We have Operation Purple Camps for all services, and 
then we have some Army Reserve camps. And we were talking to 
one of the counselors down there, and he said, you just got to 
understand what is going on in these kids' minds. Two young 
boys sitting there talking to each other and one of them said, 
when my dad comes back, and the other one said, they come back? 
He assumed he had lost his father. We have got to understand 
those kids. We have got to get them reintegrated also. So the 
stress is not just about the soldier. It is about the entire 
family. We have got to address that.
    Senator Durbin. Are you tracking divorce rates as well?
    General Stultz. Not to the extent we probably should, no, 
sir.
    Senator Durbin. Admiral.

                             MENTAL HEALTH

    Admiral Cotton. I agree with everything Jack just said. We 
have had the same experiences.
    I will add one thing, though. Going as a unit is far 
different than as an individual, and we are doing 1-year 
deployments for these provincial reconstruction teams, 15 
months in some cases, prison guard duty, this kind of stuff. So 
it is tough on an individual family. This is where our total 
Navy has come into play, whether Active or Reserve. We shoot it 
exactly the same way. We used to have Reserve centers. We do 
not have them anymore. They are Navy operational support 
centers and they are manned by Active and Reserve in a State, 
Illinois, for example. And so anybody can get assistance there.
    I have said before that we mobilize well and we fight well. 
We do not do well when sailors come home. We have found that at 
the 3-month, 6-month, maybe as late as the 9-month mark, we 
need a celebration of their service through a returning warrior 
workshop. They go to a nice hotel at about $800 per person or 
couple and celebrate who they are, what they did, receive 
certificates, and are treated to a nice dinner. This is also 
when the onset of the PTSD usually kicks in, like Jack said, 
and this is where you have representatives from the VA, other 
organizations there with phone numbers, Web pages, cards, 
handouts, so we aggressively go after these kind of things. And 
that has really helped here. But we have learned this over 
time. So that is one of the solutions we have.
    Senator Durbin. General Bergman?
    General Bergman. Yes, sir. To echo what John and Jack have 
both said, unit deployment is key. Unit cohesion is key. We as 
the Marine Corps Reserve deploy our units largely as infantry 
battalions or squadrons. So they are together before they go. 
They are together after they come back so that minimization of 
isolation, especially after they return, is a big positive 
factor.
    Plus, we only deploy into theater for 7 months, whether you 
are Active or Reserve in the Marine Corps, because we maintain 
a worldwide base forward presence that a 7-month deployment 
works for us as a service. That helps. But that reservist, of 
course, when they mobilize, is still gone for a year whether 
they are across the street or across the world.
    The critical time after returning in our force generation 
model is that first year to allow them to reintegrate into 
their home life, their business life, but maintain whatever 
level of connection with that Reserve unit while they now 
rebalance their personal life. The positive connection helps. 
We do track that.
    A challenge with tracking some of the folks is from the 
IRR, the Individual Ready Reserve, who come from all over the 
country as individuals and then return--our mobilization 
command tracks that better than we did before because we are 
now aware of the numbers that we have involved. And 16,038 
folks today from the IRR are mobilized, and almost all of those 
are forward deployed.
    Sometimes when a person gets back from deployment, they 
leave a unit. We are providing avenues for if they do not stay 
in touch with us, we are not hesitant to stay in touch with 
them. As marines tend to do, we tend to be a little direct at 
times, and it works because they know in that directness we 
care.
    Senator Durbin. Thank you.
    General Bradley.
    General Bradley. Senator Durbin, my colleagues have given 
you some good, thorough answers with which I would completely 
concur.
    What I would say in addition is we do a lot of deployments 
as units, but we do, in the Air Force, a lot of individual 
deployments. I agree having units together is better and we 
have done a lot of restructuring of the deployments that we do 
to the AOR to gather more of our people from a unit together in 
one place. So we gather hundreds of reservists at one place 
instead of spreading people out more. That is helpful.
    We also, when we bring them home, whether they are 
individuals or units, they immediately go to their families. We 
do not send them to a mobilization center or something. So we 
have a different approach on that. I think, as General Stultz 
mentioned a moment ago, getting people back to their families 
fast helps.
    Also, having unit contact. We put great emphasis in our 
units on commanders and supervisors, first sergeants, senior 
enlisted folks, looking after our people and their families 
before deployment, during deployment, after deployment to make 
sure we stay in touch with these folks and have a handle on 
this.
    There are many things we can do better, but I think we look 
after this fairly well. But we still worry about that stress. I 
would not compare the deployments that my airmen do to those 
that General Bergman's or General Stultz' soldiers and marines 
do due to length. Our deployments are maybe 4 months long or 
sometimes even shorter. Theirs are 7 months, 12 months, very 
lengthy, tough deployments. So no comparison there, I think. 
But there is still stress because my units are doing multiple 
deployments. As I mentioned earlier, many have deployed four 
and five times, shorter tours, but it is a lot of turmoil in 
family and their employment life. So that adds stress.

                               EMPLOYERS

    Senator Durbin. Let me ask one last brief question. How 
important is it when employers of your members of the Reserve 
are willing to make up the difference in pay for those who are 
activated? Is that important?
    Admiral Cotton. I would say it is huge. We just had a brief 
yesterday from the Assistant Secretary of Defense of Reserve 
Affairs of a study that was just done on this. And I just have 
to compliment the employers of America and what they are doing 
for our Guard and Reserve. We are in a long war. They have 
stuck with them. If anything, I think it is accelerating at 
home. That is a really good sign.
    Senator Durbin. Thank you. I have tried for 5 years to get 
the largest employer of Guard and Reserve, the Federal 
Government, to do this, and I failed. But I will keep trying. 
Thank you.
    I have also submitted a statement that I would like to have 
entered into the record.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Chairman Inouye and Senator Stevens, thank you for your leadership 
in addressing a very important part of our nation's armed services--our 
National Guard and Reserves.
The Long War
    Over 1.6 million servicemen and servicewomen have now served in 
Iraq or Afghanistan. Over 262,000 have served as Guardsmen and 208,000 
have served as Reservists. We have lost 454 National Guard soldiers in 
Iraq, almost five times as many as were killed in Vietnam.
    The war in Afghanistan has gone on for seven years. It will last 
longer than Vietnam. There still is no end in sight.
    This summer, Illinois will see the largest deployment of its 
National Guard since World War II.
    2,700 Illinois National Guard members will deploy to Afghanistan, 
where they will help train the Afghan National Army and the Afghan 
National Police. For some, the deployment will be their second, third, 
or even fourth during their service.
    These are the outstanding men and women of America. We ask them for 
their service, their strength, their courage and fortitude. They will 
spend a year using their talents to help rebuild Afghanistan.
Looking Out for Reservists
    Deployed Guardsmen and Reservists don't just leave behind their 
families and their jobs. They often leave behind higher civilian 
salaries. A pay cut hurts any family, but it is especially painful for 
a family that also sees a mother or father deployed to war. I've 
offered legislation requiring employers to cover the salary difference 
for Guardsmen or Reservists called to active duty. I think it's right 
thing to so.
    There are several good proposals for improving conditions for our 
Guardsmen and Reservists. Perhaps the most overdue is Senator Webb's GI 
Bill that improves educational benefits for all members of the 
military, including the Guard and Reserve.
``Stop-Loss''
    But it isn't just about the benefits we make available. We need to 
respect the decision to step down from service, when a service member 
decides he or she is ready to move on to the next phase of their lives.
    Today, the Pentagon prevents some from leaving the service even if 
their tour of duty is soon to be completed.
    Defense Secretary Robert Gates issued an order in January 2007 to 
minimize ``stop loss'' for the active and reserve forces. The Army now 
says it will continue this practice well into 2009. At this time last 
year, 8,540 soldiers were serving involuntarily. Today, that number has 
surged by 43 percent.
    We need to end this ``back door draft'' approach--and let these 
brave men and women move on to the next phase of their lives.
Caring for Reserve Veterans
    I know we're here to talk about those who are serving, but we can't 
ignore the toll this service is taking on those who have served.
    Veterans from Iraq and Afghanistan are coming home with higher 
rates of traumatic brain injuries (TBI), post-traumatic stress disorder 
(PTSD), and depression, among other physical and mental wounds.
    One in five suffers from TBI. One in five suffers from PTSD.
    I introduced a TBI bill last year that was enacted as part of the 
Wounded Warriors title in the fiscal year 2008 Defense Authorization 
Act.
    And we've expanded the VA's polytrauma capabilities to help 
veterans--active duty, Guard, or Reservist--suffering from multiple 
traumas, such as traumatic brain injuries, hearing loss, fractures, 
amputations, burns, and visual impairments.
    These injuries are not always obvious or easy to identify, and once 
they are identified they will require a lifetime of care. But we owe 
our men and women in uniform at least that much. We're starting to see 
what happens when we skimp on diagnosing and treating these wounds.
Impact to Illinois
    My home state of Illinois is feeling the impact of this war.
    The Illinois Department of Veteran Affairs, led by Tammy Duckworth, 
launched the Illinois Warrior Assistance Program--a first in the nation 
program that will screen returning Illinois National Guard members for 
a traumatic brain injury (TBI). The program also offers TBI screening 
to all Illinois veterans, and a 24-hour toll-free psychological 
helpline for veterans suffering from symptoms associated with Post 
Traumatic Stress Disorder (PTSD).
    The Illinois Army National Guard needs more equipment. It has 61 
percent of the ``dual use'' equipment it needs--equipment that can be 
used at war and at home for defense or disaster response.
    The 2,700 soldiers deploying to Afghanistan this year serve in the 
33rd Infantry Brigade Combat Team, at Urbana, Illinois.
    To support this mission, the 33rd recently received $80 million for 
equipment. But at the same time, more than 30 percent of the Illinois 
National Guard's vehicles are outdated.
Conclusion
    We need an honest and candid dialogue about the true cost of this 
war--not just the cost of fighting it abroad, but the cost to families, 
employers, and opportunities lost.
    I look forward to learning what more we can do.

    Senator Stevens. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you and thank all of 
you for being here today to be sure we understand and have the 
facts we need to help support your mission and help assure your 
success in defending the security interests of our country. We 
know this is a tough time and there is a lot of stress and 
questions, unknowns out there in the minds of those under your 
commands. And we appreciate the sensitivity that you have and 
that you have indicated this morning to the challenges to 
families and to the stability of communities in our country. We 
thank you for your service.
    I know Admiral Cotton has this returning warrior program. 
You mentioned that a while ago. I am curious to know if the 
other services have anything similar to that. General Stultz.

                       RETURNING WARRIOR PROGRAMS

    General Stultz. Yes, sir. We have had, for some time, a 
reintegration program. Now, part of the challenge we had was 
the policy from the Secretary of Defense that was put out 
initially that said when a unit returns, for the first 90 days, 
there is a blackout period before they are able to drill again 
to come back together. We just recently got that changed 
because we said, no, we need to get our hands on that soldier 
immediately after they come back so that we can get hands on, 
we can talk. Plus, the soldier wants to get back with his 
comrades. So that was the first step, to get that policy 
changed.
    The next step is this Yellow Ribbon Program which the 
Secretary of Defense and others are now pushing us to say we--
they recognize that we have got to get a systematic approach 
that is not just you come back and 2 weeks later you are done. 
It is 3 months, 6 months, whatever approach, just as General 
Bergman said, almost a 1-year integration plan. So we are 
starting to put together those types of programs.
    We do have programs like Strong Bonds, which our chaplains 
put on, where we pay for the couples to come together and talk 
about it like a marriage enrichment retreat. We started last 
year a singles program because we had a lot of single soldiers 
that said, what about us, and helping them dealing with 
problems, get reintegrated.
    But we have got to do better at formalizing that and not 
just making it as here is where we can do this in a case-by-
case basis, but across the force. That is going to take money. 
It is going to take money to pay for, just as John said, 
getting them together in a hotel environment where you can 
bring the family together. It is going to take some money to 
bring in those types of services we need, whether it is mental 
screening or physical screening, or those types. But I think it 
is something we have got to do. If we are going to have an 
operational force, if we are going to be in an age of 
persistent conflict and we are going to call on the reserve 
components as we have to sustain this war, then we have got to 
put those kind of programs in effect.
    Senator Cochran. General Bradley, what about the Air Force? 
What do you have?
    General Bradley. Senator Cochran, sir, we do not have a 
formal program like Admiral Cotton described, but on a unit 
level, we do many things. Different units do this different 
ways, have welcome home ceremonies. They may have a barbecue 
welcoming people back, have their families, et cetera. 
Different units do it different ways.
    We send people out as much as we can. I and other senior 
leaders in the Air Force Reserve try to go out and welcome 
people home off deployments. We like to shake hands when they 
get off the airplane and thank them for their service. And I go 
out as much as I can to visit units and thank people for what 
they do.
    We do not have that kind of formalized program. Perhaps we 
should look at something like that. But each of our wings have 
different ways to introduce them to their families and units 
and thank them for their service, but no formalized program.
    Senator Cochran. General Bergman.
    General Bergman. Yes, sir. Both the Active and Reserve 
components of the Marine Corps have a defined return reunion 
program for the families. It varies after the point where that 
unit demobilizes, and now as the Reserve component, we spread 
out events over that year timeframe because we know for a fact, 
like we joke about in some ways before they leave, if we are 
having a family event right before that unit leaves, those 
folks are not paying attention to what is being briefed. They 
are holding onto their loved one. They know they are leaving.
    When they return, they are still holding onto them because 
they are glad they are back. So we try to make sure that the 
program that is presented meets the immediate needs and keeps 
the door open, so 30 days, 60 days, 90 days down the road, if 
something develops, now they know that they have a place to go 
to get help. That is key.
    Senator Cochran. We appreciate very much your leadership, 
and thank you very much for cooperating with our subcommittee 
and giving us the facts we need to help you and help defend the 
security interests of our country.
    Senator Stevens. Senator Bond.
    Senator Bond. Thanks very much, Senator Stevens.
    I want to say a sincere thank you to the great work that 
you are doing in leading a vitally important part of our 
combined forces. Without the Reserve, we would be in terrible 
condition, and your efforts have made a huge impact.
    I am particularly proud of the Reserve A-10 unit at 
Whiteman Air Force Base which, I believe, has been three times 
to Afghanistan and apparently is preparing to deploy again. I 
would appreciate any comments that you have on that.

                         RESERVE A-10 SQUADRON

    General Bradley. Senator Bond, I was bragging about that 
unit in my opening statement. I am glad you are here because I 
told them I would love to talk to you about it. I am very proud 
of them. In fact, I was honored to be the wing commander of 
that unit almost 20 years ago.
    There is not a better unit in the Air Force Reserve than 
that wing at Whiteman, and they deployed last week to Baghram, 
Afghanistan for the third time. And I am going to visit them at 
the end of this month when I go over to Iraq and Afghanistan. 
And I will be proud to see them. They are fabulous airmen who 
are doing great work for America, doing close air support for 
soldiers and marines, NATO, and other coalition partners there 
in Afghanistan.
    They are indicative of the other airmen we have in the Air 
Force Reserve, but I will tell you they are special. They also 
spent 9 months on the ground and in the air over Iraq from 
March to November 2003. So in 5 years, this is their fourth 
combat deployment, and I am very proud of them. And I will pass 
on your regard to them when I visit.
    Senator Bond. Please do and give them not only our thanks 
and congratulations, but best wishes. Thanks very much.
    General Bradley. Yes, sir, I will. Thank you.
    Senator Bond. Thank you, Senator.
    Senator Durbin. Senator Stevens, if I might just make a 
comment. I would like to acknowledge, if it has not been 
acknowledged, that General Bradley is a few weeks away from 
retirement after more than 41 years of service to our country, 
and thank him personally for all that he has given us.
    General Bradley. Thank you, Senator Durbin, and I have two 
colleagues who are not quite as old as I am who are leaving as 
well. And I am proud to serve with them.
    Senator Durbin. I wish you all the best. Thank you.
    Senator Stevens. Well, thank you very much.
    Senator Mikulski. Senator Stevens, could I also make a 
comment, just a very brief one?
    Senator Stevens. Yes.
    Senator Mikulski. We could talk even more with you, 
particularly in the area of Reserve medical units like the 
Comfort, home-ported in Baltimore.
    But I just want to thank you for your candid, very candid 
presentation here today to really talk about what more--whether 
it is the marines, the Air Force, the Navy, or the Army does. I 
just found the candor and the bluntness in the way you are 
standing up for the reservists to be really refreshing, and I 
wanted to thank you for both your service but really your 
advocacy for the men and women who serve under you.

                        ELMENDORF AIR FORCE BASE

    Senator Stevens. General Bradley, there was an experiment 
really at Elmendorf Air Force Base when you took the Air Force 
Reserve and melded them in with the active duty as far as the 
F-22 is concerned. Now, I understand that experiment is going 
to be followed now at Holloman Air Force Base in New Mexico. 
Would you tell the subcommittee members here what you have done 
and how that improves the whole operation as far as the total 
Air Force is concerned?
    General Bradley. Yes, sir. I would be very glad to.
    What you are talking about at Elmendorf Air Force Base is 
what we in the Air Force refer to as an associate concept where 
we have one set of airplanes that belongs to a particular wing 
and that wing, whether it is Active or Reserve or Guard, owns 
those aircraft. And then we put another organization alongside 
it that associates with it, and they have people who work on 
and fly those aircraft as well. We have done that in Alaska. We 
are hiring maintenance personnel. We are hiring pilots to fly 
our F-22's there.
    And it has been very successful. I saw the active duty wing 
commander, General Tinsley, 2 weeks ago, and he told me he is 
so happy with the way this is working. And his reservists are 
doing tremendous work for him.
    We do this all over the Air Force. Senator Murray is gone, 
but at McChord Air Force Base, Washington, we have a similar 
operation in the C-17.
    We do it in many of the aircraft systems. It provides more 
capability, more people to work on and fly airplanes because 
the airplanes are more capable today than they used to be. And 
we need to keep them in the air more. Just as the airlines like 
to keep airplanes in the air, we need to keep them in the air 
so they can do more work because we have fewer aircraft today. 
So this provides more accessibility of the aircraft to the 
active Air Force and it also provides an experience base of 
guardsmen and reservists who are able to help fly these.
    We have a unit in Senator Durbin's area at Scott Air Force 
Base, Illinois, that does this with distinguished visitor 
airlift and special assigned mission aircraft, Active and 
Reserve working together.
    So at Holloman Air Force Base in New Mexico, as you asked, 
Senator Domenici--I have spoken to him about this. We are going 
to stand up a similar organization at Holloman to the one we 
have at Elmendorf Air Force Base where we will have Air Force 
reservists flying and working on the F-22 right alongside 
active duty airmen who fly and maintain the aircraft.
    It is a great concept. We have been doing it actually in 
some parts of the Air Force Reserve for 40 years in the air 
mobility business. So this association concept works well, and 
we do it whether it is the Reserve associating with the Active 
or Active associating with us. So in different cases, a 
different component may own the aircraft actually and the 
others associate with it. It is a proven concept that works.
    Senator Stevens. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    The chairman and I will have some questions we will submit 
to you. I request you respond to them at your convenience.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General Jack C. Stultz
            Questions Submitted by Senator Daniel K. Inouye
                       yellow ribbon integration
    Question. Gentlemen, the Department is establishing a Yellow Ribbon 
reintegration program for all reserve components. I know that many of 
the reserve components have already been providing reintegration 
programs. What is your component doing to support the reintegration of 
reservists returning from deployment and do you expect your program to 
change significantly with the introduction of the Yellow Ribbon 
program?
    Answer. The Army Reserve currently provides reintegration 
activities to our Soldiers and their Families through the entire 
deployment cycle. Activities include Marriage Enrichment Retreats, 
Single Soldier Retreats, Pre-deployment briefings and homecoming and 
reunion workshops for Family members.
    The Office of the Secretary of Defense Memo dated April 15, 2005 on 
Policy on Involuntary Training Following Demobilization prohibits 
military training for at least 61 days following a deployment. The 
Yellow Ribbon Program will dramatically expand our current 
reintegration activities by allowing us to bring Soldiers on duty 
shortly following deployment along with their Family members 
specifically for reintegration activities. This will help us better 
identify and provide help to our veterans who are experiencing 
difficulties.
    Additionally, our intent is to gather Families at the time of unit 
alert and again at pre-deployment processing to prepare them for 
extended deployments and help identify Families in crisis or those 
requiring additional support. We are developing the curriculum for our 
commands, utilizing medical and community resources, to provide 
counseling and initial intervention for those in need, as well as the 
outlets to help them overcome a myriad of issues based on stress, 
trauma, or Family crisis. While our Soldiers are deployed, Yellow 
Ribbon gives us the ability to invite Family members to the unit, on 
travel orders for one day, approximately 60 days after the start of the 
deployment and again, for one day 60 days prior to their return to 
continue to help the Family with existing or new issues that may arise. 
Once the unit returns home, we will begin the reintegration process by 
conducting three reintegration weekends centrally located to the 
command. The first two reintegration weekends requiring Soldiers and 
inviting Family members to attend will be held regionally and at 
centralized, off-site locations. Contracted professional child care 
will be available to those Soldiers who have small children. The third 
reintegration weekend will be for Soldiers only. All events will focus 
on reintegration back into the Family and community, and help identify 
medical issues that may begin to surface. We are engaging our Combat 
and Operational Stress Teams, the Military Family Life consultants, and 
the U.S. Public Health Service to help provide the expertise and 
classes to accomplish these reintegration events and activities.
    We expect the Army Reserve Yellow Ribbon events to help reduce the 
stress of combat and extended deployment and separation, reduce 
domestic violence, reduce the number of suicides, lessen financial 
difficulties and allow for more timely intervention for those suffering 
from emotional disorder, mild traumatic brain injuries (concussion) and 
post-traumatic stress disorder.
                 army reserve--full time support (fts)
    Question. General Stultz, the Army Reserve has identified a 
requirement of an additional 9,000 full time personnel to support 
training and mobilization activities. The fiscal year 2009 budget does 
not request a significant increase in full time support personnel. Why 
has the Department not supported a significant increase?
    Answer. The Department does not support a significant increase 
because they are currently conducting an extensive study on the Full 
Time Support (FTS) required for an Operational Reserve. In addition, 
the United States Army Reserve is also conducting its own analysis of 
the entire FTS structure.
    Question. And do you believe that the shortage of full time support 
is affecting the operational readiness of the Army Reserve?
    Answer. Yes, today's full-time personnel are major contributors 
across the full spectrum of the United States Army Reserve (USAR) 
operations. Fighting the Global War on Terrorism underscores the vital 
role Full Time Support (FTS) personnel have in preparing units for the 
multitude of missions both at home and abroad. The USAR Army Guard 
Reserve (AGRs) sustain the day-to-day operations of the entire USAR. 
The readiness level of the USAR units is directly tied to its FTS 
program.
    Question. The Army Reserve's full time support personnel (Active 
Guard and Reserve personnel and Military Technicians) currently 
comprise 11.9 percent of its end strength, compared to 34 percent for 
the Air Guard and approximately 17 percent for the other reserve 
components. Only the Army Guard, with 15.9 percent full time support, 
is faced with a similar full time support shortage. A 1998 study, re-
validated in 2006, supported the addition of 9,200 full time support 
personnel, bringing full time support to 16.8 percent of the Army 
Reserve's endstrength. The Army Reserve argues that even more full time 
support is now justified because of GWOT-related training and 
mobilization requirements. A new study is currently ongoing, with a 
December completion date, to re-evaluate full time support 
requirements.
    Recently, the Senate Armed Services Committee authorized an 
additional 3,300 full time support in their fiscal year 2009 bill. The 
Army Reserve has not yet provided cost estimates for this increase. In 
addition, although the Army Reserve is now meeting its recruiting goals 
after a year or two of lackluster performance, it might still be 
difficult for the Reserve to recruit that number of full time personnel 
in one year.
    General Stultz, the Army Reserve has struggled to achieve its 
recruiting mission in previous years, if given the authority and 
funding to increase your full time support levels in fiscal year 2009, 
how many positions could you fill?
    Answer. At this time the United States Army Reserve (USAR) can fill 
3,000 AGR positions in fiscal year 2009 if given the authorizations. 
Although the USAR has struggled in achieving its Troup Program Unit 
(TPU) end strength, we have successfully and consistently met the AGR 
end strength. As a result, we are confident we could fill the 
additional AGR authorizations.
                                 ______
                                 
       Questions Submitted to Lieutenant General John A. Bradley
            Questions Submitted by Senator Daniel K. Inouye
                           force realignments
    Question. General Bradley, the Air Force Reserve has been 
implementing several force structure adjustments as part of the Total 
Force Integration and base closure initiatives. The resulting closures 
and mission realignments have hurt Air Force Reserve retention. Now, as 
an additional cost saving measure, the Air Force is considering closing 
several reserve bases and transferring the units and personnel to 
active duty bases to reduce base overhead costs. How do you think this 
will affect the Air Force Reserve? Are you concerned that this will 
hurt retention levels?
Background
    The Air Force Reserve is undergoing significant force structure 
adjustments. As part of the Total Force Integration plan, the Reserve 
is working to pool equipment and personnel resources with the active 
Air Force to maintain capabilities at a lower cost by associating a 
reserve unit and active unit with the same set of equipment. At this 
same time, the BRAC Commission realigned Air Force assets at over 100 
facilities, recommending some bases close and other realign equipment 
and personnel. These changes affect 26 of the 37 Reserve locations.
    The Air Force Reserve is very concerned about how these additional 
changes are affecting retention. Reserve forces are not as mobile as 
those of the active force so base closures and mission reassignments 
threaten to hurt personnel retention as many airmen choose not to 
follow their unit to another base or to learn a new skill-set to 
perform their unit's new mission. Since these initiatives began in 
fiscal year 2005, the Air Force Reserve has seen a 2.2 percent decrease 
in retention levels with the largest losses coming from 1st and 2nd 
term personnel.
    Now, just as the Air Force Reserve is more than halfway through 
this wave of restructuring, additional cost saving measures are being 
examined. In an effort to reduce base overhead costs, the Air Force is 
considering eliminating many reserve bases and relocating the unit and 
affiliated personnel to an active duty base. This realignment could 
cause the same retention difficulties created by the Total Force 
Integration and BRAC initiatives because many reservists may chose not 
to uproot their families and leave their civilian jobs to follow their 
unit to a new base.
    General Bradley, when do you expect the Air Force to make a 
decision on whether to go ahead with this restructuring?
    Answer. The fiscal year 2009 President's budget request does not 
include any programmatic closing of additional Air Force Reserve bases 
beyond measures directed by the Congress in the 2005 Base Realignment 
and Closure round. The Air Force is currently deliberating its fiscal 
year 2010-15 Program Objective Memorandum (POM) submission to DOD, and 
as such, looks at many possible options to fund Air Force requirements. 
Most of the options discussed during this process never make it into 
the final submission to DOD. Since these options are pre-decisional it 
would be pre-mature to discuss any of the multiple scenarios that may 
be a part of the POM submission in a constrained fiscal environment. 
But Congress will be notified as soon as the fiscal year 2010 PB is 
final and releasable.
                      yellow ribbon reintegration
    Question. Gentlemen, the Department is establishing a Yellow Ribbon 
reintegration program for all reserve components. I know that many of 
the reserve components have already been providing reintegration 
programs. What is your component doing to support the reintegration of 
reservists returning from deployment and do you expect your program to 
change significantly with the introduction of the Yellow Ribbon 
program?
Background
    The Yellow Ribbon program is a reintegration program for reservists 
returning from deployment. The program invites service members and 
their families to attend a weekend reintegration seminar at 30, 60, and 
90 days after returning from deployment. It was started as an Army 
Guard program in Minnesota and is currently operational in a dozen 
states. The fiscal year 2008 authorization bill required the Department 
to establish a Yellow Ribbon program for each of the reserve 
components. To date, efforts are still in their infancy and the reserve 
components have not been given clear guidance about how to implement 
the Yellow Ribbon program and how to integrate it with any existing 
reintegration programs. So far, the Army is the only service to require 
military personnel to attend reintegration training, for the other 
components it is either optional or is incorporated into normal weekend 
drill activities.
    Admiral Cotton, General Bergman, and General Bradley, I have been 
told that currently reintegration training is only mandatory for the 
Army, have you considered requiring your service members to attend 
reintegration activities?
    Answer. Given the purpose of the Yellow Ribbon Reintegration 
Program, it is very likely that the required training will be mandatory 
and although optional for family members, will be strongly encouraged. 
High emphasis will be placed on providing our Airmen and their families 
with sufficient information, services, referrals and proactive outreach 
opportunities throughout the deployment cycle. Our mobilization process 
is often not unit based as compared to the Army and therefore our 
deployment distribution varies widely depending on the mission demands. 
Mass reintegration activities may not be our best avenue to help. We 
would also like the opportunity to personalize our efforts. Therefore, 
we are exploring the most efficient, effective, and creative ways to 
take care of our deploying Airmen and their families. We are currently 
exploring the use of telephonic outreach, screening and advocacy 
services by licensed behavioral health clinicians to personally contact 
and follow our deployed Airmen at the 30/60/90 day intervals. At the 
same time, we are taking a hard look at our current policies and 
perceptions to lessen concerns and stigma associated with seeking help. 
Available counseling services will be presented positively and 
communicated in a way that by electing to receive help, the Reservist's 
career will not be jeopardized. We also realize that trust must be 
built before reintegration activities achieve their intended purpose, 
mandatory or otherwise.
                                 ______
                                 
       Questions Submitted to Lieutenant General John W. Bergman
            Questions Submitted by Senator Daniel K. Inouye
                         reintegration training
    Question. General Bergman, I have been told that currently 
reintegration training is only mandatory for the Army. Have you 
considered requiring your service members to attend reintegration 
activities?
    Answer. Yes. As we move forward in our planning, we envision 
providing some of these activities at mandatory events, such as drills 
or musters.
                         reserve reintegration
    Question. What is your component doing to support the reintegration 
of reservists returning from deployment and do you expect your program 
to change significantly with the introduction of the Yellow Ribbon 
program?
    Answer. Since deployments commenced in 2003, the Marine Corps 
Reserve has developed and implemented programs to support Reserve 
Marines and their families, from predeployment through reintegration. 
The recent authorization to involuntarily activate Marines from the IRR 
introduced new challenges, and we expanded our embrace to Marines who 
had no experience with the Reserve, families who may have had no 
experience with the Marine Corps at all, and families dispersed far 
from any Marine Corps facility. Throughout the deployment cycle, we 
have experienced tremendous support from local communities and 
volunteer agencies, and see the Yellow Ribbon Program (Joint Deployment 
Support and Reintegration Program) as a tremendous asset in 
coordinating all of the available support. We also view the funding as 
an important component of the program, allowing Marines and their 
families to travel to activities that may have been otherwise 
impractical.
    They JDSRP will open many doors for us, allowing the Marine Corps 
to tap into and share assets with other services, the State National 
Guard Bureaus, and the multitude of support services available through 
state and federal Veterans Administrations. It has defined the 
criticality of supporting Marines and their families throughout the 
four stages of deployment, but we are most aggressively formulating 
plans specifically designed to support the reintegration of our 
returning IRR Marines.
    Current reintegration activities include:
  --Tailored in-theater training for our unit leaders, focusing on 
        combat operational stress control (COSC) programs (the symptoms 
        and risks of untreated combat stress, how to recognize it, and 
        both in-theater and home base resources to assist in its 
        treatment).
  --A standardized ``Warrior Transition'' presentation is delivered to 
        each unit prior to leaving the theater of operations by the 
        unit chaplain or CREDO trained chaplains.
  --A standardized ``Return and Reunion for Marines'' presentation has 
        been developed for delivery in theater by Chaplains or other 
        qualified personnel. All Marines receive this brief before 
        returning home.
  --Upon arrival at the home location, Marines are made aware of the 
        supportive services available through the Chaplains, Marine 
        Corps Community Services (MCCS), Medical Treatment Facilities 
        (MTF's) and Military One Source.
  --To the maximum extent possible, Commanders are advised to allow 
        time (through half work days perhaps) for returning Marines to 
        ``decompress'' from their battlefield experience.
  --Upon arrival at the home location, a Command Safety brief takes 
        place prior to Marines being sent on liberty. This usually 
        includes aspects such as standards of conduct, safety, alcohol 
        and substance abuse, sexual harassment, suicide prevention, 
        stress and anger management, and financial management. Our 
        families also receive return and reunion information and 
        support to ensure successful homecomings.
  --Managed Health Network (MHN), one of the nation's leading mental 
        and substance abuse health care organizations, provides 
        counseling specialist(s) to individual units who are remotely 
        located and unable to access local services and/or to augment 
        local counseling providers. MHN is available to assist with 
        pre-deployment briefs, deployment issues and especially return 
        and reunion/reintegration issues.
  --Post deployment telephonic contact for IRR Marines from Managed 
        Health Network care providers at least once per month for three 
        months after return from deployment and periodically for the 
        following nine months.
  --IRR administrative screening musters at Marine Corps Reserve sites, 
        in large metropolitan areas and at Veterans' Administration 
        hospitals which tie Marines into local services and employers 
        as well as introduce them to VA and VA services.
    We envision educating our dispersed families not only through web 
based support but through partnering with other service programs such 
as CREDO and Strong Bonds. We see moving beyond educating our Marines 
and families, and are even now working to build stronger relationships 
with employers and educational institutions, to ensure that our Marines 
have support in all aspects of their reintegration.
    While the ``Yellow Ribbon Program'' is still in its infancy, we 
have provided a Reserve Marine representative to the Joint Deployment 
Support and Reintegration Program office and have worked with them 
already on our specific challenges and potential solutions. We 
coordinated most recently for the JDSRP office and the other Service 
Reserve Agencies, at the annual DOD IRR Conference.
                    recruiting and retention bonuses
    Question. General Bergman, to continue recruiting and retaining 
good people despite the high operational tempo, the Marine Corps 
Reserve has tripled bonuses this year from $5 to $15 million. The 
fiscal year 2009 budget requests only $5 million for bonuses. Do you 
believe that is sufficient to maintain your recruiting and retention 
efforts?
    Answer. The fiscal year 2009 incentive dollar figure of $3.6 
million was the original planning figure submitted during the budget 
programming process in the previous years. The fiscal year 2009 budget, 
like the fiscal year 2008 budget, will be adjusted to meet the Selected 
Marine Corps Reserve recruiting and retention requirements. The 
tentative dollar amount for fiscal year 2009 is $15 million, which we 
believe to be sufficient to maintain our recruiting and retention.
                      operational tempo and morale
    Question. How is high operational tempo affecting morale?
    Answer. One of the methods used to gauge the morale of the troops 
is to look at retention and reenlistment rates. Our reenlistment rates 
have held steady over the past few years, indicating Reserve Marines 
are showing a desire to continue their service even during this period 
of high operational tempo.
    Also, we have had over 200 Reserve Marines so far this fiscal year 
request to augment to active duty. Some of this is due to the fact that 
the active component has been authorized to grow to 202,000 and some 
new incentives have been introduced for augmentation. But also, we have 
seen a good number of Marines request to augment to active duty after 
demobilizing because they get a taste of the active duty lifestyle 
while activated and desire to stay active.
    The Marine Corps Reserve continues to recruit and retain quality 
men and women willing to manage commitments to their families, their 
communities and their civilian careers, and their Corps. In fiscal year 
2007, the Marine Corps Reserve achieved 100 percent of its recruiting 
goal for non-prior service recruiting (5,287) and exceeded its goal for 
prior service recruiting (3,575).
    One of the initiatives we have implemented to help prepare Marines 
to serve during periods of high operational tempo, is the Total Force 
Generation Model.
    The implementation of the integrated Total Force Generation Model 
lays out future activation, deployment and dwell schedules for Marine 
units. This predictability allows the individual Reserve Marine to 
strike a balance between family, civilian career and service to 
community as well as country and Corps by being able to confidently 
plan for the future.
                                 ______
                                 
           Questions Submitted to Vice Admiral John G. Cotton
            Questions Submitted by Senator Daniel K. Inouye
                             yellow ribbon
    Question. The Yellow Ribbon program is a reintegration program for 
Reservists returning from deployment. The program invites service 
members and their families to attend a weekend reintegration seminar at 
30, 60, and 90 days after returning from deployment. It was started as 
an Army Guard program in Minnesota and is currently operational in 
several states. The fiscal year 2008 authorization bill required the 
Department to establish a Yellow Ribbon program for each of the Reserve 
Components (RC). The program is being fully established, with OSD (RA) 
as the lead, to assimilate it with any existing reintegration programs. 
So far, the Army is the only service to require military personnel to 
attend reintegration training, for the other components it is either 
optional or is incorporated into normal weekend drill activities.
    Gentlemen, the Department is establishing a Yellow Ribbon 
reintegration program for all RCs. I know that many of the RCs have 
already been providing reintegration programs. What is your component 
doing to support the reintegration of Reservists returning from 
deployment and do you expect your program to change significantly with 
the introduction of the Yellow Ribbon program?
    Answer. Navy Deployment Support Programs were expanded to support 
Individual Augmentations (IAs) from both the RC and Active Component 
(AC), and they provide support through all phases of the Deployment 
Cycle.
    The primary reintegration event for returning mobilized personnel 
is the Returning Warrior Workshop (RWW), a weekend retreat in a non-
military setting designed to attract spouse participation. The 
participating Sailor and spouse are provided cost orders to attend, and 
it satisfies an RC Sailor's drill obligation. The RWW assists members 
and their families in identifying any immediate or potential issues, 
and provides access to resources to resolve those issues. A key element 
of the program is a dinner honoring the Sailors' service and 
recognizing family members' sacrifices. The desired timeframe to attend 
an RWW event is approximately four to six months after deployment. 
Events are held in a wide variety of geographic locations, enabling 
Sailors and their families to attend. Attendance is voluntary, but 
strongly encouraged.
    The RWW Program has requested and received additional funding, and 
it is undergoing a significant expansion in fiscal year 2008. The 
revised program will meet many of the additional requirements contained 
in the Yellow Ribbon Reintegration Program legislation.
                        reintegration activities
    Question. Admiral Cotton, General Bergman, and General Bradley, I 
have been told that currently reintegration training is only mandatory 
for the Army, have you considered requiring your service members to 
attend reintegration activities?
    Answer. The Returning Warrior Workshop (RWW), a weekend retreat in 
a non-military setting designed to attract spouse participation, 
remains the primary reintegration event for returning mobilized RC 
personnel. Events are held in a wide variety of geographic locations to 
make attendance easier for Sailors and their families. The attending 
Sailor and spouse are provided cost orders to attend, which also 
satisfies the Sailor's drill obligation. The RWW assists members and 
their families in identifying any immediate or potential issues, while 
also providing access to resources to resolve those issues. A key 
element of the program is a dinner honoring the Sailors' service and 
recognizing family members' sacrifices.
    Attendance at an RWW is currently voluntary, but strongly 
encouraged. The RWW Program has requested and received additional 
funding and is undergoing a significant expansion in fiscal year 2008. 
As part of that expansion, we are reviewing alternatives to making the 
program mandatory for Sailors deploying in excess of 180 days. The 
revised program will meet many of the additional requirements contained 
in the Yellow Ribbon Reintegration Program legislation.
                    navy reserve officer recruiting
    Question. Although the Navy Reserve achieved its overall recruiting 
goal in fiscal year 2007 after falling significantly short in fiscal 
year 2006, the Reserve still fell far short of its officer recruiting 
goal. The Navy Reserve fell short of its recruiting goal by 48 percent 
in fiscal year 2007 and 56 percent in fiscal year 2006. In fiscal year 
2008, the Reserve is on track to reach a reduced recruiting goal, 
scaled back to give the recruiting command a realistic target.
    Navy officials attribute the shortfalls to high mobilization rates 
in some Reserve communities and the demographic of officers. Officers 
tend to be older, more likely to be married, have children and have 
better career prospects than many enlisted sailors so those sailors who 
leave the active component, tired of frequent deployments, are unlikely 
to risk frequent Reserve mobilizations.
    In an effort to address the problem, the Navy Reserve increased the 
number of recruiters targeting officers and continues to offer more 
money for officer and medical officer bonuses. Last fall, the Reserve 
increased officer affiliation bonuses. For medical and dental officers 
serving critical wartime specialties, the accession bonus can be as 
much as $75,000 and a monthly stipend of $1,907 while studying in a 
medical residency program. The request for fiscal year 2009 requests 
$14.6 million total for officer bonuses, an increase of $3 million over 
fiscal year 2008 levels.
    Admiral Cotton, in fiscal year 2007, the Navy Reserve fell 48 
percent short of its recruiting goal of 2,000 officers and in fiscal 
year 2008 is recruiting to a reduced goal of 800. What measures are you 
taking to attract and retain more officers?
    Answer. In fiscal year 2007, Navy achieved 52 percent of its 
Reserve Officer recruiting goal. The goal for fiscal year 2008 was set 
at 1,200, as opposed to 800 as stated in the question. We have also 
established upper bands that exceed the goal in several programs to 
allow and encourage overshipping to a level of 2,148. Through the end 
of April, 84 percent of the recruiting goal has been either 
commissioned or selected awaiting commission.
    We are offering several monetary incentives to attract Officers to 
affiliate in the Navy Reserve: a $10,000 affiliation bonus for entry 
into 16 different designators; repayment (up to $50,000) of outstanding 
loans used to obtain certification in Critical Wartime Specialties in 
the Health Professions; special pay of $25,000 per year for Medical 
Corps, Dental Corps, and Nurse Anesthetists and $10,000 per year for 
Medical Service Corps and Nurse Corps; and a monthly stipend of $1,605 
(which will increase to $1,907 on July 1, 2008) for officers in a 
medical residency program or post baccalaureate education program in a 
Critical Wartime Specialty.
    A mobilization deferment was established as a non-monetary 
incentive to encourage Officers leaving active duty to affiliate with 
the Reserves. Those who affiliate within six months of transitioning 
from the Active Component qualify for a two-year deferment from 
involuntary mobilization and those who affiliate within twelve months 
are eligible for a one-year deferment.
    We are making a concerted effort through advertising and other 
initiatives to reach out to Officers before they separate from active 
duty to inform them of opportunities in the Navy Reserve. Initiatives 
include increased advertising on Navy bases and in military newspapers, 
targeted direct mail, and e-mail to the members as well as their 
spouses. We have also encouraged Commanding Officers through the ``Stay 
Navy'' NAVADMIN to regularly discuss Reserve opportunities with their 
wardrooms.
    To ensure continued future success, we have programmed an increase 
in Reserve Officer Recruiters in the field beginning in fiscal year 
2009.
    To improve retention among Selected Reserve officers, we are 
currently conducting analysis to determine which designators may 
benefit from application of a critical skills retention bonus. To 
assist in the retention of skilled medical officers and to encourage 
medical officers to acquire critical wartime subspecialties, 
eligibility for the Medical Special Pay, Loan Repayment, and Stipend 
incentives have been expanded to include current Selected Reservists 
accepted into a residency program.
                     navy reserve officer shortage
    Question. Admiral Cotton, how is the shortage of officers, 
particularly in critical specialties, affecting the readiness of the 
Naval Reserve?
    Answer. For clarification of the first preamble paragraph, the 
following is offered: The Navy fell short of its Reserve Officer 
recruiting goal by 48 percent in fiscal year 2007 and 56 percent in 
fiscal year 2006. In fiscal year 2008, the Navy is on track to reach a 
reduced Reserve Officer recruiting goal to meet end strength 
requirements.
    On a percentage basis, the top three specialties mobilized to date 
are Civil Engineers, Supply Corps, and SEALs. Although inventory is 
below requirements in these communities, the Navy Reserve is able to 
meet current mobilization requirements in all of these specialties, 
therefore maintaining required readiness.
    We are encouraged by the success of this year's recruiting efforts. 
Through April, we are exceeding last year's attainment in all three 
specialties, in both real numbers and percentage of goal attained. To 
support affiliation, Officers in these specialties receive the maximum 
Reserve affiliation bonuses allowed by law, and Veterans transitioning 
from Active Component to Reserve Component within six months after 
their end of obligated active service are provided a two-year deferment 
from mobilization to allow establishment of their civilian careers. A 
retention bonus will be funded for RC Officers as resources are 
available. The retention bonus will target Junior Officers in 
specialties that are determined to be limited supply/high demand by 
Officer Community Managers.
                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, 
            NATIONAL GUARD BUREAU
    Senator Stevens. We are now going to move on to the next 
panel. We do thank you for your service. Again, the three of 
you are retiring as young men. I have recognized that. You 
should follow the advice of my first father-in-law who said 
only in the English language does the word ``retire'' mean 
other than go to bed. So I expect you to have full careers 
after you leave this job. We might even welcome you up here. 
You ought to think about it.
    Thank you very much.
    We will now ask General Blum, General Vaughn, and General 
McKinley to come forward to testify concerning the National 
Guard Bureau.
    Thank you very much. We will now to turn to panel two. Our 
witnesses are Lieutenant General H Steven Blum, Chief of the 
National Guard Bureau, and Lieutenant General Clyde A. Vaughn, 
the Army National Guard Director, and Lieutenant General Craig 
R. McKinley, the Director of the Air National Guard.
    Gentlemen, as we indicated, your statements will be 
included in the record in full. We appreciate if you would make 
your statements or whatever presentations you wish to make to 
the subcommittee. We will first call on General Blum.
    General Blum. Ranking Member Stevens and distinguished 
members of the subcommittee, it is an honor and privilege to be 
before you here today with my two colleagues, General McKinley 
and General Vaughn, my right hand and left hand when it comes 
to the Army and the Air Guard. The leadership of the National 
Guard Bureau is here today, and we brought our senior enlisted 
leaders to talk to you about the readiness of your National 
Guard and answer any concerns or questions you might have.
    At this time, I would ask General Vaughn to introduce his 
senior enlisted advisor and a guest, please.
    Senator Stevens. General.
STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, ARMY NATIONAL GUARD
ACCOMPANIED BY SERGEANT MAJOR JOHN GIPE, ARMY NATIONAL GUARD

    General Vaughn. Senator Stevens, distinguished members, 
thank you very much. It is quite an honor to be here.
    We have an enormously strong Army National Guard. We 
appreciate everything that this subcommittee has done. We just 
could not have come close and stayed here and be in the 
position we are at today. A couple years ago, it was an 
entirely different story. And we have a lot to appreciate from 
this subcommittee.
    I would like to introduce the command sergeant major of the 
Army National Guard, all 358,000 of them. Sergeant Major John 
Gipe.
    Sergeant Gipe. Thank you, sir. Mr. Chairman, it is my 
distinct honor here today to introduce two outstanding young 
Americans from Ames, Iowa, Specialist Jay Winkowski and his 
wife of 9 months, Lisa. Specialist Winkowski mobilized with the 
Iowa Army National Guard in October 2005 with Charlie Company, 
1st Battalion, 133rd Infantry for a deployment to Iraq. They 
arrived in Iraq in March 2006 at Al Asad Air Base in Al Anbar 
Province where he served for 16 months.
    Specialist Winkowski's duties while he was deployed was as 
the battalion commander's driver and communications specialist. 
While deployed, he was honored with being named the battalion 
soldier of the quarter and the soldier of the quarter for Al 
Asad Air Base. He also earned the combat infantryman's badge 
for direct combat action against the enemy.
    When he returned home in August 2007, after being deployed 
for 22 months, he attended the warrior leaders course where he 
graduated as a distinguished graduate.
    It is a great honor to introduce these two fine, 
outstanding young Americans to you. Thank you, sir.
    Senator Stevens. We welcome you and your new bride. Thank 
you.
    General Blum. Similarly, I would like General McKinley to 
have the same opportunity on the Air Guard side.
STATEMENT OF LIEUTENANT GENERAL CRAIG R. McKINLEY, 
            DIRECTOR, AIR NATIONAL GUARD
    General McKinley. Thanks, General Blum.
    It is a pleasure, Senator Stevens, to be with you and your 
subcommittee today representing the great men and women who 
make up the Air National Guard. It is also, indeed a privilege 
for me to introduce my command chief master sergeant. Chief 
Smith from Ohio has served the Air National Guard as its senior 
enlisted advisor for the past 4 years, and he will retire at 
the end of this year. It has been a great honor and privilege 
for me to serve with Chief Smith, and I would like him to stand 
and introduce our special guest.
    Chief Smith. Thank you, sir.
    Mr. Chairman and subcommittee, I would like to introduce to 
you Senior Master Sergeant Donna Goodno. She is from San Diego, 
California. She is a mission support flight superintendent at 
the 147th Combat Communications Squadron in San Diego, 
California. She has three deployments to Iraq, to her credit, 
many great accomplishments that I will not go into while she 
deployed. But because of those accomplishments on her 
deployments, she has recently been selected and named as the 
outstanding senior non-commissioned officer for the entire Air 
National Guard. So it is my honor and pleasure to present to 
you our great American, Senior Master Sergeant Donna Goodno.
    General Blum. If I could, let me add because I think you 
understate her capabilities. When all of the general officers 
could not find their way to get an instrument landing system 
into Kabul, Afghanistan, she found one. When we deployed her to 
Iraq, she immediately identified a systemic problem in the 
communications security that had been missed by everybody that 
had been over there, and she got it corrected very quietly and 
quickly. She is outstanding in every measurable way.
    Donna, we are proud of you.
    Senator Stevens. Sergeant Major, we congratulate and thank 
you for your service.
    General Blum. Senator Stevens, members of the subcommittee, 
when it comes to readiness of your National Guard, it is all 
about having three things. This subcommittee knows it well. You 
have to have people. You have to have the part-time people that 
you need, the citizen soldiers and airmen, but you heard our 
reserve counterparts tell you say that you must have the full-
time cadre to make it work.
    And the reason the Air National Guard works and the reason 
the Air Force Reserve works so well is that they have that 
cadre. They were used as an operational reserve starting 30 
years ago. Their readiness is superb. They can go out the door 
in 72 hours any place on the planet. We need to follow that 
same kind of model now that we are asking General Vaughn and 
the Army Guard to have basically that same kind of readiness 
standard to meet.

                               PERSONNEL

    Full-time manning is a big issue and part-time manning, 
having enough soldiers and enough airmen in the ranks that are 
fully trained and enough airmen and soldiers over strength so 
that your training pipeline does not count against you for 
readiness, in other words, so that everybody in the unit is 
fully trained and ready and those that need to go to school are 
held in school account over and above what your unit 
requirement is what we need.

                               EQUIPMENT

    Second, you need equipment. Everybody in this subcommittee 
knows about that, and thank God for the National Guard and 
Reserve equipment account because of that and because of the 
staunch support of Congress and the interest of Congress and 
now the commitment, serious commitment, on the part of the 
Secretary of Defense and the service secretaries and the chiefs 
of staff of the Army and the Air Force, every single day our 
equipment condition improves. And so the status that I 
presented to you last year is much better today than it was 
last year, and next year it will even be better
    Again, that is because of your continued support for the 
National Guard and Reserve equipment account. When that money 
is authorized and appropriated, we are able to place those 
dollars exactly against buying readiness, nothing but 
readiness. And that readiness is to be able to respond in the 
ZIP code right where your constituents live and raise their 
families. So that is very important.

                                TRAINING

    The third thing is training. We must have the resources to 
train the force so that we do not have to waste time, when 
these forces are separated from their families and from their 
businesses, to get training they should have received before 
they were called up for the service of this Nation.

                           PREPARED STATEMENT

    So with that, Mr. Chairman and members of the subcommittee, 
we await your questions.
    [The statement follows:]
         Prepared Statement of Lieutenant General H Steven Blum
                  introduction and executive overview
     lieutenant general h steven blum, chief, national guard bureau
    In the 371-year history of our National Guard, the year 2007 will 
no doubt be remembered as one of historic proportions. We are members 
of a National Guard in the midst of significant evolution.
    We have become an operational force, fighting side by side with our 
active duty partners, working hard to win the long war against 
terrorism that began some six and half years ago. While we are an 
essential force multiplier in the overseas warfight, we also remain 
focused on and connected to our constitutional roots as the organized 
militia of the states, prepared to rapidly respond domestically under 
the command of our nation's Governors whenever and wherever we are 
needed in the 54 states and territories.
    The President, Congress, the Secretary of Defense, the Secretaries 
of the Army and Air Force, the Governors and the Adjutants General all 
agree: The country needs a National Guard that is manned, resourced, 
ready, and structured to meet the security challenges of the 21st 
century.
                               resources
    Our greatest resources are our Citizen-Soldiers and Airmen. Today, 
these brave men and women are the most professional, most experienced, 
most capable, and most relied upon that our National Guard has ever had 
in its ranks. Hundreds of thousands of our Soldiers and Airmen have 
deployed to the warfight--many more than once. At one point in this 
war, National Guard members made up about half of the ground combat 
forces in Iraq.
    Even in the face of increased deployments, shorter dwell times, and 
extended separations from families and civilian employers, we are 
retaining members of the National Guard at extraordinary rates. Our 
recruiting numbers are equally impressive. Right now, the Army and Air 
National Guard are contributing to the overseas warfight in staggering 
numbers approaching 513,500 (309,786 Army and 203,700 Air) 
mobilizations as of December 31, 2007.
    Parallel to our support of the overseas warfight is our support of 
the nation's Governors as the first military responders to incidents 
and disasters, whether natural or man-made. Each day, an average of 17 
Governors call on their National Guard for everything from weather 
related assistance to suspected anthrax contamination. The National 
Guard does all of this while remaining an all-volunteer force.
    These young men and women who have volunteered to serve are a 
testament to what it means to answer the call to something bigger than 
ourselves. We must continue to work hard to recruit and retain them; 
they are the future of the National Guard and the future of America.
                               readiness
    When looking at the readiness levels of the National Guard, it is 
important to consider two of the core elements of readiness: equipment 
and personnel.
Equipment
    Our objective for the Army and Air National Guard is to have modern 
equipment on a par with that of the Title 10 forces. Make no mistake--
our deploying Citizen-Soldiers and Airmen have the equipment they need 
to deploy overseas, and it is the same equipment our active duty 
Soldiers and Airmen take with them to the warfight.
    However, over a period of years, the domestic levels of equipment 
available to Governors have fallen to unacceptable levels. For example, 
in 2006, the Army National Guard had about 40 percent of its equipment 
available domestically. As of September 30, 2007, that number is about 
61 percent. By the end of 2009, it will be close to 70 percent; and by 
2013, it will be 77 percent. This is just one illustration of the 
unprecedented support and commitment Congress and the Department of 
Defense has given this issue.
    While the Air National Guard has most of its required equipment, 
the primary challenge is modernizing the aging fleet. Continuing Air 
Force and Congressional support will be important as we move to meet 
the Air National Guard equipment challenges ahead. Last year, Congress 
appropriated an additional $800 million for the National Guard and 
Reserve Equipment Account. This support is critical to the National 
Guard Soldiers and Airmen--who are serving a nation at war.
Personnel
    Equally essential to our readiness is having the people necessary 
to accomplish our missions, and America's National Guard needs more 
people. The President's fiscal year 2009 budget asks Congress to 
increase the Army National Guard's end-strength authorization from 
351,300 to 352,600. That request also seeks additional full-time 
support.
    Most of our National Guard Soldiers and Airmen have full-time 
civilian careers and devote a minimum of 39 days each year to military 
training. A far smaller number of full-time active National Guard and 
Reserve technicians are integral to the readiness of the part-time 
force. They perform the administrative, maintenance, readiness and 
training preparation essential to ensuring productive time spent by the 
part-time force as they participate in weekend drills and annual 
training.
                               structure
    On January 28, 2008, the President signed into law the National 
Defense Authorization Act (NDAA) of 2008. This law contains the most 
significant and sweeping reforms in the administration and organization 
of the National Guard Bureau, and indeed the National Guard itself, 
since the National Defense Act of 1916.
    Of significance, the 2008 NDAA designates the Chief of the National 
Guard Bureau as the principal advisor to the Secretary of Defense, 
through the Chairman of the Joint Chiefs of Staff, on matters involving 
non-federalized National Guard forces, and on other matters as 
determined by the Secretary of Defense. The Chief of the National Guard 
Bureau will continue to serve as principal advisor to the Secretaries 
and Chiefs of Staff of the Army and Air Force on the essential role of 
the National Guard as a reserve component of each of these services. 
The law also designates the National Guard Bureau as a joint activity 
of the Department of Defense.
    These and other reforms contained in the 2008 NDAA serve to 
strengthen the role of the National Guard within the Department of 
Defense to meet our growing responsibilities, at home and abroad.
                       state partnership program
    The National Guard's State Partnership Program, establishes 
partnerships between foreign countries and American states and is an 
important contribution to the Department of Defense's security 
cooperation programs conducted by the Combatant Commanders.
    This program was created in 1993 to assist the United States 
European Command's engagement with defense and military establishments 
of former Warsaw Pact nations after the fall of the Berlin Wall. The 
State Partnership Program fosters long-term, mutually beneficial and 
enduring relationships between states and America's friends and allies 
around the globe. National Guard Soldiers and Airmen apply both 
military and civilian skills to support defense reform and military 
transformation, promote democracy, encourage economic development, and 
further regional cooperation and stability.
    The State Partnership Program currently has 58 state partnerships 
throughout the world focused on military-to-military, military-to-
civilian and civil security exchanges with United States security 
partner nations. This high value program will continue to grow in both 
numbers of partner nations and strategic importance to the Combatant 
Commanders.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               the future
    The National Guard remains focused on operational readiness to 
answer the calls of our Governors and the President in doing our part 
to secure America's future. As the nation and our world change, the 
impacts on our force will be significant. The warfight overseas and our 
response to crises here at home are but two important areas of our 
reach. We will continue to invest in our family programs, our youth-
based programs such as ChalleNGe, our counterdrug programs and many 
others.
    As Assistant Secretary of Defense for Reserve Affairs Thomas Hall 
recently noted, ``Today's National Guard members are the continuation 
of the Minuteman spirit that defended our citizens and way of life. 
National Guard members have earned the respect of their fellow 
Americans by performing above and beyond the call of duty.''
    With the 2008 NDAA, Congress gave the National Guard new 
responsibilities and clarified roles. This unity of effort will 
continue to solidify our foundation for the next 371 years of National 
Guard excellence. We will remain ``Always Ready, Always There.''
    The following is a full report on our recent accomplishments and an 
explanation of our requirements for fiscal year 2009.
 lieutenant general clyde a. vaughn, vice chief, national guard bureau 
                   and director, army national guard
                       message from the director
    The Army National Guard (ARNG) continued to step up to new 
challenges as well as confront the ongoing realities of persistent 
global conflict. As fast as units returned home from Iraq and 
Afghanistan, new ones were mobilized, trained and deployed overseas--
some for their second or third such deployments.
    The Army National Guard also defends American borders. Under 
Presidential mandate, Operation Jump Start continued along our nation's 
southwest border. There we worked with U.S. Customs and Border 
Protection to stop illegal immigrants and drug traffickers. Army 
National Guard Soldiers responded to the numerous natural disasters and 
emergencies created by blizzards, floods, tornadoes, hurricanes and 
wildfires.
    In addition to the above accomplishments, we continued our 
transformation to a modular design. Doing so allows the Army National 
Guard to remain an important force in the nation's emergency 
preparedness network with missions both at home and abroad.
    We had an admirable track record of successes in 2007. In 
particular, our continued achievements in recruiting and retention have 
been commendable. Our recruiting and retention efforts are keeping our 
organization strong, and are handing the future of our force to a new 
generation of determined and capable leaders.
    The Army National Guard understands the human price of freedom and 
national security. By maintaining and improving the Army National 
Guard's full potential, we honor the Soldiers who have paid the 
ultimate price. We have redoubled our efforts to provide our units with 
equipment needed to replace that left behind from overseas deployments, 
and lost due to damage or end of serviceable use. With the aid of 
Congressional funding and a new Memorandum of Understanding with the 
Army, we have made considerable headway in rebalancing, resetting and 
re-equipping our force for the future.
    In January 2007, the Secretary of Defense directed that Army 
National Guard units be scheduled for mobilizations of no more than 12 
months. To maximize the availability of National Guard troops to 
Combatant Commanders, we must maximize and certify home state 
(regional) pre-mobilization training.
    The Army Chief of Staff has directed that the Adjutants General 
have certification authority. This will reduce training time away from 
the home state or territory and increase ``boots on the ground'' time. 
We look forward to the full implementation of the Army Chief of Staff's 
policy.
    The following pages summarize the Army National Guard's key 
programs and operations during fiscal year 2007, highlighting 
organizational and transformational changes and outlining requirements 
and goals for the future.
                               readiness
    The U.S. Army uses Army National Guard units as an operational 
force. Units mobilized and deployed for support during the era of 
persistent conflict have maintained high levels of readiness. High 
readiness levels translate to successful missions.
    With lower-than-historical averages of equipment availability, 
increased mobilizations and deployments, and heavy personnel demands 
continued in fiscal year 2007. Despite these difficulties, the Army 
National Guard met all mission requirements and continued to support 
military actions abroad.
    Our ability to respond reflects the value of the National Guard. 
Since September 11, 2001, the Army National Guard has deployed Soldiers 
as follows:

         ARMY NATIONAL GUARD--A TRADITION OF SERVICE TO AMERICA
------------------------------------------------------------------------
                                             Title 10      Title 10 and
                                              Orders         Title 32
------------------------------------------------------------------------
Total ARNG Mobilized Since 9/11.........         309,786         401,840
                                         -------------------------------
Operation or Event                          Service in     Serivce since
                                               2007          9/11/2001
                                         -------------------------------
Operation Iraqi Freedom.................          34,947         172,988
Operation Enduring Freedom (Afghanistan)           5,951          24,109
Operaion Noble Eagle....................             164          35,327
------------------------------------------------------------------------

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                          
Full-Time Support
    Full-time support personnel are vital to the full spectrum of Army 
National Guard operations. Meeting readiness needs, especially in an 
era of persistent conflict, underscores the vital role of our full-time 
support personnel.
    Our previously validated Army National Guard full-time support 
requirement is 84,800 (Technician: 42,329, active Guard Reserve: 
42,471). These authorizations are based on the perception of the Army 
National Guard as a strategic reserve. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Transformation through Modular Force Conversion and Rebalancing
    As part of the Army's continuing modular conversion, the Army 
National Guard is restructuring to create forces that are more 
independent and interchangeable (modular). Brigade Combat Teams are 
structured and manned identically to those in the active Army. Because 
of this, they can be combined with other Brigade Combat Teams or 
elements of the joint force, facilitating integration and 
compatibility.
    The Army National Guard has transformed over 1,500 operating force 
units to these new designs. An operating force represents units 
specifically organized to engage in combat and provide service support. 
At the current pace, the Army National Guard will successfully convert 
more than 1,300 additional units to the new modular designs by the end 
of fiscal year 2008.
    DID YOU KNOW?
    The Army is transforming (through Modular Force Conversion) from a 
division-centric force (18,000 Soldiers) to a more flexible brigade-
centric force (4,000 Soldiers) and is restructuring its organizations 
to create forces that are more stand-alone and alike (modular) while 
enhancing their full-spectrum capabilities.
    The Army National Guard's transformation into modular formations 
gives us the ability to function as an interchangeable operational 
force. This effort impacts Army National Guard units across all 54 
states and territories.
Lower-Than-Historical Levels of Available Equipment Affects Rebalancing
    The rebalancing plan also ensures that Army National Guard units--
many under-equipped after leaving deployed equipment behind for follow-
on units--receive replacements equal to their active duty counterparts. 
While the Army National Guard continues to receive more National Guard 
and Reserve Equipment Appropriation funding, equipping levels are still 
lower than historical levels because of transformation and persistent 
conflict requirements. The average non-deployed unit has about 61 
percent of authorized equipment needed to conduct training, handle 
future deployments and respond to domestic missions.
    By subtracting unacceptable/non-deployable substitute items, the 
equipment available falls to an even lower level. The fiscal year 2009 
budget will increase equipment funding levels, increasing the amount of 
equipment on hand available to National Guard units. Despite these 
equipment challenges, the Army National Guard stands ready to respond 
to any federal or state mission.
Dual Mission Operations
    The Army continues to work with National Guard leaders to refine 
requirements for critical dual-use equipment (equipment usable both in 
wartime and in domestic operations) and to ensure that the states and 
territories have sufficient resources during a catastrophe. This 
collaborative effort has successfully garnered Congressional support to 
better equip and modernize the Army National Guard for critical federal 
and state capabilities.
Domestic Operations
    In May 2007, a severe tornado leveled the Kansas town of 
Greensburg, leaving in its wake 10 fatalities, more than 100 injuries 
and a swath of incredible destruction. The Kansas Army National Guard 
was at the ready. The Kansas Guard's 278th Sustainment Brigade 
established a joint task force near the site; the Army National Guard 
deployed an additional 366 Soldiers; and the Air National Guard 
provided 200 Airmen. The National Guard established shelters, 
distributed food and water, and supported first responders with search 
and rescue, power generation, logistical support, debris removal and 
law enforcement assistance.
    In August, the I-35W bridge in Minneapolis collapsed, claiming 13 
lives. It was the worst independent structural disaster since a 1983 
failure on Interstate 95 in Connecticut. A local network of first 
responders was on the scene quickly to work the rescue and recovery 
effort, including the Minnesota Army National Guard.
    That same month, Texas prepared for Tropical Storm Erin, which made 
landfall on August 16 near Lamar, Texas. Erin dropped 3 to 6 inches of 
rain before moving northward, resulting in emergency declarations for 
70 counties, some with up to 10 inches of rain. At least 17 fatalities 
were attributed to the storm, and an already severe flooding problem in 
the state was exacerbated. At the height of the emergency, 151 Texas 
Army National Guard Soldiers worked to help the communities recover.
End-strength: Recruiting and Retention
    The Army National Guard is authorized by law to have a limit of 
351,300 Soldiers. Due to a multiple-program team approach, fiscal year 
2007 was a strong year for recruitment and retention. By March 31, 
2007, the Army National Guard exceeded the 350,000-Soldier goal for 
first time since May 2004. By December 31, 2007, the Army National 
Guard strength stood at 353,979 Soldiers.
    Several innovative programs, Soldier incentives and command 
emphasis helped the Army National Guard successfully achieve and 
maintain Congressionally-authorized end-strength levels. They include:
            Active First Program
    Launched October 1, 2007, and set to run through 2013, Active First 
is a pilot program under evaluation by the Army National Guard. The 
program applies to people with no prior military service. Recruits join 
the National Guard and agree to serve in the active Army first. After 
completing an active duty tour, a Soldier can either re-enlist in the 
active Army or revert back to the National Guard to complete his or her 
military obligation.
    The Active First program increases bonus maximums to $20,000 for 
enlistments, $15,000 for re-enlistments and $15,000 for prior service 
enlistments. The National Guard also raised retention bonuses from 
$5,000 to $15,000.
            Guard Recruiting Assistance Program (G-RAP)
    G-RAP is a recruiting program that employs civilian assistants to 
provide recruiting services. As of December 31, 2007, the Army National 
Guard had approximately 123,000 active recruiting assistants--one of 
whom has single-handedly recruited 49 Soldiers (and counting).
            Every Soldier a Recruiter
    Every Soldier a Recruiter is a referral bonus program established 
by the Army to motivate every Soldier to be a recruiter. Launched in 
January 2006, the program has helped bring nearly 3,700 new Soldiers 
into the Army National Guard.
    Continued success in boosting prospect numbers by offering the 
potential for increased monetary compensation could lead to reductions 
elsewhere, such as recruitment advertising on radio and television. 
Only Soldiers assigned specific recruiting and retention positions are 
excluded from participation in the program.
            Army National Guard Recruit Sustainment Program
    The Army National Guard Recruit Sustainment Program is a formal 
process for transitioning new non-prior military service enlistees into 
the life of an Army National Guard Soldier. The Recruit Sustainment 
Program prepares recruits by endowing them with the physical and mental 
abilities to withstand the rigors of basic training and Advanced 
Individual Training. By doing so, the program works to reduce training 
pipeline losses.
    Since instituting the Recruit Sustainment Program, the Army 
National Guard has reduced training pipeline losses by more than 10 
percent with the rate of graduation from this program exceeding 95 
percent. Long-term prospects of keeping new accessions on duty after 
the first year are also showing improvements with gains leading over 
losses by 88 percent.
Logistics--Depot Maintenance
    The Army National Guard Depot Maintenance Program played an 
integral part of sustainment activities during fiscal year 2007. Unlike 
the active Army, which uses a loaner system, the Army National Guard's 
program is based on a ``repair and return to user'' premise. 
Additionally, program funding must stretch beyond repair work to cover 
testing, measurement and diagnostic equipment calibration.
    Funding for the Army National Guard's surface depot maintenance 
requirement was increased by six percent in fiscal year 2007. During 
fiscal year 2007, the Army National Guard Depot Maintenance Program 
funded the overhaul of 2,276 tactical vehicles.
                                training
WAATS (aka ``Gunfighter U'')
    The Western Army National Guard Aviation Training Site (WAATS) 
gives Army Aviation Soldiers the skills to defend our nation. Its 
mission is to conduct training in support of Army aviation readiness.
    Also known as ``Gunfighter University,'' it provides the Army 
National Guard and active Army counterparts the flexibility to train 
attack helicopter units to meet mobilization requirements. With 
realistic training opportunities in desert, mountainous and urban 
operations, the school is a premier attack helicopter training site. It 
provides skills training in all areas necessary to sustain the AH-64 
Apache Attack helicopters, and their maintenance technicians and 
aircrews.
    In 2007, WAATS supported a significant student load playing a 
critical role in the Army's Aviation Transformation plan as active and 
Army National Guard attack battalions transition to the AH-64D Longbow.
Ground Operating Tempo
    Collective maneuver training is the foundation of unit readiness 
and depends primarily on ground operating tempo (OPTEMPO) funding. 
These funds cover operation and maintenance of authorized equipment and 
training, administration, and housekeeping supplies for all units in 
the Army National Guard. Funding for OPTEMPO impacts Army National 
Guard unit readiness in operations such as Iraq and Afghanistan, 
southwest border security and domestic preparedness.
    In fiscal year 2007, Ground OPTEMPO funding totaled $723 million. 
Significant equipment remains in theater even after a National Guard 
unit's return from deployments. Equipment shortages at home stations 
compel greater use of what is available. These demanding conditions 
accelerate wear and tear resulting in rapid ``aging'' of equipment.
    Maintaining leadership, management oversight and support of the 
ground OPTEMPO program is one of the keystones to maintaining readiness 
of equipment on hand.
                        supporting our soldiers
Medical Readiness
    The Army's community-based health care organizations provide the 
best medical care for Soldiers in the Medical Holdover Program and 
augment medical treatment facilities. This program allows a 
recuperating Soldier to remain at home on active duty during recovery.
    Program highlights include:
  --Manned primarily by mobilized Army National Guard Soldiers;
  --Oversees more than 1,000 Soldiers;
  --Soldier well-being managed by community-based health care 
        organizations;
  --Case managers coordinate health care appointments, track the 
        Soldier's progress and ensure that care is up to standards; and
  --Medical care is focused on returning Soldiers to their pre-
        mobilization health status.
    The Army National Guard has mobilized 11 state and territorial 
medical detachments to staff newly created community-based health care 
organizations. They are: Alabama, Alaska, Arkansas, California, 
Florida, Hawaii, Massachusetts, Puerto Rico, Utah, Virginia and 
Wisconsin. Plans are developing to open additional state medical 
detachments as needed.
Incapacitation Pay
    In March 2007, the Army National Guard started testing the 
Incapacitation Pay software scheduled for release in fiscal year 2008. 
The goal of this paperless process is to legally compensate Soldiers 
who are unable to perform military duties and who demonstrate a loss in 
civilian-earned income resulting from an injury, illness or disease 
incurred or aggravated in the line of duty.
    The incapacitation pay program allows Soldiers to focus on their 
families, concentrate on rehabilitation and work towards a speedier 
recovery without the hardships of income loss.
Family Readiness Programs
    The National Guard Joint Forces Headquarters within each state, 
territory and the District of Columbia coordinates family assistance 
for all military dependents within each respective location.
    Recent accomplishments and activities that help Army National Guard 
families include:
  --The National Guard Bureau Family Program Office which provides 
        training to families to help make them self-reliant throughout 
        the deployment cycle process.
  --The Army Families Online website which provides information of 
        interest to families of National Guard Soldiers 
        www.armyfamiliesonline.org.
  --The Department of Defense (DOD) Military OneSource program which 
        provides benefits to all military families (for example, 
        counseling services, resources for parents, assistance with 
        consumer credit, and free access to online tax return 
        preparation).
  --The DOD Military HOMEFRONT web portal which provides information 
        about Quality of Life programs and services such as childcare, 
        elder care, and programs for resolving domestic abuse or 
        domestic violence problems www.militaryhomefront.dod.mil.
    Family readiness is not an option; it is an essential part of our 
mission.
Family Assistance Centers
    As part of our commitment to those who remain behind when our 
Soldiers deploy, 325 Family Assistance Centers are strategically placed 
in every state and territory to overcome the geographic dispersion of 
Army National Guard families from centralized, installation-based 
service providers. Each Family Assistance Center is staffed monthly 
with military and civilian personnel, members of the Recruiting and 
Retention force, Soldiers on active duty special work orders, contract 
personnel, temporary technicians, state employees and volunteers.
    The continued operation of the Family Assistance Centers in fiscal 
year 2008 is necessary to support services for families' long-term 
welfare during an era of persistent conflict.
Freedom Salute Campaign
    The Freedom Salute Campaign, one of the largest Army National Guard 
recognition endeavors in history, is designed to publicly acknowledge 
Army National Guard Soldiers and those who have supported them in 
service to our nation. So far, the campaign has recognized more than 
100,000 deserving Soldiers, family members, friends, employers, and 
other important persons for their contributions since the terrorist 
attacks on September 11, 2001.
   lieutenant general craig r. mc kinley, vice chief, national guard 
                bureau and director, air national guard
                       message from the director
    Since before the birth of manned flight, Airmen have embarked on 
proving the validity of mastering the third dimension of warfare. Our 
Air Force is the proven leader in this era of air dominance--an 
advantage no other nation on earth has ever matched. However, now is 
not the time for complacency.
    We can't predict what challenges are on the horizon. What we know, 
however, is that the speed of advances in technology is eroding and 
encroaching on our technological advantage. We must remain vigilant and 
prepared to counteract this dangerous erosion.
    We support civil authorities in protecting life and property 
through rapid response airlift, supplementing search and rescue, 
assisting aerial fire fighting, providing wide-area situational 
awareness, and airdropping food and supplies to those isolated by 
floods or blizzards. We also provide support capabilities to primary 
airpower missions such as medical triage and aerial evacuation, civil 
engineering, security force augmentation, infrastructure protection and 
HAZMAT response.
    Ninety-four Air National Guard units provide security at home-
station and deployed locations through law enforcement patrols, 
integrated base defense and antiterrorism/force protection initiatives. 
Security Forces professionals also provide nuclear security, 
information security, combat training, combat arms training and 
maintenance services. Every day, more than 6,000 Air National Guard 
members stand watch, patrolling the skies and assisting civil 
authorities protecting U.S. borders.
    At the same time, approximately 7,000 Airmen are deployed around 
the world fighting terrorism in Southwest Asia and Africa, and 
supporting joint and coalition forces through their airlift, air 
refueling, intelligence, surveillance and reconnaissance capabilities.
    Whether fighting overseas, protecting the homeland, or responding 
to hurricanes, fires and tornadoes, Air National Guard members continue 
to play an integral part in disaster response in communities throughout 
America and abroad.
    In 2007, throughout the world, the Air National Guard:
  --Supported 34,554 activations (31,922 voluntary and 2,632 
        involuntary).
  --Deployed 29,524 (26,920 voluntary and 2,604 involuntary).
  --Deployed service members to dozens of countries on every continent, 
        including Antarctica.
  --Participated in missions in Iraq, Afghanistan and Bosnia; 
        humanitarian airlifts to Southeast Asia and Africa; drug 
        interdiction in Latin and South America; exercises in Europe 
        and Japan; and many other missions.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    The Air National Guard is forward thinking. We adapt to ensure we 
have the capability to meet the needs of our nation. In the past year, 
the Air National Guard expanded into new capabilities including 
unmanned aerial systems (MQ-1 Predator and RQ-4 Global Hawk), 
intelligence collection and exploitation (DCGS Sentinel), space 
operations support and cyberspace. Air National Guard members have 
adapted their traditional community-based organizations to associate 
more closely with both active duty and other reserve components. New 
organizational structures are designed to capitalize on the Air 
National Guard's competitive advantage of cost effectiveness and our 
core competency of experience.
    A crucial part of the American military, the Air National Guard 
remains vigilant and prepared. The Air National Guard of the 21st 
century stands as a sleek, efficient and dedicated part of our nation's 
defense.
                homeland defense and domestic operations
Securing the Home Front While Defending the Nation
    In every natural disaster occurring in the United States, the Air 
National Guard provides critical air capabilities to the states. 
Airpower is crucial for protection against unknown eventualities 
including national emergencies. As a nation, we cannot afford to assume 
otherwise.
    Since September 11, 2001, thousands of Air National Guard personnel 
have provided complete air sovereignty across the United States. We 
provide 95 percent of our nation's fighter interceptor aircraft, 85 
percent of the aerial refueling capability, and 100 percent of the air 
defense command and control system. Maximizing the traditional basing 
locations, capitalizing on high experience levels and leveraging a long 
professional history in Air Defense operations, the Air National Guard 
continues to serve as the backbone of this vital mission for the near 
future.
    In early 2007, the Air National Guard provided disaster relief 
during a Colorado snowstorm and a Kansas tornado. Since October 1, 
2007, our Modular Airborne Fire Fighting systems have spread 132,479 
gallons of retardant on wildfires. Air National Guard pararescue and 
special tactics units, highly experienced, reliable and ready forces, 
are not only deployed in combat missions but also serve in homeland 
defense/disaster relief contingencies. Air National Guard squadrons are 
deployed in combat; they secure public safety against missile launches; 
provide rescue coverage for the space shuttle if necessary; and provide 
full-time search and rescue coverage for Alaska.
    Through its counterdrug operations, the Air National Guard provides 
specialized airborne resources critical in the effort to stem the flow 
of drugs and associated violence crossing our borders. Moreover, as a 
strong component of the President's Operation Jump Start and other 
missions, the Air National Guard helps keep America's borders secure.
    Since July of 2006, Operation Jump Start Air Guard has:
  --Flown 984 border sorties (13,922 passengers).
  --Airlifted 1,193 tons of materials and supplies.
    In 2007 alone, the Air National Guard supported Operation Jump 
Start by:
  --Activating 3,250 personnel (3,150 deployed).
  --Participating in infrastructure protection and border surveillance 
        resulting in a 75 percent decrease in illegal border crossings.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    In 2007, the Air National Guard provided 2,676 individuals and 
274,705 duty days using RC-26B aircraft to assist local, state, and 
federal law enforcement authorities in conducting counterdrug 
operations. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       critical to today's fight
    Like the Air Force, the Air National Guard is integrated into 
America's fighting force overseas. Protecting the homeland from 
terrorist threats begins on American soil and extends overseas. On 
September 11, 2001, Air National Guard aircraft were the first to 
respond. Since 1991, the Air National Guard has provided the highest 
percentage of its force, more than any other reserve component, in 
responding to America's needs.
    Over the past six years, we have:
  --Deployed more than 203,700 Airmen (92 percent voluntarily 
        deployed).
  --Flown more than 179,000 missions.
  --Logged more than 558,000 flying hours.
    During the peak of Operation Iraqi Freedom, more than 22,000 Air 
National Guard members were either mobilized or volunteered to support 
today's fight. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    During the same period, in support of Operation Enduring Freedom, 
the Air National Guard flew more than 25 percent of both fighter and 
tanker sorties. In addition, the intelligence, surveillance and 
reconnaissance air support provided by the Air National Guard in both 
Operation Iraqi Freedom and Operation Enduring Freedom contributed 
significantly to safeguarding the troops on the ground while pursuing 
and terminating terrorist leaders.
    In addition to our airborne capabilities, the Air National Guard 
has contributed ground forces in the following manner:
  --15 percent of the Air National Guard's expeditionary combat support 
        was engaged during Operation Iraqi Freedom and Operation 
        Enduring Freedom.
  --60 percent of the Air National Guard security forces made 
        expeditionary combat support contributions.
  --25 percent of the Air National Guard's intelligence, services and 
        weather personnel were mobilized.
                      developing adaptable airmen
    Readiness remains a top priority for the Air National Guard. Our 
goal is to continue to develop adaptable Airmen, service members who 
are always in a state of readiness and are willing and able to 
accomplish the job at hand. Proper funding for continued recruitment 
and training will ensure that the quality of our service members 
remains high. We are developing Airmen for leadership roles to meet the 
needs of our Total Force--today and tomorrow.
                        recruiting and retention
    Adaptable Airmen are critical to the Air National Guard. They are 
combat-ready to defend national interests and balance global strategic 
risk. To preserve these assets, we need significant investment in our 
personnel, operations and maintenance accounts.
    The top priority for Air National Guard recruiting and retention is 
to meet year-end goals, and build and retain a quality force to meet 
mission requirements.
    For fiscal year 2007, the Air National Guard reported an end-
strength of 106,254, or 99.3 percent of our goal. We accomplished this 
goal in the face of challenges like base realignment and closure 
decisions, and Total Force Initiatives implementation.
    Air National Guard retention is also solid and has exceeded annual 
officer retention goals for fiscal year 2007. The Air National Guard 
ended fiscal year 2007 retention at 89.5 percent overall. The Air 
National Guard continues to have an excellent retention rate, which 
decreases the cost of replacing valuable members. To maintain this 
momentum we continue to work to ensure the Air National Guard 
Recruiting and Retention program is adequately funded.
              transforming into a capabilities-based force
    Transforming from a platform-based force to a capabilities-based 
force is critically important for the Air National Guard. We have to 
ensure our force is building the capabilities of the Combatant 
Commanders, Air Force and National Guard need to defeat tomorrow's 
adversary and support our domestic needs.
    The Air National Guard's capabilities-based force realignment 
requires shifting functions, organizational constructs, and realigned 
priorities across the entire force. This has to be accomplished while 
fully engaged in today's fight. Simply put, we will transform at mach 
one speed; we do not have the luxury of pausing operations while re-
equipping and resetting our force.
    Some of our missions demand a different force than the one we have 
today and will affect us in these ways:
  --Mission changes, aircraft movements and programmatic decisions will 
        directly impact about 15,000 Air National Guard members in 53 
        of the 54 states and territories.
  --Estimated cost for fiscal year 2009 is $350 million; and involves a 
        complex interplay of people, training, equipment and 
        facilities.
  --Fully implementing, retraining and rebalancing our force will take 
        5 to 10 years.
    As we shift aircraft and missions, some units are transitioning 
into ground-based capabilities including intelligence, surveillance and 
reconnaissance duties. This transition is necessary for the Air 
National Guard to maintain its essential role as part of our nation's 
defenses.
    In a few years we'll be able to reflect on this period of change 
and recognize how hard work, tough decisions and forward thinking 
reshaped our National Guard into a more capable force.
            equipping and modernizing the air national guard
    Developing and fielding ``dual-use'' capabilities are the 
cornerstones of the Air National Guard's cost effective contribution to 
combat and domestic operations. In fiscal year 2008, with Congressional 
assistance, we will address critical Homeland Defense shortfalls.
    Specifically, we will address:
  --Additional Expeditionary Medical Support suites;
  --Enhanced deployable wireless communication capability;
  --More fire fighting vehicles (current fleet averages 30 years old);
  --Upgraded security weapons;
  --Enhanced explosive ordnance disposal; and
  --Improved hazardous material handling equipment.
    The Air National Guard has forces in every Air Expeditionary Force 
deploying to the current combat theaters. Consequently, the Air 
National Guard must be equipped with the active duty force to meet 
combat mission demands. The age of the fleet, mission demands, and 
combat readiness require a parallel approach to aircraft modernization 
working in tandem with active duty forces.
An Aging Fleet
    Our Air Force is struggling with sustainment bills versus 
recapitalization funding, which directly impacts the Air National 
Guard. More than 42 percent of the Air National Guard fleet is 25 years 
or older:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Navigation and Combat Systems Modernization Needs
    The Air National Guard is critically important to the Air Force's 
Total Force effort. Forty percent of the Air Force's C-130 fleet 
resides in the Air National Guard. In fiscal year 2007, Air National 
Guard C-130s flew over 11,000 hours in support of Operation Enduring 
Freedom and over 4,200 hours in Operation Iraqi Freedom. In support of 
the Aeromedical Evacuation mission, Mississippi Air National Guard C-17 
aircraft returned over 19,000 patients to Germany and the United States 
from Iraq.
            C-130, C-5 and C-17
    The C-130, C-5 and C-17 aircraft all operate in environments of 
increasing levels of threat and complexity. We must ensure these 
aircraft continue to provide our Airmen with the best protection and 
warning systems available.
            Combat Aircraft
    Air National Guard combat aircraft--A-10, F-15 and F-16--comprise 
approximately 30 percent of the Air Force's combat capability. Our 
maintainers continue to keep our fleet combat ready and lethal.
            E-8C Joint Surveillance Target Attack Radar System
    The E-8C Joint Surveillance Target Attack Radar System (JSTARS) 
continues to be the Combatant Commander's command and control system of 
choice. JSTARS supports the warfighter by locating, classifying, and 
tracking ground targets and movement, day or night, in all weather 
conditions, at ranges in excess of 150 miles. All 17 E-8Cs are operated 
by the Air National Guard's 116th Air Control Wing at Robins Air Force 
Base in Georgia. Our challenge is to keep the system modernized while 
maintaining the current operational tempo. The most urgent 
modernization need for the JSTARS includes re-engining.
            Rescue Squadrons
    Air National Guard Rescue Squadrons comprise 30 percent of the Air 
Force's high-demand combat deployable pararescue capability while 
special tactics personnel provide 25 percent of the Air Force's Special 
Tactics capability. These squadrons provide the highly experienced, 
skilled and reliable force for both deployed and domestic operations 
support.
            Predator/Reaper Operations Center
    The Air National Guard conducts predator operations and training in 
Arizona, California, North Dakota, New York, Nevada and Texas Air 
National Guard units. We continue to pursue development and acquisition 
of an integrated Predator/Reaper Operations Center (POC). The POC will 
allow smooth operation and control of current and future 
transformational warfighting and homeland defense missions. The new POC 
design will integrate the multiple systems that currently run 
independently.
            KC-135
    To meet continuous demands of global power projection, the Air 
National Guard KC-135s are effective. These aircraft are crucial to 
supporting the warfighter.
            Operational Support Aircraft
    Finally, Air National Guard Operational Support aircraft--C-40, C-
38 and C-21--meet the special mission transportation needs of 
distinguished visitors and Congressional delegations.
                                training
    Significantly important to the Air National Guard's training of 
Airmen is the Distributed Mission Operations program. The program 
supports all weapons systems. It includes flight and mission crew 
trainers to provide high fidelity, immersive simulators for individual, 
team, inter-team and full mission rehearsal training.
major general william h. etter, acting director, joint staff, national 
                              guard bureau
                       message from the director
    The National Guard Bureau (NGB) enters 2008 with Congressional 
designation as a joint activity of the Department of Defense (DOD) and 
not strictly as a joint bureau of the Army and Air Force. How important 
is that to the history of an institution that has served this nation 
for more than 371 years?
    From a historical perspective, this change in law is on a par with 
the National Defense Act of 1916 which created the term ``National 
Guard'' and made the state militias a component of the U.S. Army.
    New levels of responsibility and authority come with the new law--
requirements for plans and protocols for change. As a joint DOD 
activity, for example, manpower requirements for the bureau are now 
under the purview of the Secretary of Defense in consultation with the 
Chairman of the Joint Chiefs of Staff. The Secretary and the Chairman, 
working in consultation with the Secretaries of the Army and Air Force, 
are responsible for the development of a new charter for the National 
Guard Bureau.
    While there will be changes, one thing will remain constant for the 
Joint Staff and the Chief of the National Guard Bureau. They will serve 
as the channel of communication between the Defense Department and the 
Governors of these sovereign states via their Adjutants General.
    At the end of 2007, National Guard members were doing remarkable 
things in Iraq, Afghanistan, Kosovo, the Horn of Africa, and 40 other 
countries. They were also serving here at home, protecting our borders, 
fighting fires, providing rescue and recovery in the wake of disasters, 
and interdicting the flow of illegal drugs.
                    supporting operation jump start
    In May of 2006, the President asked the National Guard to 
temporarily provide support to the Department of Homeland Security's 
(DHS) effort to secure the southwest border. In 2008, that mission will 
end as originally conceived. While never meant to replace border patrol 
agents with Guardsmen on a one-to-one basis, the National Guard's 
support has provided DHS with time to grow its own capabilities. U.S. 
Customs and Border Protection is now better resourced and equipped than 
when the mission started. National Guard members from every state and 
territory have served in the four southwest border states under the 
command of the Governors and at the direction of U.S. Border Patrol.
    As of November 30, 2007, National Guard members:
  --Helped DHS apprehend more than 169,000 aliens and seize more than 
        269,000 pounds of marijuana, 4,900 pounds of cocaine, and 7,900 
        vehicles.
  --Built more than 37 miles of fence, 18 miles of road and 70 miles of 
        vehicle barriers.
  --Provided support to local, state and federal law enforcement 
        through the Counterdrug program.
  --Conducted non-core border activities which allowed 581 Border 
        Patrol agents to direct border security missions, and to hire 
        and train additional agents.
  --Allowed Border Patrol agents to enhance their law enforcement and 
        border security efforts against all threats--illegal aliens, 
        drugs, weapons and possible terrorists.
  --Aided in apprehending 137,387 aliens in the past year, increasing 
        more than six times the number recorded in the first five 
        months after operations began in June 2006.
                   national guard counterdrug program
    Because of the National Guard's Title 32 status, we are not 
restricted by posse comitatus (the federal law that otherwise prohibits 
support of local law enforcement by members of the uniformed services), 
it serves a particularly unique role for the Department of Defense in 
the fight against illicit drugs. Since Congress authorized the National 
Guard to perform interdiction and anti-drug activities in 1989, the 
program has worked tirelessly with civilian law enforcement agencies 
and community-based organizations.
    Counterdrug program highlights include:
  --Employing more than 2,500 Soldiers and Airmen in the 54 states and 
        territories to support over 5,000 law enforcement agencies at 
        the local, state and federal levels, preventing illicit drug 
        import, manufacture and distribution.
  --Contributing numerous liaison officers to work with State Joint 
        Force Headquarters within the four southwest border states 
        (Texas, Arizona, New Mexico and California).
  --Allowing the states unprecedented access to National Guard Bureau 
        assets resulting in a seamless flow of communication between 
        the Joint Force Headquarters and National Guard Bureau.
  --Reaching about 2.8 million people in fiscal year 2007 through drug 
        demand reduction efforts, the National Guard Counterdrug 
        program has unparalleled relationships within its communities; 
        studies have shown that this can lead to drug use prevention 
        among youth.
  --Participating in nearly 80,000 drug-related actions.
  --Supporting local law enforcement who seized more than 1.4 million 
        pounds of illegal drugs (including more than 3 million 
        ``designer drug'' pills known by the street name, ecstasy).
    In order to continue to support the new light utility helicopter, 
currently used for the counterdrug mission, adequate funding is 
required during all of the acquisition years of 2008-2013. The 
equipment is critical to both counterdrug, as well as in support of 
first responders during natural disasters.
    The National Guard Bureau Joint Staff continues to focus on 
``mission first, people always.'' We continue to increase functions and 
services that enhance the quality of life for the men and women of the 
National Guard and our communities. In the following paragraphs, we 
offer a sampling of the accomplishments that demonstrate our commitment 
to this nation, and the Citizen-Soldiers and Airmen who protect it.
                          domestic operations
Information Sharing Environment Initiatives
    The National Guard Bureau and the State Joint Force Headquarters 
are key partners in the development, implementation and execution of 
the National Strategy for Information Sharing Environment initiatives.
    This partnership was instrumental in assisting a unified command 
leadership to effectively allocate resources and handle hot spots 
during the 2007 California wildfires. The ability for key federal, 
state, local and tribal partners to view a real-time common operating 
picture enhanced command, communications and coordination.
Critical Infrastructure Protection and Mission Assurance Assessment 
        (CIP-MAA)
    The National Guard Bureau is developing 10 National Guard 
Vulnerability Assessment Teams to provide analysis of sites deemed 
critical by the Department of Homeland Security. With a newly developed 
web-based automated reporting tool, the Critical Infrastructure 
Protection and Mission Assurance Assessment office can provide 
continual, detailed readiness information to National Guard Reaction 
Forces in all states and territories.
                      support to civil authorities
    The National Guard Bureau and the 54 states and territories are 
prepared to provide response to a wide variety of homeland defense/
civil support missions.
    The National Guard has supported homeland security missions 
guarding airports, nuclear power plants, domestic water supplies, 
bridges, tunnels, military assets, counterdrug operations and more. 
Across the country, National Guard members have responded to 
hurricanes, snow storms, wildfires, border security and other missions 
requiring individual assistance. During fiscal year 2007 the National 
Guard Bureau Joint Domestic Operations Division provided subject matter 
expertise and facilitated information sharing across federal, state, 
and local agencies in over 554 instances of non-federalized National 
Guard support to civil authorities.
State Active Duty Support to Civil Authorities
    During fiscal year 2007, the National Guard supported hundreds of 
disaster and crisis response missions using state active duty Soldiers 
and Airmen. These humanitarian relief operations included construction, 
security, communications, aviation, medical, transportation, law 
enforcement support, search and rescue, debris clearance and relief 
supply distribution.
    The following is a more detailed list of those disaster and crisis 
response missions:
  --6 Hurricane and Tropical Storms affecting the Gulf Coast states, 
        Guam and the Virgin Islands;
  --20 flood disasters in 14 states;
  --11 tornado recovery responses in 14 states;
  --17 winter and spring storm response missions affecting 23 states;
  --11 water supply and purification missions in 11 states;
  --1 earthquake response in Hawaii;
  --1 bridge collapse in Minnesota;
  --17 missions in support of law enforcement in 14 states; and
  --304 search and rescue missions in 25 states.
    Additionally, the National Guard provided critical infrastructure 
protection for facilities deemed critical by the states. Joint Force 
Headquarters Louisiana alone maintained a cumulative total of 109,500 
duty days in ongoing support of law enforcement for Hurricane Katrina 
in fiscal year 2007. (Possible ``Did you know'' Box)
Joint Enabling Teams and the Liaison Officer Program
    The National Guard Bureau Joint Enabling Team program assists the 
54 states and territories with communication and request flow 
processes.
    Since development of the Joint Enabling Teams in fiscal year 2006, 
they have been successfully employed in live emergency responses to 
Hawaii for an earthquake; Kansas for tornadoes/floods; Hawaii and 
Puerto Rico for hurricanes; Texas for a tropical storm; and California 
for wildfires.
    The Joint Enabling Team program must be maintained in a 
collaborative effort with the supported states and territories to save 
lives and mitigate suffering.
Joint Continental United States (CONUS) Communications Support 
        Environment
    The National Guard continues to provide communication systems for 
non-federalized National Guard Forces involved in domestic operations 
for civil authorities and homeland defense activities. This is an 
essential requirement for non-federalized National Guard domestic 
operations; particularly in those cases similar to Katrina, in which a 
large number of states provided National Guard forces in support of a 
particular Governor. This capability is even more critical with the 
passage of the National Guard Empowerment Act, and we must provide 
Congress clear visibility within the President's budget for the funding 
support required for non-federalized National Guard domestic 
operations.
National Guard Support to Civil Fire Fighting
    The National Guard provides military support to wildland fire 
fighting as a part of the Department of Defense response plan.
    In fiscal year 2007, National Guard assets delivered more than 5.3 
million gallons of retardant during some 6,800 fire suppression drops 
in fire fighting efforts across the country. In September 2007, over a 
five-day period, National Guard helicopters spread more than 35,000 
gallons of retardant on the California Lick Fire, aiding in preventing 
the destruction of homes, commercial buildings and livestock.
    National Guard assets are available year-round but are especially 
focused from April to October--the prime period for forest fires. 
Aviation fire fighting assets reside in North Carolina, California, 
Wyoming, Florida, Nevada, New York and Oregon National Guard aviation 
units and have been greatly successful in past years.
    Throughout the 54 states and territories, National Guard units also 
have 249 ``bambi buckets'' strategically located to combat wildfires 
nationwide. These fire buckets range in size from 144 to 2,000 gallons 
and can be carried by UH-1, UH-60, HH-60 and CH-47 helicopters from the 
Army and Air National Guard. Fire fighting assets and crews assisted 
state and federal forest fire fighting efforts in California, Nevada, 
Florida and Georgia in fiscal year 2007. (Possible ``Did you know'' 
Box)
Vigilant Guard Regional Exercise Program
    Vigilant Guard provides an opportunity for National Guard Joint 
Task Forces and field units to improve command and control, and 
operational relationships with internal, civilian, and military 
partners against homeland security threats. The exercise involves all 
the command elements of Northern Command, National Guard Bureau, 
Department of Defense, U.S. Transportation Command, Department of 
Homeland Security and other supporting U.S. government agencies.
    The states, divided into regions, have four opportunities per year 
to test coordinated tactics, techniques and procedures among state and 
federal civil and military partners in response to a regional level 
incident. The desired outcome is an increase in readiness while 
developing partnerships at all levels to enhance the unity of effort in 
the future.
    Vigilant Guard highlights include:
  --Eight Vigilant Guard regional exercises have involved 34 
        participating states.
  --In May 2007, a combined Vigilant Guard and U.S. Northern Command 
        exercise in Indianapolis tested more than 2,000 National Guard 
        personnel from Indiana and surrounding states.
Joint Interagency Training and Education Center
    An integral part of continuing the National Guard's transformation 
for the future is building relationships and capabilities with our 
interagency partners.
    Joint Interagency highlights include:
  --Interagency training capability has afforded critical training and 
        interaction with over 90 different organizations and agencies 
        in over 800 exercises during more than 30,000 days of training 
        since September 11, 2001.
  --The Defense Department established some funding support to develop 
        National Guard interagency training capability in 2007.
    More than 200 training, exercise, or assessment activities are 
scheduled in 2008. With continuing support from both DOD and Congress, 
the National Guard will continue to transform itself into a premier 
homeland security and defense organization, leveraging state and 
federal responses, capabilities and expertise.
            supporting the warfighter--connect the community
National Guard Family Program
    The National Guard Bureau Family Program provides members and their 
families with education, training, community outreach, and partnerships 
in three critical areas:
  --Family Readiness is a six-step process that prepares families for 
        having a loved one in the National Guard. The process covers 
        all phases of service, including a welcome brief, in 
        processing, training, pre-deployment, deployment, reunion and 
        reintegration.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

  --Family Assistance provides support to military families during long 
        or short-term deployments. Over 400 contracted personnel across 
        the nation provide crisis intervention and community outreach 
        services, as well as information and referral services on 
        legal, financial, medical and dental matters. Help is also 
        available for families online at: www.guardfamily.org.
  --Program Services provides support services, education, and 
        information to assist the National Guard members and family 
        members. This is accomplished through family services, youth 
        programs, community outreach, national volunteer programs and 
        training initiatives.
Home Station Transition Support
    Last year, Congress appropriated funds for National Guard pilot 
programs to help returning veterans reintegrate to their civilian 
lives. Congress also established the Yellow Ribbon Reintegration 
Program in the fiscal year 2008 National Defense Authorization Act. In 
the year ahead, the National Guard Bureau looks forward to working 
closely with the Office of the Assistant Secretary of Defense for 
Personnel and Readiness to implement the program. We will develop these 
capabilities in view of the best practices of the several states that 
have created their own programs. These programs support the difficult 
process of transitioning from a combat deployment to civilian status by 
offering support on civilian employment, the Department of Veterans 
Affairs, educational benefits and health care.
Youth ChalleNGe Program
    The National Guard Youth ChalleNGe Program is a community-based 
concept that leads, trains, and mentors at-risk youths, ages 16 to 18, 
and assists them in becoming productive citizens. The National Guard 
Youth ChalleNGe Program is the second largest mentoring program of its 
kind in the nation--second only to the Boy Scouts of America. ChalleNGe 
is a coeducational program, consisting of a five-month ``quasi-
military'' residential phase and a one-year post-residential phase. The 
young adults targeted to become Cadets in this program are unemployed 
high school drops outs--but must be drug fee and have no police record.
    Since 1993 ChalleNGe has grown to 34 sites in the United States and 
Puerto Rico. The program has graduated over 76,000 young men and women.
    A 1998 Vanderbilt University report placed the value of intervening 
in the life of such young people somewhere between $1.5 and $2 million 
per youth. Today, at an average cost of $14,000 per student per year, 
the taxpayer reaps an estimated savings of $109 million in juvenile 
corrections costs annually.
Veterans Affairs Liaison
    Sustained mobilization of the National Guard since September 11, 
2001 has resulted in a larger number of members eligible for 
entitlements through the Department of Veterans Affairs (VA).
    Since the May 2005 memorandum of agreement was signed to support 
National Guard members, significant progress has been made to improve 
the services available to National Guard members and their families. A 
permanent liaison has been appointed in both the National Guard Bureau 
and Department of Veterans Affairs to work out issues at the federal 
level. Additionally, 57 Transition Assistance Advisors have been 
trained and placed in the Joint Forces Headquarters to act as liaisons 
among the members entitled to VA benefits within a state and the local 
Veterans Affairs, veterans' service organizations and community 
representatives.
Employer Support of the Guard and Reserve
    The basic Employer Support of the Guard and Reserve (ESGR) mission 
continues to be gaining and maintaining the support of public and 
private employers for the men and women of the National Guard and 
Reserve.
    Today, nearly 4,200 volunteers serve on local ESGR committees. With 
resources and support provided by the National ESGR Office and the 
National Guard Bureau, these 54 ESGR committees conduct Employer 
Support and Outreach programs. This includes information opportunities 
for employers, ombudsman services, and recognition of employers who 
support and encourage participation in the National Guard and Reserve.
                     transformation for the future
    The National Guard continues to staff and publish logistics 
doctrine and plans for domestic contingency operations and emergencies. 
The National Guard Bureau is committed to the transformation and 
integration of the best available information technology enablers into 
our joint logistics plans, exercises and operations.
    Important upgrades and new equipment have been fielded for the 57 
Civil Support Teams and 17 Chemical, Biological, Radiological, Nuclear, 
and High-Yield Explosives (CBRNE)-Enhanced Response Force Package 
(CERFPs) locations. The next generation of Civil Support Team equipment 
was fielded for various operational systems; consisting of the Unified 
Command Suite, Analytical Laboratory Suite and Advance Liaison Vehicle. 
Additionally, a ground transportation equipment program for the CERFP 
units was staffed for resource allocation consideration. Staff 
assistance visits were conducted to identify and fill equipment 
shortfalls in the initial 12 CERFP organizations to bring them to the 
same level of capability as the five latest additions to the CERFP 
force structure. Based on these assistance visits, accountability 
procedures and material fielding plans were established to synchronize 
new equipment delivery. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Seventeen CERFPs are currently assigned with at least one in each of 
the 10 Federal Emergency Management Agency regions, with some having up 
          to three based on population density for that area.

    With the ongoing support of Congress and the American people, the 
National Guard will continue to secure the American homeland while 
defending her interests abroad. America can depend on the National 
Guard to be ``Always Ready, Always There.''
                        state adjutants general
    Alabama: Major General Abner C. Blalock Jr.
    Alaska: Major General Craig E. Campbell
    Arizona: Major General David P. Rataczak
    Arkansas: Major General William D. Wofford
    California: General William H. Wade, II
    Colorado: Major General H. Michael Edwards
    Connecticut: Major General Thaddeus J. Martin
    Delaware: Major General Francis D. Vavala
    District of Columbia: Major General David F. Wherley, Jr., 
Commanding General
    Florida: Major General Douglas Burnett
    Georgia: Major General William T. Nesbitt
    Guam: Major General Donald J. Goldhorn
    Hawaii: Major General Robert G. F. Lee
    Idaho: Major General Lawrence F. Lafrenz
    Illinois: Major General (IL) \1\ William L. Enyart Jr.
    Indiana: Major General R. Martin Umbarger
    Iowa: Major General Ron Dardis
    Kansas: Major General Tod M. Bunting
    Kentucky: Major General (KY) \1\ Edward W. Tonini
    Louisiana: Major General Bennett C. Landreneau
    Maine: Major General John W. Libby
    Maryland: Major General Bruce F. Tuxill
    Massachusetts: Brigadier General (MA) \1\ Joseph C. Carter
    Michigan: Major General Thomas G. Cutler
    Minnesota: Major General Larry W. Shellito
    Mississippi: Major General Harold A. Cross
    Missouri: Major General King E. Sidwell
    Montana: Major General Randall D. Mosley
    Nebraska: Brigadier General (NE) \1\ Timothy J. Kadavy
    Nevada: Major General Cynthia N. Kirkland
    New Hampshire: Major General Kenneth R. Clark
    New Jersey: Major General Glenn K. Rieth
    New Mexico: Brigadier General (NM) \1\ Kenny C. Montoya
    New York: Major General Joseph J. Taluto
    North Carolina: Major General William E. Ingram, Jr.
    North Dakota: Major General David A. Sprynczynatyk
    Ohio: Major General Gregory L. Wayt
    Oklahoma: Major General Harry M. Wyatt, III
    Oregon: Major General Raymond F. Rees
    Pennsylvania: Major General Jessica L. Wright
    Puerto Rico: Brigadier General (PR) \1\ David A. Carrion-Baralt
    Rhode Island: Major General Robert T. Bray
    South Carolina: Major General (Ret) Stanhope S. Spears
    South Dakota: Major General (SD) \1\ Steven R. Doohen
    Tennessee: Major General Gus L. Hargett, Jr.
    Texas: Major General Charles G. Rodriguez
    Utah: Major General Brian L. Tarbet
    Vermont: Major General Michael D. Dubie
    Virginia: Major General Robert B. Newman, Jr.
    Virgin Islands: Brigadier General (VI) \1\ Renaldo Rivera
    Washington: Major General Timothy J. Lowenberg
    West Virginia: Major General Allen E. Tackett
    Wisconsin: Brigadier General (WI) \1\ Donald P. Dunbar
    Wyoming: Major General Edward L. Wright

    \1\ Denotes Brevet Rank.
                              in memoriam
    Our Dedication to the men and women of the National Guard who 
sacrificed all for their nation and state.

    Senator Stevens. Thank you very much. We have about 50 
minutes left and there are seven of us. I would urge members to 
just follow the concept of 7 minutes apiece. We have the 
chairman and co-chairman of the National Guard Caucus. So I 
will call on Senator Leahy first and then Senator Bond and then 
those who came in order.
    Senator Leahy. Well, thank you very much. Both Senator Bond 
and I are proud to co-chair the National Guard Caucus. We have 
95 of 100 Senators on it, and it is hard to get 95 to agree on 
the time of day around here. That is because we are proud of 
the 450,000 men and women in the Guard. We are also very proud 
of the three of you, General McKinley, General Blum, General 
Vaughn, for the work you do.
    General Blum, I understand there is still at least a $10 
billion shortfall on the long-range Army budget plans to re-
equip the Guard. That is gear that is absolutely necessary to 
allow the force to carry out its dual missions. I also look at 
the Air National Guard modernization book which reveals our 
best pilots and operators say they need at least $8 billion in 
upgrades just to carry out their missions.
    It seems a little bit better than it has been in recent 
years, but you cannot get around the basic fact that these 
equipping gaps exist. We understand why. With the war in Iraq 
and all, a lot has been drawn down. But we also to prepare for 
natural disasters as well as threats worldwide which simply 
increase every year.
    Can you tell us what plans there are to close these kind of 
gaps?
    General Blum. I will give it to you, Senator Leahy, at the 
macro level. Then if you want further detail in the Army 
program, General Vaughn will provide it or General McKinley 
will provide it for the Air National Guard, if you so desire.
    All three Departments that really influence how we get 
equipped and where the resources come from have re-examined 
their strategies and their priorities as far as the National 
Guard is concerned. There is a serious commitment on the part 
of the Army and the Air Force and the Department of Defense to 
make sure that we have those items of equipment that are 
absolutely necessary to be a Federal reserve of the Army, a 
Federal reserve of the Air Force, to meet our joint 
requirements that are out there, and also to satisfy the 
finally recognized mission of supporting the Governors in a 
realistic manner, no notice, here at home in case of weapons of 
mass destruction, terrorism, or a catastrophic event brought on 
by mother nature, as you have seen this week with the 
tornadoes, the hurricane and----
    Senator Leahy. It is the no-notice part that I worry the 
most about. It is one thing if you have got plenty of time. You 
can ramp up. You can borrow from this guy's unit or that guy's 
unit, given plenty of notice. I am far more worried about the 
no-notice.
    General Blum. Right.
    Senator Leahy. And I am not sanguine enough to assume we 
are not going to have some no-notice problems.
    General Blum. We share that concern and we now finally have 
some partnering with the Department of the Army and the Air 
Force and their responsibilities to help us with that no-notice 
response. This is unprecedented in the historical past of the 
Army and Air Force. It is a good step forward.
    But you have accurately laid out that even with--while I 
have to support and do support the President's budget, if more 
resources were to be applied earlier, then we have the capacity 
to absorb those resources and turn that authorization or that 
appropriation into real readiness capability, meaning the 
equipment that we need to go out the door in a no-notice 
response tonight if necessary or this afternoon.
    Senator Leahy. My staff will continue to work with yours 
and with General McKinley's and General Vaughn's on that 
because I am getting very, very worried that we have gone 
beyond a tipping point.
    General McKinley, you will not be surprised if I talk about 
the 158th Fighter Wing in Vermont. It is proudly flying the F-
16 Fighting Falcon. It is one of over 15 units in the Air Guard 
that fly the aircraft. That is a sizable percentage of the Air 
Force tactical air capabilities. It is getting kind of old--
that airplane. It is going to be around a while until we see 
the F-35 or whatever comes in to replace it.
    What kind of upgrades are needed? Do we have the funding 
for that?
    General McKinley. Senator Leahy, I appreciate your strong 
support, and yes, the Burlington, Vermont unit is one of our 
finest, and I am very proud of them.
    We meet annually. As you know, members of your staff have 
worked with us closely to bring up the types of equipment 
issues that are necessary to keep the legacy fighters that the 
Air National Guard has relevant. And we publish annually a 
modernization book that is really developed by our weapons and 
tactics officers in the squadrons. This is not some theoretical 
concept. This is what the actual fighter pilots who train our 
members use. And so we are able to collect that data. We have 
collated it. Senator, you have a copy of it. And that is where 
we go back to the Air Force, and through your help with the 
National Guard and Reserve equipment account, and try to make 
sure that the legacy fighters continue to serve our Nation well 
because we are going to expect these fighters to continue to 
perform for the next decade or so. So it is vitally important, 
and I thank you again and members of the subcommittee for your 
help to maintain these aircraft.
    Senator Leahy. And I am sensitive to the time and I agree 
with Senator Stevens on that. So you will get at least private 
calls from me on community basing.
    General McKinley. Yes, sir.
    Senator Leahy. I think that is a great idea. I know it is 
growing substantially in Vermont. We talk about other places it 
might go, and we will keep working on that.
    General Vaughn, we talk about the full-time personnel in 
the Army National Guard. I understand the requirements for 
full-time manning have not been reworked since well before 
September 11th when the Guard made up such a high percentage of 
the forces on the ground in Iraq and Afghanistan.
    Can you tell the subcommittee about the role the full-time 
personnel have in Guard units and what kind of requirement is 
there for additional full-time personnel?
    General Vaughn. Thank you, Senator Leahy.
    The full-time support piece, as you talked to, is based 
upon a 1999 strategic reserve model. We think it is out of date 
and we think it needs to be revamped. The Army is working that 
through a study. We think that readiness of our forces to move 
quickly, as you stated earlier, and do the things that the 
Governors and the President need demands that we have a higher 
level of full-time support. We have the capacity and capability 
to grow whatever it is that we are told to grow to. And we 
should grow.
    Senator Leahy. Thank you. Well, you have a sympathetic 
committee here on both sides of the aisle and I applaud all of 
you being here.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Bond.
    Senator Bond. Thank you very much, Senator Stevens. And I 
join with my co-chairman, Senator Leahy, in expressing the 
confidence and the appreciation of the Guard. I welcome General 
Blum, General McKinley, General Vaughn.
    General Blum, thank you for your service. You work so well 
with the National Guard Caucus. We very much appreciate meeting 
with you regularly and we thank you for the good information.
    I would say by summary of what could be a long speech, that 
I really think the Guard is the most respected and capable 
organization we have. Every mission that our Nation has asked 
the Guard to execute, it has done so. Whether it is fighting 
terrorists in Iraq or Afghanistan, protecting the sovereign air 
space over the United States, securing the Southwest border, 
fighting the war on drugs through the counter-drug program, 
creating new futures for at-risk youth through Youth Challenge, 
or leveraging the Guard's civilian skills or ``smart power,'' 
as I like to call it, the Guard has been and will be there.
    With respect to the Guard's smart power, General Vaughn, I 
appreciate your leadership in developing the National Guard 
agriculture development teams in Afghanistan. With roughly 80 
percent of the Afghan population depending upon agriculture, 
they will be training Afghans in sustainable agriculture and 
develop projects that will contribute to rural development.
    Would you give the committee an update on the ag 
development teams? Because I think this is a vitally important 
effort that was referenced, I believe, at least indirectly by 
Secretary Gates in his comments yesterday.
    General Vaughn. Thank you, Senator Bond.
    It plays right to the strength of what we do best and that 
is incorporate the States at every level, especially in a non-
kinetic venture like this. It uses civilian acquired skills, of 
course, that being in this instance farmers. Now, that is kind 
of out of the box because it does not sound like a military 
solution. But it is aimed at the poppies. It is aimed at the 
plight of the farmers that simply need a better way of life, 
and it is about doing good in uniform.
    There are 10 agriculture soldiers from the State of 
Missouri. Missouri has been in the lead. We appreciate your 
great support. We appreciate the great support of Charles Cruz 
with the Farm Bureau. We looked at this and said, you know what 
we need to do is get some energy and support from the farming 
community of a State and link a State with a province. And that 
is exactly what we have done. It is a 50-person team. It has 10 
professional agriculture soldiers on it. The other 40 come from 
agriculture backgrounds. The State of Missouri has wrapped 
their arms completely around these soldiers. It is playing in 
the papers, as you well know. There is great interest in it, 
and they are deployed in Jalalabad today.
    The 82nd Airborne and the 101st have wrapped their arms 
around it, and as you know, there are other States now queued 
up ready to go. Texas is coming next, Nebraska, Tennessee, 
Alabama. I think there is a great deal of support for a non-
kinetic solution at this time.
    Thank you, sir.
    Senator Bond. Thank you very much, General Vaughn. And here 
the Guard is really playing a lead. They have got 17th century 
agriculture, and with what the Guard can bring them in terms of 
know-how, not only training of farmers, but training the people 
who will be training the farmers, have the possibility of 
bringing them up at least a couple of centuries so they can be 
more self-sufficient. And I hope we continue to use that model.
    General McKinley, Senator Leahy, and I recently wrote you 
about the Air Force fifth generation TACAIR procurement 
strategy and the effect on the air sovereignty alert. We know 
the Air Force is facing billions in recapped costs and a 800-
plus aircraft shortfall. Yet, despite the questions we have 
raised, they have refused to come up with a plan B to provide 
the equipment we need. With the number of F-22's capped at 183 
and the F-35 initial operating capability slipping and the cost 
going up, how does this impact the Air Guard's mission, 
particularly the ASA and other paramount flying missions? Where 
are you going to be in terms of aircraft in the very near 
future?
    General McKinley. Thank you, Senator Bond, for your 
advocacy and for your support of the air sovereignty alert 
mission.
    As you know, sir, we have 16 fighter units that presently 
sit alert over the United States of America. They all fly aging 
F-16 and F-15 aircraft. In fact, a unit in your home State, St. 
Louis, Missouri, lost an F-15 earlier this year, a catastrophic 
bulkhead failure. It shows the age of the aircraft.
    The plan B for us, sir, is to continue to extend these 
aircraft, to put modernization into them, but it is not going 
to solve the problem long-term because as early as fiscal year 
2015--General Blum and I have looked at this, and we have 
determined that at that early date, we will start attritting 
aircraft out of this fleet and we will be leaving the combatant 
commander of NORTHCOM unable to meet his requirements. General 
Blum and I are working very closely with the Air Force to make 
sure we do not have that bathtub, but today, as we look at it, 
there is a bathtub.
    Senator Bond. Would newly produced F-16's and F-15's at 
what, I might add, would be about one-third or less the cost or 
the F-22's enable you in the interim to fill that gap?
    General McKinley. Sir, you obviously know those are not in 
the Air Force procurement budget. But either one of those 
aircraft have served this Nation exceedingly well for the past 
20 to 30 years. And we need to modernize an air sovereignty 
alert fleet that can serve this Nation.
    Senator Bond. I believe in that, and I believe that plan B 
is a necessity.
    General Vaughn, let me finish up commending you and the 
Army Guard for pushing the top in recruiting with quality 
recruits. The Army National Guard has the Guard Recruiter 
Assistance Program, which serves as a model.
    Can you provide us an update on the Army Guard recruiting 
effort, and what, if any, are some of the challenges facing you 
for which you may need assistance?
    General Vaughn. Senator Bond, we have done great things. In 
the last 2\1/2\ years, we have grown 28,000 soldiers, and we 
recruit nearly 70,000 soldiers a year. As you referred to, we 
put into place a program that takes advantage of peer 
recruiting, uses our soldiers, incentivizes those soldiers to 
go out and recruit their communities and make their 
organizations to look just like them. You know, we go to 
school, church, play ball with every recruit that is out there. 
We are at 358,000 soldiers.
    The authorization through 2009 is 352,600. We were given 
authority from the Office of the Secretary of Defense to go 
ahead and not slow down this recruiting program that is 
attracting youngsters at a record rate to serve their country.
    And so General Blum mentioned something a while ago. We 
have a couple things going. We have got the equipment piece 
going in the right direction, which we have to monitor. We have 
the full-time support piece that we have to get to work on. The 
other piece is we have to have a serious debate about what the 
real end strength of the Army Guard should be because over 
history, as a dinosaur and as a system that is outdated, we 
have all of our training pipeline sunk into our units, which is 
the wrong thing to do. So we have to look at how much strength 
we really need in the future.
    Senator Bond. Thank you very much, General Vaughn.
    Senator Stevens. Thank you.
    Senator Mikulski.
    Senator Mikulski. Well, good morning, Generals, and thank 
you for both being here and for your service. And as always 
with the Guard, thank you for your candor and the willingness 
to tell it like it is. I appreciate the charts that you have 
given to us that actually identify your budgetary needs and 
where the base shortfalls are. It is rare that we get it and so 
straightforwardly.
    General Vaughn, it is great to see you at this table 
joining with our colleagues in the National Guard Caucus. We 
would like to see you at the Joint Chiefs table.
    But let me get right to my questions. First of all, to you, 
General Blum--my colleagues, General Blum is a fellow 
Marylander and we are very proud of him and his position in our 
military.
    But in the Yellow Ribbon reintegration program, I want to 
thank you for the fact that you furnished Maryland $1 million 
out of your discretionary funds to help with the Maryland 
reintegration program. As of April 1, over 1,000 Maryland 
guardsmen were serving in either Iraq or Afghanistan. Many are 
now on their way home. We wanted to operationalize the program. 
We are one of 15 States, but the civilian leadership at the 
Pentagon had failed to fund it. Your $1 million and Governor 
O'Malley, willing to step up for what is essentially a Federal 
responsibility, with $3 million, we have been able to do it.
    But I want you to know we had a roundtable with guardsmen 
and they are very grateful for what you were able to do, which 
takes me right to the Yellow Ribbon Program.
    We are going to put the money in the supplemental, thanks 
to Senators Inouye and Stevens, and we are looking to 
implementing it here. As I understand it, 15 States have a 
Yellow Ribbon Program. Of course, that means 35 do not. Do you 
anticipate that all 50 States will develop a program, and do 
you see that all 50 States need them?
    General Blum. Senator Mikulski, you are at the essence of a 
very critical issue. Every soldier that we deploy, every unit 
that we deploy and goes into harm's way has to be reintegrated. 
The first panel that was in here--you were spot on, right on 
target on what the needs are. General Stultz told you. We 
recruit soldiers. We retain families. To maintain those 
families, to even put them back to the way they were before the 
deployment requires a systematic reintegration process that 
heretofore we had not paid enough attention to.
    We have a pilot program with 15 States that is proving to 
be tremendously successful in encountering some of the concerns 
of Senator Murray and yourself as to the ill effects of the 
deployment on their families and the soldiers and how they 
reintegrate back into the workplace and into the household. 
Every single soldier and their family deserves this program.
    Now, if they are called by the Governors to do something in 
the State, then the State probably should bear the 
responsibility for that.
    Senator Mikulski. Right.
    General Blum. But when you are called in the Federal 
service of your country and you go overseas for a year, we owe 
them everything we would give any other soldier, airman, 
marine, or sailor in the Armed Forces. The fact that they 
happen to be guardsmen is irrelevant in my view.
    Senator Mikulski. So do I take that as a yes----
    General Blum. Yes.
    Senator Mikulski [continuing]. That you need 35 more?
    General Blum. Yes, ma'am.
    Senator Mikulski. And is the reason that we do not have 35 
more because the pilot did not work or is it a wallet issue? Is 
it a real issue?
    General Blum. It is a resource issue.
    Senator Mikulski. So it is a wallet issue.
    General Blum. The pilot worked magnificently well. As a 
matter of fact, right now I would say Minnesota is the gold 
standard. Maryland is right up there.
    Senator Mikulski. Yes. Do not start that.
    General Blum. Well, what I am saying----
    Senator Mikulski. We will all suit up and fight for our 
guardsmen.
    General Blum. What I am saying is that the States have 
really embraced this, taken it serious. The fact that Governor 
O'Malley would put that kind of money into that program out of 
the State coffers just to jump start it and make it possible is 
very commendable, but it should not be sustained that way.
    Senator Mikulski. So what you are saying is what we have 
now in the supplemental we anticipate will keep the programs 
going for 15, but we really need to face up to the fact that it 
should be integrated, that there should be this substantial 
list for all of the guard units coming home so that they would 
have parity with active duty on a reintegration program.
    General Blum. Yes, ma'am, absolutely. Clyde, do you want to 
add anything to that?
    General Vaughn. Senator, the Army has looked out there and 
seen this, and they have listened. And they integrated the 
family action plan by the Army which, unfortunately, because of 
the resource tail, it is a little further out. They have this 
program, Yellow Ribbon, in this integrated family action plan. 
And it has got to be resourced to make it happen. But they have 
seen the light, and they are working this very hard.
    Senator Mikulski. Let me go then to this. Do you have at 
the Guard really those who are looking at evaluating the 
program? And let us say what you have now is very good. What 
the Guard tells us, as we meet in family roundtables, is that 
when they come home, it is not a linear process. In other 
words, you have it very well sequenced, but some feel they do 
not need the services until maybe they have been home a year or 
they need it when they have been home for 3 months and it dawns 
on them they need it. Or they have assessed the family 
financial situation, and they find that they need a lot of 
counseling just in terms of getting out of debt.
    There are two things going on. One, an evaluation that 1 
year is not enough, that a guardsman can come in at any point? 
And number two is that really the reintegration program should 
have almost like an alumni association where they would 
periodically be able to come back for at least another year 
after they return home or before they deploy again because it 
is after they get home to get reintegrated. But then there is 
that undercurrent of anxiety of the redeployment. So you have 
got two significant dynamics going on in the family: one, to 
reintegrate and then the possibility of saying goodbye all over 
again.
    General Blum. If we are going to have an operational 
National Guard, which this Nation must have, with an All-
Volunteer Force, the only way we can sustain the defense of our 
Nation right now is to optimize and operationalize the Reserve 
component. That includes the National Guard. If we are going to 
have repeated deployments, the conditions, the symptoms that 
manifest themselves come, as you well described, at irregular 
times. They are different for each person, and they really are 
cumulative. If you have deployed two and three and four times, 
the intensity of your symptoms and when they manifest 
themselves is different than if you go one time for a short 
deployment and come back.
    So we want to build as much flexibility in this program 
because we are looking to keeping soldiers and their families 
really for a continuum of service, basically as a career. We do 
not use our most precious resources to bring them in for one 
enlistment and then let them go out the door. We spend a lot of 
time and effort. They become more valuable to us with each 
passing day. We need to realize that in the programs that 
support and sustain these soldiers and their families.
    Senator Mikulski. Well, thank you very much. I know others 
have asked questions related to equipment and retention and so 
on. But thank you and thank all who serve as well. Thank you.
    Senator Stevens. Senator Murray.
    Senator Murray. Mr. Chairman, thank you very much and thank 
you to all of you for your tremendous service and those who 
serve under you and with you.
    I wanted to ask General Blum. I have been following the KC-
X recapitalization effort. And in reading your prepared 
testimony and General McKinley's, I see that the Air Guard flew 
86 percent of the tanker sorties in Operation Iraqi Freedom and 
25 percent of tanker sorties in Operation Enduring Freedom. 
Pretty impressive. So considering that the Air Guard is very 
heavily involved in the operations of these mid-air refueling 
tankers, I am curious how much input you or your staff had in 
the KC-X recapitalization process.
    General Blum. The joint staff did not have any. Did the Air 
Guard staff?
    General McKinley. No, sir.
    General Blum. This is pretty much consistent with what 
General Bradley told you. It would not be normal that the Air 
Guard or the Air Force Reserve would participate in an 
acquisition action.
    Senator Murray. Even though you fly a large majority of the 
sorties.
    General Blum. Pardon?
    Senator Murray. Even though you fly the vast majority of 
the sorties.
    General Blum. Yes. But how new aircraft are acquired does 
not take into account the advice and consultation of the Chief 
of the Air Force Reserve or the Director of the Air National 
Guard.
    Senator Murray. I know that there are going to be 
associated costs with either the Boeing or the Airbus plane. 
But I want to know what impact the difference in size and 
weight of the two tankers would have on our future budgets. And 
there is a lot of costs associated with upgrades of hangars and 
ramps and taxiways.
    Has the National Guard conducted an evaluation of the 
construction costs for the various beddown locations?
    General Blum. That is ongoing. Do you want to handle this, 
General McKinley?
    General McKinley. That, Senator Murray, was done several 
years ago as a what-if drill because----
    Senator Murray. For both the larger tanker, Airbus tanker--
--
    General McKinley. I would have to get that back to you for 
the record. I know we have looked at a larger aircraft tanker 
beddown for Milcon and hangar space. I know that. So I will get 
that to you for the record.
    Senator Murray. So you could provide me with the 
information on both of those planes and the costs?
    General McKinley. Yes, I can.
    Senator Murray. Okay, for the record. Thank you. I 
appreciate that.
    [The information follows:]

    As part of routine tabletop and internal ``what-if'' 
planning drills conducted several years ago, my engineers 
verbally discussed with several Air National Guard (ANG) tanker 
wing commanders potential beddown issues such as facilities, 
ramp space and hangars for future recapitalization efforts.
    At the 20 ANG sites where tanker assets are currently 
based, we estimate the facility costs would be approximately 
$50 million to $275 million for the KC-45 and $50 million to 
$250 million for the Boeing aircraft depending on location. For 
example, at a notional ANG-only base, we estimate costs to be 
approximately $70 million for either aircraft selected. And, at 
a notional civilian location, costs range from $250 million to 
$275 million. These MILCON estimates will be used for potential 
ANG KC-X bases and are intended to assist in the Guard's 
initial planning for potential aircraft replacement. These 
estimates were not part of the Air Force's formal acquisition 
process.
    In coordinating this response, we were informed by the Air 
Force that part of the official KC-X Source Selection process, 
the Air Force calculated and took into consideration MILCON 
cost estimates for representative active duty CONUS/overseas 
locations, as well as sample Guard and Reserve bases. The Air 
Force conducted site surveys at several existing active duty 
tanker bases. These surveys were used as a basis for estimating 
MILCON costs for the Most Probable Life Cycle Cost (MPLCC) 
which would address ANG and overseas locations. It's important 
to note that MILCON cost estimates were not considered in 
isolation by the source selection team, but were included as a 
component of the MPLCC, accounting for approximately 2 percent 
of the total cost.
    When Air Mobility Command coordinates the final KC-45A 
beddown with the MAF and the plan is approved by Headquarters 
Air Force, the National Guard Bureau will lead the site survey 
processes at selected Guard locations. Initial MILCON cost 
estimates will be updated based on the specific requirements of 
each location. Local experts will be an integral part of the 
site survey team, as is the case with all site surveys.

    Senator Murray. And, General Blum, I wanted to ask you 
specifically your opinion on flying the Boeing 767. And the 
reason I am asking that is because shortly after the--well, 
within a day after the announcement of the procurement of the 
Airbus plane was made, Loren Thompson, who is with the 
Lexington Institute, released a paper extolling the benefits of 
the Airbus platform and hinting that somehow the Boeing plane 
was a lesser plane.
    Now, that was before we were given any kind of debriefing. 
Boeing was not given any kind of debriefing. I have been asking 
Secretary Wynne and General Moseley and even Secretary England 
how that could happen, and no one knows.
    But regardless of that, some of the misinformation from 
that analysis has left people wondering whether the 767 is a 
plane that your forces would be willing to fly. And I wanted to 
ask you specifically if you have an opinion about the Boeing 
767.
    General Blum. Well, I am probably the least qualified 
person to comment on that, but I think General McKinley could 
probably offer a more credible opinion on that.
    Senator Murray. General.
    General McKinley. Ma'am, we are under advice that while the 
contract is under protest, the order is under protest, that we 
are supposed to leave it at that.
    So all I can tell you is we have 17 great KC-135 units in 
the Air Guard. They fly great missions. They are looking for 
new equipment. That equipment is very old and needs to be 
replaced very badly.
    Senator Murray. Okay. Well, let me change directions a 
little bit.
    General Vaughn, I had a question for you. I know that the 
psychological issues for our men and women who are returning 
are something that you care about. And I saw that in February, 
the Army released the MHAT-5 report that had a number of 
findings. Some of them were them more positive; some were more 
troublesome. And I was pleased to see that the report said 
morale had increased throughout the ranks of the Army and that 
stigma had decreased for mental healthcare.
    But I was alarmed to see that the suicide rates for 
soldiers who were deployed to Iraq and Afghanistan were up. 
Additionally, that report found a significant increase in 
mental health problems for soldiers deployed to Afghanistan.
    Could you comment a little bit on whether this transition 
to heavy use of the National Guard and operational forces has 
had an impact and what you think we should be doing?
    General Vaughn. Thank you, Senator Murray. Yes, I think 
there is no question it has had an impact, and we are all 
disturbed by the numbers. But it is the stress that probably 
all of us, all services, find ourselves in today with the 
repeated use, and this is what the Nation has asked us to do.
    Now, how do we fix it and what things can we do? I think 
the thing that you may have alluded to--and I had a sister that 
has coached me for years in head injuries. So my concern, after 
the last couple of trips, was with all of the soldiers, 
sailors, airmen, and marines that had taken repeated blows and 
there were in incidents that we had no record of. And so I said 
when I look back at this in the Guard and Reserve especially, 
our soldiers come back and then they return to the civilian 
populace. They are not on active duty any longer. Rather than 
them having to come forward, why is it we cannot do something 
in the integration piece and at 30-, 60-, 90-day checks? And 
then you ask yourself, well, who is it that is going to be 
doing that?
    And when we look around, I think long-term, if we are 
looking at something that is kind of like the Agent Orange 
piece, you know, the Vietnam war, then we should have a 
database on all these soldiers who took these repeated blows in 
a blast or whatever it is, which is an operational nature. What 
I am saying is if they are hurt, they are already captured and 
in the personal side of the medical records, and that is 
protected. But if we did something operationally that said, 
when that soldier comes back for redeployment and if he goes 
through the demobilization station, perhaps the State needs to 
be there with us. Every State probably will handle this a 
little bit differently, but there are head injury counsels out 
there that I think ultimately are going to be kind of the case 
managers and folks that move them in various directions.
    I think our responsibility--and I have had this discussion 
with the hospitals in Afghanistan and Iraq and I have had this 
with the senior leadership in the Army. I think our 
responsibility is to accumulate that track record on each one 
of those soldiers.
    Senator Murray. And that is not being done currently?
    General Vaughn. Ma'am, that particular piece for the Army 
National Guard is not being done currently. And to me it is a 
command responsibility to report it in through chains and for 
us to be able to give it to our great adjutant generals out 
there and get it in to the interagency community of that State. 
And then we will figure out which direction they need to go.
    But rather than them swimming upstream with a stigma and 
saying I have a problem, we ought to know whether this soldier 
is likely to have a problem. And when they look at that, there 
is a database that says, oh, yes, you were this, this, this, 
and this. And that is what we are trying to work right now.
    It is an emotional issue to us, and we have tried to attack 
this, and we are going to keep pushing it. And we would like to 
have all the help we could get.
    Senator Murray. What are the barriers? What can Congress do 
to help you with that?
    General Vaughn. A barrier for us--and I will just be very 
open with this and ask the Chief to throw in, if he wants to. A 
barrier for us is the command relationships with our 
organizations that are deployed today. Our units are spread out 
over such a big area that if our brigades and the command 
relationships were in place where they had command and control 
and the reporting chains were all there, we could get them to 
report this data up through the chains to us. But as it is, 
they are segmented all over the place.
    This is going to take some work, and it will not just be 
Army and Air Guard and the other the Reserve components. It 
will also be the other active soldiers that do not go through 
the 20 years that are not really, really hurt that is going to 
come back into the State environment. So we need to take care 
of it for everyone for good.
    Senator Murray. General Blum, did you want to comment?
    General Blum. I would just add my solid support for that.
    What General Vaughn says is absolutely correct. It is a 
challenge for the Army Guard to document whether Specialist 
Winkowski has been exposed to one improvised explosive device 
(IED) or two IEDs or three IEDs. I do not know. His chain of 
command would know.
    Senator Murray. He just said two? You were exposed to two?
    General Blum. So that is two. That needs to be recorded 
someplace.
    Senator Murray. Was that recorded anywhere for you?
    Mr. Winkowski. I do not know.
    General Blum. He does not know and we do not know, but that 
is information that is very vital to know if we are going to 
understand what we----
    Senator Murray. Well, everything we are being told is that 
symptoms can occur 1 year, 2 years, 3 years later. I thought we 
were asking the question when soldiers came home if they had 
been in the vicinity of an IED. We are not doing that?
    General Vaughn. Ma'am, we are asking that question, but for 
all the right reasons, tough folks want to get home to their 
families, all these things, and plus they miss several of them. 
And then they ask the question, they say, oh, by the way, who 
else was in there with you? And so we need to be accumulating 
this for the soldiers.
    General Blum. Nobody is refusing to do it and nobody does 
not want to do it. We do not have a good system to do it yet. 
We are struggling to do this. This is hard to do for the active 
force. It is even more difficult for the Army National Guard 
because of the unintended consequences of breaking--the way we 
are employing our units today needs to be looked at hard. 
General Vaughn and I are working with Army leadership on this 
because one of the unintended consequences of the way we are 
desegregating our leadership from our units, once we send them 
overseas, in some cases makes what we are describing here an 
almost impossible task.
    So we are not condemning anyone, but this is a problem that 
we must address as senior leaders, and I think this is for the 
Army to fix for the soldiers. And when I am talking about the 
Army, I am talking about the total Army, active, guard, and 
reserve, soldiers I am talking about are active, guard, and 
reserve soldiers.
    Senator Murray. Well, thank you. I am way over my time. 
Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    We are very proud of the fact that in Camp Shelby, 
Mississippi, near Hattiesburg there is a National Guard 
training facility. The Army has been there for quite a while, 
since World War II. As a matter of fact, Senator Inouye was 
sent there for initial Army training before he was deployed in 
World War II. So there is a rich tradition and heritage that we 
honor at Camp Shelby.
    Camp Shelby is now engaged in a total immersion training 
program where they have villages and buildings that resemble 
the facilities that you will encounter in the combat zones that 
we have been involved in Iraq and Afghanistan and other places 
around the world.
    The point I am making here is that just recently they had a 
tornado that came through there and tore up some of those 
buildings, damaged some of them severely. And we have asked for 
supplemental funding to repair those and restore those 
facilities so they can continue to be used.
    Is it the plan of the Army National Guard to continue to 
use Camp Shelby as a training facility for guardsmen who are 
being deployed?
    General Vaughn. Senator Cochran, absolutely. When you look 
at the premier facilities all the way around and what generates 
combat power, especially for our brigade combat teams, Shelby 
handles large formations. As you know from the museum out 
there, you can see who all has gone through there. It is just a 
fabulous place and we intend to put the kind of resources that 
it takes to continue to keep that going within our limited 
capabilities. But I also believe that the Army, the big Army, 
the total Army, stood up to do exactly that too. And all we 
need to know is whether something is amiss on that or not 
because we cannot afford for Shelby to be out of step with what 
we are doing today.
    Senator Cochran. Well, I am hopeful and I expect that we 
will include funds in the supplemental to be able to repair and 
put the facilities back in full operation.
    General Blum. Senator, I will take that question for the 
record, but it is my understanding that it has been done. But I 
want to make absolutely sure. And I think General Vaughn is 
right. I think that was done with Army funds. But we will take 
that for the record and we will get it back to you.
    Senator Cochran. Well, thank you very much.
    [The information follows:]

    To date, the Army National Guard has not received any 
federal funds to repair the damage to Camp Shelby caused by a 
tornado on March 4, 2008. This tornado caused extensive damage 
to facilities, including three barracks (36-soldiers capacity) 
and one latrine all of which had to be torn down due to safety 
concerns. The latrine facility was critical since it served a 
block of buildings and rendered them un-usable. The impact was 
a loss of capacity to house soldiers. Work-arounds were 
accomplished by immediate repair where possible, relocation of 
soldiers, and continued use of the minimally damaged buildings. 
One headquarters building and office facilities also incurred 
tornado damage. Emergency or temporary repairs have been 
performed on all facilities to mitigate immediate safety 
hazards. These repairs were completed by diverting scheduled 
maintenance and repair funds. Only the most critical of repairs 
were completed. Funding estimates to repair tornado damage 
include $11.5 million in Military Construction funds and 
$866,000 in Operations and Maintenance funds.

    Senator Cochran. Well, it is a high honor to be a host in 
Mississippi to such a good training facility. I remember when 
my son trained down there when he was in the 155th Combat 
Brigade, a tank platoon leader, in preparation of going to 
Kuwait to deal with that situation. He called me up and he 
said, Dad, I am not sure our training is going to be complete 
by the time that thing is over over there. I think I need to be 
transferred to a unit that is going. And I said, well, I cannot 
do anything about that. The Army knows where they want you. And 
he said, well, I will call Congressman Montgomery then.
    Well, one other thing that I just want to comment on and 
that is the recruiting and retention by the Army National 
Guard. It has been very impressive, particularly at a time when 
deployments to hostile areas and serious combat may be 
involved. I know your recruits have been deployed multiple 
times in support of our national security interests, and I want 
to commend you for the quality of the leadership you have 
provided to these men and women. We are very proud of them in 
our State and they continue to engage in training and are 
serving out their commitments. They are not dropping out. They 
are staying in.
    So at the time when the overall size of the Army Guard is 
growing, are you able to meet your retention goals nationwide? 
I know it is good in Mississippi.
    General Blum. I will let General Vaughn brag about this. 
This is a great success story.
    General Vaughn. Senator, we have met every goal. We set a 
retention factor of 18 percent across the Nation, and we are 
exceeding that. We are much younger than we have been because 
we are attracting so many youngsters, and they are obligors and 
they are staying.
    So attrition and recruiting--there are two elements of 
this: keeping the folks with you and taking care of them. And 
the biggest piece of that is that the community really, really 
shows their affection for them. Both sides of the aisle--you 
know, they are on the side of the soldiers. And they feel not 
like second-class or third-class citizens. They feel like 
first-class citizens. And our communities and Governors and 
congressional delegations have just taken wonderful care of 
these soldiers when they return.
    Senator Cochran. That is reassuring and good to hear. And I 
congratulate you for the great job you all are doing in making 
this happen. Leadership makes a difference.
    General McKinley, I know you are probably aware that the 
186th Air Refueling Wing currently flies KC-135 tankers out of 
Key Field in Meridian, Mississippi. In the base realignment and 
closure process in 2005, these aircraft were reassigned to 
another base. But the Air Force, as I understand it, is 
considering replacing those tankers with joint cargo aircraft, 
but it may not be in time to avoid a gap in the training that 
will be available to air guardsmen at Key Field.
    I would like for you to look into this and see if there is 
any way to reduce that gap or eliminate it if it can be done so 
that the training of highly qualified flight crews and 
maintenance personnel can continue with real-world missions 
assigned to Key Field.
    General McKinley. Thank you for that question, sir. You 
know we have experienced a lot of mission change as a result of 
base realignment. Meridian has a great history and a great 
record. General Blum has worked very closely with the 
leadership of the Air Force on finding this future mission 
which is the C-27. But we are looking collectively as the 
National Guard Bureau on how to bridge the gap between 2011 and 
2015 when those new aircraft come. So I will make sure we get 
back with you or your staff and let you know how we are 
progressing.
    General Blum. And, Senator, you need to know that the 
intent--and Senator Dorgan knows this well because we worked 
his issue early, starting about almost 3 years ago. We had to 
take out the oldest F-16s because of base realignment and 
closure (BRAC) out of North Dakota, and they were not going to 
get the C-27 aircraft in time for it not to be a gap. So we 
arranged a bridge mission for that unit, and we will do the 
same thing for Meridian.
    I have made a commitment to all of the adjutants general 
and Governors that we do not want--we want this to be like a 
relay race or a baton pass where we do not let go of the baton 
until someone has grabbed it. We do not want a gap and drop it. 
If we do that, it will be very costly in terms of recruiting, 
retention, and resources to reestablish that unit after it has 
been disestablished. So it would be much better to have a 
bridge mission to transition it from what it used to be to what 
it is going to be, and we are committed to doing that with you, 
as well as the other States.
    Senator Cochran. Thank you very much.
    Senator Stevens. Senator Domenici.
    Senator Domenici. It is nice seeing all three of you again.
    General Blum, last year a GAO report studied the National 
Guard domestic equipment requirements and readiness and 
indicated that the nondeployed Army National Guard forces in 
New Mexico did not rank very high. As you recall, they ranked 
the last in the Nation in equipment readiness with less than 40 
percent of the total amount of dual-use equipment they were 
authorized to have for warfighting missions.
    Since that report, it is my understanding that things are 
better. The dual-use equipment availability has increased to 61 
percent. According to your posture statement, it looks as if we 
are slowly going in the right direction. Is that correct?
    General Blum. Yes, sir, that is correct. And it is because 
of the extremely helpful assistance we got from this 
subcommittee and the Congress with the National Guard and 
Reserve equipment account. We were able to literally put the 
capability and the capacity exactly where we needed it. We were 
able to apply that $800 million that Congress appropriated and 
authorized last year for the National Guard and Reserve 
equipment account, and New Mexico was one of the beneficiaries. 
You are now at exactly the same as the national level. You are 
coming up at the same rising tide as the rest of the Nation.
    Senator Domenici. How does the 2009 budget request address 
this situation?
    General Blum. If additional resources or funds were made 
available, we could apply them to accelerate moving from the 60 
percent level or the mid-60 percent level where we are and we 
could probably increase that in terms of quantity and quality 
by a rough order of magnitude of 10 percent by next year, which 
I think is probably very useful to do.
    Senator Domenici. I do too.
    The National Guard's role in border security. General, 
again, Operation Jump Start will end this June. We really 
appreciate the fine work that was done by our guardsmen and 
women in supporting Department of Homeland Security (DHS) on 
the border security mission. I also want to thank you for your 
support of our communities and the law enforcement agencies 
with the counterdrug program.
    Can you tell us a little bit more about the National 
Guard's work as part of Operation Jump Start and its 
counterdrug work?
    General Blum. Those two are separate programs, Senator, as 
you well know, but they are somewhat related.
    Senator Domenici. Right.
    General Blum. Before Operation Jump Start ever happened, we 
were on the Southwest border for about 20 years largely through 
the counterdrug program. Lots of good things were done that 
have beneficial effect with some of the issues that the 
Governors and the President had to deal with with our 
international border and our State borders down there.
    Operation Jump Start was a limited operation that was only 
supposed to last 2 years and only funded and authorized for 2 
years. It will come to conclusion in July. We have met and 
exceeded everyone's expectations, the Governors', the 
President's. Everyone is happy with it and we will complete 
that mission at the end of July.
    That does not mean that you will not see the National Guard 
on the Southwest border of the United States. We were there in 
two legitimate ways for many years before Operation Jump Start, 
and I think we will probably be there for the foreseeable 
future, probably using those two programs again.
    One of them is the innovative readiness training program 
that is run out of the Department of Defense where all of the 
Reserve chiefs that were here this morning and us send our 
soldiers, sailors, airmen, and marines to go down there and 
actually practice and perfect their military skills in a way 
that is useful to also helping secure the border and improve 
the infrastructure along the border which helps secure the 
border.
    The second program is the counterdrug program. If the 
counterdrug program were fully authorized and fully funded, it 
could do even more than it is doing right now. And what it is 
doing right now has a very beneficial and synergistic effect 
for border security as well as interdicting illicit drugs and 
people that are trafficking through the border.
    Senator Domenici. General, are you saying that when Jump 
Start ends, there are still some programs, aside from just a 
general involvement, that will perhaps be used on the border 
until it is better taken care of by the fully operational 
Border Patrol activities?
    General Blum. I am not sure I would say it exactly that 
way. I am saying that the National Guard will be involved in 
the counterdrug program in California, New Mexico, Arizona, and 
Texas for sure even after Operation Jump Start is over. And I 
think you will see the Guard and Reserve specialized units, 
engineers, medical communications. The same people that you saw 
for 25 years in the past will probably return to that vicinity 
to do their training which has a synergistic beneficial effect 
as well. But it will not be Operation Jump Start. Jump Start 
was a very limited operation authorized for a specific purpose.
    Senator Domenici. A number of Governors on the border have 
officially asked us to extend Jump Start, and I do not know 
that that is going to happen. But the reason I am inquiring of 
you is what is it going to look like if Jump Start is not 
there. And my understanding is that in an ad hoc way you are 
still involved. You are asked to do things and you do them, but 
it will not be Jump Start.
    General Blum. I think that is an accurate and fair way to 
phrase it. I really do.
    Senator Domenici. Thank you very much.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Well, thank you very much. I believe I am 
last, so I will be mercifully brief. You have had a long 
morning, and I have not been able to be at all of the hearing.
    But I wanted to ask just a couple of questions. One is 
about--well, first of all, I should thank all of you. I will be 
Saturday in Grand Forks, North Dakota, at a coming home 
ceremony for some soldiers that are on their way back from 
their mission in Afghanistan. And all of us do that frequently 
to thank soldiers and their families, especially their families 
who carry on while they are gone. It is always a source of 
great pride. So thanks to the men and women of the Guard and 
Reserve.
    The Air Guard units--particularly in Fargo, the Happy 
Hooligans, of course, are now flying Predators. I am told that 
the Air Guard Predator units are manned to operate one Predator 
unit 24 hours a day, 7 days a week. That is the way they are 
staffed. I am also told that they are now operating two orbits 
with essentially that same staffing. That is a substantial 
tempo for them. Can you tell me what the background is on that 
and will that be relieved at some point?
    General McKinley. Senator, thanks for your support. 
Secretary Gates has testified that the need for increasing ISR 
capability is very necessary. So he has asked the Chief of the 
National Guard Bureau and me to ramp up the training in the 
units that have the Predator in the Air National Guard, as a 
result of base realignment, to pick up the tempo to be fully 
mobilized to do as many airborne combat air patrols as possible 
to help the soldiers and marines on the ground.
    The Hooligans have stepped up in a great way, as well as 
our other units who fly the Predator.
    This mission will probably transition itself from MQ-1 
Predator to MQ-9 Reaper because it will give the combatant 
commander more fire power on the ground overseas. So that 
demand signal has been given. The North Dakota Air National 
Guard has stepped up. It is going to increase and I do not see 
this tempo lessening, Senator, for the foreseeable future.
    General Blum. The good news, Senator, is it works so well. 
The guys like Senator--I mean, Specialist--maybe a future 
Senator, but right now Specialist Winkowski--he depends on them 
greatly to identify who is placing the IEDs, where they are 
placed, who is manufacturing these vehicle-borne IEDs and 
ground-buried IEDs. In an unclassified setting, I will tell you 
they are enormously effective in saving the lives and reducing 
the suffering of our American soldiers deployed. So anything 
that we need to do to provide more orbits for the people in the 
field right now we are doing.
    Senator Dorgan. I had heard reported a statement by 
Secretary Gates. The way the report came out, it seemed to 
imply some concern about the Air Force. I think the Air Force 
and the Air Guard are involved in putting almost everything up 
that they have got and doing, I think, by all accounts of other 
services, a terrific job. I checked too and my understanding is 
that reporting is not exactly what the Secretary of Defense had 
in mind. I think the Secretary of Defense is, from my 
understanding, pleased with the tempo and the work done by both 
the Air Force and the Air Guard with respect to UAVs. This is a 
new part of the Air Force in many ways, used in a new way as 
well.
    I want to ask about the joint cargo aircraft because you 
talked about the bridge with Senator Cochran, I believe, on 
that issue. The budget documents that we have say the Air Force 
plans to buy 24 joint cargo aircraft between 2010 and 2013. And 
I think that there are a number of Guard units that are 
candidates to receive the joint cargo aircraft.
    Can you tell me what we will expect? I mean, we involved 
with you I think several years ago--3 years ago now. What do we 
expect with respect to the Air Guard in Fargo and the Happy 
Hooligans with this bridge mission?
    General McKinley. Chief, thanks. If I could just carve out 
the Air National Guard piece of this. Right now in the Air 
Force budget, there are 26 C-27s in the budget, and the 
allocation right now--we have six units that have been 
designated as receivers of those aircraft, thereby making the 
math easy for four planes per unit on the Air National Guard 
side. And General Vaughn, obviously, is going to get a tranche 
of airplanes for the Army National Guard.
    Senator Dorgan. I understand it then. I was trying to 
reflect those numbers in terms of what General Blum and I had 
talked about previously.
    Well, Mr. Chairman, I will perhaps submit some other 
questions.
    But again, I make one additional observation, and that is 
this. The National Guard has done just a terrific job. I do 
think that now, over a period of a number of years, 5 and going 
toward 6 years, that frankly we are using the National Guard in 
a way that was not previously intended. And that works for a 
while. I mean, you can move things around and units around. It 
will work for a while.
    But I do think that multiple, repeated deployments will--I 
think there is a huge price for that at some point because the 
National Guard is capable of it, but it is not constructed to 
do that. And I think my hope is, as I think the hope is of 
everybody in this Congress, we are able to extract ourselves 
from this war at some point soon. But I also hope that we 
understand, when we get back to more normal times, the specific 
mission of the National Guard.
    General Blum. Senator, if we do not change how we man the 
force with full-time manning and allow over-strength for the 
units for the part-time manning or the traditional guardsmen, 
if we do not equip the Guard to be an operational force and we 
do not resource them and train them to be an operational force, 
then what you said is exactly right. If we do those three 
things, I think we can sustain the volunteer force and the 
citizen soldier indefinitely, particularly if we are allowed to 
grow capacity so that we are not turning the units and the 
individual soldiers as fast as we are today.
    Senator Dorgan. But the short answer to that is we are not 
meeting those needs. There are shortfalls in the percentage of 
equipment that is necessary for the various units. We are 
regrettably not having the resources to make that full 
commitment.
    General Blum. We cannot do things the same old way and use 
the Guard in a whole new way and make it work and sustain it. I 
agree.
    Senator Dorgan. Well, I thank all three of you for your 
leadership.
    Mr. Chairman, thank you for your time.
    Senator Stevens. Thank you. Thank you very much.
    I have sort of restrained myself a little bit here on 
questions today. So I will submit most of the questions.
    But I do want to ask you two things. General McKinley, I am 
told the Alaska Air Guard has the second lowest manning level 
in the Air National Guard. And they are working with the Guard 
Bureau to try to find the personnel to support the C-17 mission 
that is coming there. What is the situation? Are we going to 
have the planes and no people to fly them?
    General McKinley. Sir, General Campbell and I are working a 
plan right now to make sure we put our main effort on the C-17. 
It is critical. It is vital to our Nation. There are ways for 
us to adjust manpower in Alaska. I will be coming to the Chief 
of the Bureau with several courses of action here shortly, but 
it is a high priority. In fact, we have a team in Alaska today 
working those manpower issues with the adjutant general. So I 
share your concern. We are looking for ways to solve those 
issues, and I think we will be able to alleviate the stress.
    Senator Stevens. Well, General Blum, when I asked General 
Campbell about it, my staff and I, we were told there is a 
concept of cross-balancing manpower. Now what is that? I do not 
understand that.
    General McKinley. What we need--and it is an Air Force 
term. What we are looking for is a balance of possibly active 
duty manpower working with Guard manpower to alleviate the 
immediate shortfalls. Working with General Lichte at Air 
Mobility Command, we are looking at all those options. And I 
have not brought to the Chief what our courses of action are, 
but believe me, it is number one on my list.
    Senator Stevens. We are planned to move the Guard unit onto 
Elmendorf Air Force Base. Will that assist at all in this 
concept?
    General McKinley. Well, as you know, sir, that move from 
Kulis to Elmendorf is as a unit, and it has integrity of its 
own right. And we cannot rob manpower from it or we will have a 
similar crisis with another unit. So I think as I bring these 
courses of action to General Blum, we will give several ways to 
remediate this and then we will pass them on and make sure they 
are coordinated with General Campbell.
    Senator Stevens. Okay.
    General Vaughn, I am told that Alaska Army National Guard 
recently transformed the 207th Infantry Group to the 297th 
Battlefield Surveillance Brigade. Now, can you tell us how this 
new mission will improve the role of the Guard as far as its 
support capabilities?
    General Vaughn. Absolutely, Senator. The battlefield 
surveillance brigades are very needed and valuable 
organizations. They have a military intelligence capability but 
they have a scout capability that fits a lot of the kinds of 
structure that we originally had up with the famous 207th Scout 
Group. And so when we looked at the conversion piece, because 
it is a brigade level formation, we looked at it and we thought 
that fits pretty well. That fits Alaska. We talked to the 
adjutant general of Alaska and everybody agreed with that. And 
I think it is a phenomenal piece of structure.
    General Blum. It is a much more capable unit, Senator 
Stevens, and it places strength that has historically been 
demonstrated by Alaska Army Guard. We did the same thing in my 
home State of Maryland, taking the infantry brigade and turning 
it into a battlefield surveillance brigade, far more useful to 
the Governor and far more useful to the United States Army. 
They are a modern, 21st century capability. They really are.
    Senator Stevens. As I said, I have got a bunch of 
questions. I will submit them.
    Let me ask you just generally. How is recruitment and 
retention in our State in Alaska?
    General Vaughn. Excellent. Senator, recruitment and 
retention in Alaska pretty much goes the same all the way 
across the Nation. It is the same phenomenon of youngsters 
stepping forward to serve their country. But it is excellent. 
They are doing great. I was concerned a couple of years back, 
and I think we have just done wonderful.
    Senator Stevens. I was told that one of the units 
reenlisted 100 percent. Is that correct?
    General Vaughn. That is correct. We had some time to visit 
some units that were doing some phenomenal things in 
Afghanistan, for instance, and it just makes you so proud to 
see, regardless of where they are from. But they reenlisted 100 
percent of their soldiers.
    Senator Stevens. Thank you.
    General Blum. When the history of Afghanistan is written 
and brought up to currency, you are going to be quite proud of 
what the Alaska Army National Guard did, particularly down in 
Kandahar. The City of Kandahar may be in the right hands today 
because of the Alaska Army National Guard's contribution, 
frankly.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Well, thank you. I am going to see them 
soon. I will be happy to pass on your comments, General.
    We thank you, General Blum, General Vaughn, and General 
McKinley, for your testimony. I thank everyone today for their 
cooperation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
       Questions Submitted to Lieutenant General Clyde A. Vaughn
            Questions Submitted by Senator Daniel K. Inouye
                 army national guard: ``active first''
    Question. General Vaughn, the Army National Guard has initiated a 
new recruiting program called ``Active First'' which targets new 
recruits who would serve on active duty for a period of time, and then 
transfer to the Army National Guard. Participants can receive bonuses 
of up to $60,000 depending on the length of their commitment. How is 
this program coming along?
    Answer. The program is moving ahead of schedule. Our fiscal year 
2008 goal was to provide the Army with 1,600 Soldiers. We are on target 
and should have these Soldiers transitioned on or before September 1, 
2008. The program kicked off on October 1, 2007 and the first Soldier 
completed his Initial Entry Training (IET) and transition into the 
Active Army was on February 22, 2008. As of June 3, 2008, 86 Soldiers 
have completed their IET and transitioned into the Active Army. There 
have been 1,923 Active First enlistments with 1476 scheduled to access 
into the Active Army.
    Question. Is it meeting expectations?
    Answer. Yes. In order to fully evaluate if the program is meeting 
complete long term expectations, we must wait until the Soldiers return 
to the Army National Guard (ARNG). The program has two expectations: 
one is service in the Active Army and the second is to return as a 
drilling member of the ARNG. The program is unique in that the Soldier 
enlists for eight years without the ability to go into the Individual 
Ready Reserve (IRR). The Soldier must either return to a drilling unit 
in the ARNG or reenlist in the Active Army. Our expectation is that 
between 65 to 70 percent will return to an ARNG unit.
    Question. The Army National Guard has initiated a new program 
called ``Active First'' which is designed to fill up its ranks with 
prior service Soldiers.
    Recruits who enlist under this program serve in the National Guard 
until they complete their initial entry training (basic training and 
job training) and are then transferred to the Army for active duty for 
the time period specified in their enlistment contract (30, 36 or 48 
months). After their active duty period, then can either re-enlist on 
active duty, or serve the remainder of the obligated service in the 
Army National Guard.
    In the past, many Soldiers traditionally enlisted in the Army 
National Guard after serving on active duty. In fact, in years past, 
the Army National Guard got more than 60 percent of their new enlistees 
from prior service Soldiers. However, in the past five years, this 
percentage has dropped by half, most likely because National Guard 
units deploy much more often these days.
    National Guard officials hope this new program will recruit as many 
as 2,000 Soldiers, and expect to see as many as 1,400 of them return to 
the Guard after their active duty period.
    General Vaughn, what factors led to this program being developed 
and offered to new recruits?
    Answer. There were several factors that led to the development of 
the Active First recruiting program. First, the Army National Guard 
(ARNG) was exceeding our end-strength goals and beginning to reach our 
Congressionally-mandated ceiling. This was a means to continue the 
recruiting momentum and also provide a cost-effective means to help the 
Active Component in attaining their ``Grow the Army'' objectives. The 
word ``cost-effective'' is used because the costs associated with the 
program were primarily an opportunity cost. The ARNG managed to recruit 
the Active First Soldiers without adding any additional resources to 
our manpower or to the Army training base. This is of great benefit to 
the taxpayer because the single greatest cost associated with 
recruiting is the expense of our full-time recruiting force, of which 
the ARNG did not add any additional recruiters.
    Secondly, this program supports the continuum of service that the 
Army is trying to attain. Our formations will benefit from the 
experience an Active First Soldier will bring back to the ARNG when 
they return from the Active Component. By allowing our applicants to 
select a choice of going Active First we are also building a future 
base of Soldiers that will return to their communities already duty 
qualified.
                   army national guard--end strength
    Question. General Vaughn, the Army Guard plans to finish fiscal 
year 2008 with 358,200 guardsmen. This is 7,000 more than budgeted and 
is equal to the entire end strength growth planned for the Army Guard. 
Does the Guard intend to continue growing in fiscal year 2009?
    Answer. The Army National Guard (ARNG) has clearly demonstrated the 
ability to grow beyond 358,200 Guardsmen. The Department of Defense 
authorized the ARNG to grow beyond the fiscal year 2008 351,300 
congressionally-authorized and budgeted end strength in accordance with 
the ``Accelerated Grow the Army'' plan supported with the Office of the 
Secretary of Defense-directed reprogramming and supplemental funding. 
This increased authorization leverages the demonstrated momentum of the 
ARNG recruiting force to meet mission manning and readiness 
requirements to support a nation in an era of persist conflict. The 
sustainment of this end strength above the approved Grow the Army ramp 
of 358,200 in fiscal year 2013 is tied directly to continued 
supplemental funding as are each of the other Army components Grow the 
Army plans. To continue to leverage the momentum demonstrated by the 
ARNG, additional funding via supplemental budgets, while substantiating 
the current authorization (358,200) in the base appropriation is 
required.
    As the ARNG Force Structure Allowance (FSA) approaches steady state 
of 358,000 in fiscal years 2010 and 2011, continued end strength growth 
beyond 358,200 will permit the ARNG to address the challenge of having 
the ARNG training pipeline embedded within the operating strength. 
Creating a ``Recruit Sustainment Program'' for end strength above the 
FSA, similar to the Trainees, Transients, Holdees, and Students (TTHS) 
personnel accounts presently in the other Army service components, will 
allow the ARNG to fill the entire operating force with trained 
deployable soldiers to meet mobilization readiness requirements and 
support the transition of the ARNG to an Operational Reserve.
    Question. And how does the Guard plan to pay for the additional 
guardsmen recruited this year?
    Answer. The current level of Army National Guard (ARNG) bonus 
execution at $700 million includes contractual payments for student 
loans, statutory anniversary payments for prior-year accessions, 
critical wartime medical bonuses, and foreign language incentives. To 
resource both non-discretionary bonus payments and to support new 
incentive programs authorized by Congress, the ARNG implements cost 
controls to pinpoint bonuses to force shaping requirements.
    fiscal year 2005 was the first year the ARNG received supplemental 
Recruiting and Retention (R&R) funding and by the beginning of fiscal 
year 2006 those funds along with new recruiting strategies began to pay 
off. Since supplemental funding began the ARNG has demonstrated a 
unique ability to grow its end strength. In fiscal year 2006 the ARNG 
recruited over 19,000 more Soldiers than it did in fiscal year 2005, 
demonstrating that when resourced, the ARNG can meet its recruitment 
and retention targets in a wartime environment. With the recruiting 
successes, both the dollar bonus amounts and eligible recruiting 
populations have increased due to congressional support. In order to 
maintain our current momentum and achieve accession targets at 65,000 
per year, recruiting bonuses must be fully funded to support an 
operational end strength sustainment environment.
    ARNG recruiting bonus costs will maintain a steady state to fiscal 
year 2007 spending. ARNG bonus program growth levels off at fiscal year 
2007 spending after recent National Defense Authorization Act bonus 
amount increases. We do not project a significant increase in bonus 
takers in out-years. It is significant to note that the ARNG requested 
bonus costs for the Program Objective Memorandum 2010-15 are 60 percent 
less than the active component cost for approximately the same number 
of recruits (65,000 vice 71,000).
    Question. The Army's Grow the Force plan had the Army Guard 
increasing by 1,300 soldiers per year. The Guard's actual end strength 
growth has far exceeded the budgeted Grow the Force plan. The Guard 
expects to finish fiscal year 2008 with at least 358,200, which is 
7,000 more soldiers than budgeted and equal to the Guard's final end 
strength under the Grow the Force initiative. The Guard will not say 
whether they plan to keep growing.
    To achieve this growth the Army Guard continues to spend large sums 
of money on recruiting. In fiscal year 2007, the Army Guard spent $417 
million on recruiting bonuses out of a $7 billion military personnel 
budget. In fiscal year 2008, the Guard is planning to spend $720 
million on recruiting bonuses. In fiscal year 2009, the Guard has 
requested $373 million with presumably a large request in the 
supplemental.
    The Army Guard has not yet provided an estimate of the cost of 
these additional personnel in fiscal year 2009. In fiscal year 2008, 
the additional personnel costs are minimal because most recruits are 
still awaiting basic training.
    General Vaughn, after falling short of recruiting goals in fiscal 
year 2005, the Army Guard has turned around its recruiting efforts but, 
to achieve this, the Guard is spending over $700 million per year on 
recruiting bonuses. Are you concerned that this cost is unsustainable?
    Answer. The success of the Army National Guard (ARNG) recruiting 
program is a direct result of a whole program approach. While bonuses 
and other monetary incentives are a significant part of the program, so 
is our innovative marketing and cutting edge recruiting philosophy.
    The current level of ARNG bonus execution at $700 million includes 
contractual payments for student loans, statutory anniversary payments 
for prior-year accessions, critical wartime medical bonuses, and 
foreign language incentives. To resource both non-discretionary bonus 
payments and to support new incentive programs authorized by congress, 
the ARNG implements cost controls to pinpoint bonuses to force shaping 
requirements.
    ARNG recruiting bonus costs will maintain a steady state to fiscal 
year 2007 spending. ARNG bonus program growth levels off at fiscal year 
2007 spending after recent National Defense Authorization Act bonus 
amount increases. We do not project a significant increase in bonus 
takers in out-years. It is significant to note that the ARNG requested 
bonus costs for the Program Objective Memorandum 2010-15 are 60 percent 
less than the active component cost for approximately the same number 
of recruits (65,000 vice 71,000).
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin
                             blast injuries
    Question. Veterans from Iraq and Afghanistan are coming home with 
higher rates of traumatic brain injuries (TBI), post-traumatic stress 
disorder (PTSD), and depression, among other physical and mental 
wounds. One in five suffers from TBI. One in five suffers from PTSD. I 
introduced TBI legislation last year that was enacted as part of the 
Wounded Warriors title in the fiscal year 2008 Defense Authorization 
Act that requires routine brain injury screening tests for military 
personnel. I was disturbed to learn that the Army National Guard is not 
tracking soldiers' exposure to blasts in Iraq. This information would 
be very valuable in assessing and treating TBI in returning service 
members.
    To what extent do you plan to track the incidence of blasts 
soldiers are exposed on the battlefield?
    Answer. The Army National Guard (ARNG) plans to be as proactive in 
this critical area as possible and we thank you for asking the 
question. The ARNG is currently developing and executing a reporting 
process to identify and track all blast exposed Soldiers. The intent is 
to track every Soldier immediately after the event occurs. This system 
will not be tracking Soldiers that have been seen by the medical system 
as they are fully covered and cared for. The Soldiers we will track 
have been exposed to these events (some multiple), not sought medical 
care, and may be at risk for future medical problems both while in 
theatre and after redeployment due to the event. Following up with 
these particular Soldiers will allow for early identification of 
potentially related issues to include traumatic brain injury and post-
traumatic stress disorder and aid in providing needed support to all 
Soldiers, Families, and Employers.
    The result will enable the force to more accurately forecast the 
potential needs related to services in the future. The ARNG will be 
able to identify trends in blast exposure and their impact on Soldiers 
and Families and the force and what programs may be needed their 
futures.
    I have directed all deployed ARNG units to collect and report data 
on Soldiers exposed to blasts. Commanders will have the discretion to 
determine which Soldiers should be included based on their proximity to 
the blast. The intent is to capture data on Soldiers that do not seek 
immediate medical treatment, but may have been impacted by the blast. 
This data will be used to follow up with individually impacted Soldiers 
in theatre and will be maintained in an ARNG database that will be 
provided to states upon redeployment of ARNG units. States will partner 
with appropriate civilian agencies to provide Soldiers with needed 
services, but at a minimum will follow up with Soldiers during the 30, 
60 and 90 day reintegration events.
                                 ______
                                 
        Questions Submitted to Lieutenant General H Steven Blum
            Questions Submitted by Senator Daniel K. Inouye
                        civil support readiness
    Question. General Blum, recent GAO reports have addressed the 
Guard's readiness for civil support missions. According to GAO, the 
Guard is resourced and prepared for average state level events but does 
not have adequate guidance nor planning for a medium to large scale, 
multi-state domestic emergency. What is the Guard doing to improve its 
preparation for these types of events?
    Answer. The National Guard is improving its preparation for 
responding to a medium to large scale, multi-state domestic emergencies 
by conducting exercises titled ``Vigilant Guard'' which reinforces that 
all incidents are local. These exercises demonstrate the capabilities 
of the National Guard Joint Force Headquarters and the Emergency 
Management Assistance Compact--a process where Governors reach out to 
other Governors for more assistance. Specific National Guard homeland 
defense capabilities include the National Guard Reaction Forces, 
Weapons of Mass Destruction (WMD) Civil Support Teams and the Chemical, 
Biological, Radiological and Nuclear Enhanced Response Package teams.
    States that have participated in Vigilant Guard Exercises include 
Tennessee, Missouri, Georgia, Illinois, Indiana, South Carolina, 
Florida, Virginia, North Carolina, and Ohio. States planning to 
participate in future Vigilant Guard Exercises include Hawaii, Nevada, 
California, Guam and Iowa.
    The National Guard Bureau also participates in the National Level 
Exercises (e.g. NORTHCOM sponsored Ardent Sentry), which exercises 
continuity capabilities to include the National Essential Functions, 
Federal Government Essential Functions and to manage emergency from 
dispersed locations. Previous exercises focused on exercising hurricane 
preparedness, response capabilities and responding to terrorist WMD 
threat/attack, to include the integration of Defense Support of Civil 
Authorities.
    These tactical, operational and strategic level exercises allow the 
states and the National Guard Bureau opportunities to capture lessons 
learned in order to improve the processes in which the states plan, 
respond, as well as coordinate additional capabilities and resources 
from other states.
    Question. A recent GAO survey of state adjutant generals (TAGs), 
reported that many TAGs were greatly concerned about their state's 
ability to respond to a medium to large scale, multi-state incident 
while they felt comfortable that their state guard had adequate 
planning and resources to respond to a typical state-level disaster. 
According to GAO, the U.S. government has not adequately planned for 
medium to large scale disasters that require multi-state involvement. 
For this reason, the Department of Defense and National Guard Bureau do 
not have clear guidance as to their roles in these types of events and 
are limited in their ability to plan and equip for these events.
    Detailed state-level emergency response plans exist and help the 
TAGs in planning and equipping for state missions but there is no 
standardized method to track civil support readiness for larger events 
because there is no required table of equipment nor training for civil 
support missions.
    The National Guard Bureau has identified significant Army and Air 
Guard shortfalls in dual-use equipment. These are items that are part 
of the required list of war-fighting equipment but also have civil 
support applications. The Guard estimates the cost to completely 
eliminate this equipment shortfall as $10 billion for the Army Guard 
and $2.5 billion for the Air Guard. However, without clear guidance as 
to the Guard's responsibilities during a multi-state event, it is 
unclear if this equipment requirement is accurate.
    General Blum, GAO has reported that the Guard has not been provided 
with clear guidance on its responsibilities during a medium to large 
scale disaster or other incident. Without this guidance, how does the 
Guard assess its dual-use equipment requirements and prioritize its 
equipment requests?
    Answer. Assessing National Guard Readiness for Domestic Operations 
is a function of understanding the requirement, the required 
capabilities and enablers and management systems for data collection, 
analysis, reporting and information sharing with stake-holders. I have 
asked all 54 State Adjutants General/Commanders to develop a written 
``Joint Combined State Strategic Plan'' that addresses state-specific 
goals and objectives while allowing supporting entities, such as the 
National Guard Bureau (NGB), to have a clear picture of each state's 
external needs. Those assessments are then input to the Joint 
Capabilities Database (JCD). The current authoritative Department of 
Defense (DOD) readiness reporting system, the Global Status of 
Resources and Training System, does not presently assess homeland 
defense missions or emergency response equipment requests by the 
Governors.
    NGB is working closely with the Office of the Under Secretary of 
Defense for Personnel and Readiness as DOD transitions to the new 
Defense Readiness Reporting System to ensure the functionality of our 
JCD is incorporated. The JCD is a complimentary, unclassified, separate 
and unique system of evaluating every state's preparedness for National 
Guard Domestic Operations (NGDO). The JCD captures the readiness of the 
National Guard of every state and territory for Domestic Operations 
missions at two levels: (1) to respond to the most frequent NGDO 
missions experienced over the last ten years, and (2) to respond to 
major catastrophic incidents as articulated in the National Planning 
Scenarios. From this assessment, we've become aware that dual-use 
equipping levels vary from state to state. NGB continues to work 
closely with each state and DOD to ensure critical equipment is pre-
positioned at the optimum locations to ensure maximum effective 
response. If it is in the National Guard, and the Governor needs it, 
they will get it either through national-level coordination efforts or 
through pre-existing state to state Emergency Management Assistance 
Compacts.
                        light utility helicopter
    Question. General Blum, the Army National Guard is slated to 
receive the majority of the new Light Utility Helicopter. However, the 
rising price of that helicopter means that fewer are being requested in 
the President's budget. What effect will slowing the fielding of the 
Light Utility Helicopter have on National Guard homeland defense 
missions?
    Answer. The effect of slowing the fielding of Light Utility 
Helicopter (LUH) (UH-72A Lakota) to the Army National Guard (ARNG) 
would be significant with respect to ARNG aviation support to homeland 
defense missions. However, the Army has ensured the ARNG remains 
positioned early in the Army's overall LUH fielding plan and the 
expectation is that early ARNG LUH fielding will remain true. Required 
aircraft modifications caused some small aircraft quantities to be 
shifted to the out-years, but the Army is addressing those minor 
modifications in the current fiscal years 2010-15 Program Objective 
Memorandum. Additionally, the Army is working to achieve maximum 
production rate within the LUH program. The Security and Support 
Helicopter Battalions (SSHBNs) are currently operating aging legacy OH-
58A/C aircraft. The UH-72A modernizes the SSHBNs and provides an 
enhanced aviation platform to conduct security, support and medical 
evacuation aviation missions and thus better support the National 
Guard's homeland defense requirements.
    Question. The Light Utility Helicopter, or UH-72A Lakota, is a 
commercial helicopter that has been adapted for military use within the 
United States. Its primary missions relate to homeland defense, 
medivac, and movement of small numbers of personnel. The LUH is 
intended to fill these missions in areas with no risk of combat, so 
that the larger, more expensive, and battle-ready Black Hawks can be 
freed up for deployment overseas.
    The price of each LUH rose from $5.3 million to $6.2 million this 
year after early tests found a need to upgrade various equipment. This 
cost growth has reduced the rate at which the Army is procuring the 
helicopters.
    General Blum, the Army National Guard has identified four major 
aviation modernization or upgrade programs: the Light Utility 
Helicopter, the Black Hawk, the Chinook, and most recently, the Apache 
conversions. Since budgets are always limited, how would you prioritize 
those programs?
    Answer. As over 40 percent of the Army's Modified Table of 
Organization and Equipment (MTOE) requirement for helicopters resides 
in the Army National Guard, our reserve component units represent a 
significant portion of the Army's aviation forces available to meet 
National Security challenges. Each of the programs that you mention has 
a distinct and important part in the long-term capabilities of the 
Guard to provide aviation support to the current and future 
warfighters. Because of the discreet mission sets that each of these 
platforms perform it's difficult to put them in a clean-cut prioritized 
list; however, here are the compelling needs for these platforms in the 
order in which they should be addressed.
    The Army National Guard (ARNG) is short more than 18 percent of the 
CH-47s required by our reserve component MTOE units, the largest 
shortage within the National Guard aviation community. While this 
aircraft continues to be in high demand due to its ability to perform a 
myriad of missions in all environments, the ARNG must find ways to fill 
these holes. Additionally, these shortages are exacerbated in the short 
term by the need to take a CH-47D from a unit and induct it into the 
production line to create a CH-47F.
    Four of the eight battalions in the ARNG AH-64 fleet are well on 
their way to being modernized. They are in the process of receiving AH-
64Ds and will then be available for sourcing to the warfight. The 
remaining four battalions need to be accelerated in their modernization 
so that they, too, can be added to the pool of attack helicopter units 
available for utilization in the current fight. The attack community is 
heavily deployed and utilized and these additional assets will 
contribute significantly to our ability to provide aviation formations 
in the future.
    The UH-60 fleet is the largest fleet in the ARNG, but also has the 
most holes in our formations being 113 aircraft short which represents 
over 14 percent of its required numbers. The Blackhawks needed by the 
ARNG predominantly reside within the MEDEVAC community as we try to 
grow the number of MEDEVAC units available for today's deployments. 
Additionally, as the UH-60As first entered service in the late 1970s, 
the modernization of this fleet to UH-60Ls and UH-60Ms is an important 
piece of the ARNG's ability to provide relevant aviation support into 
the future.
    When one talks of ARNG aviation, it's difficult to do so without 
talking about the Joint Cargo Aircraft. It's a critical piece of the 
entire modernization strategy for ARNG aviation and Army aviation in 
general. It is the capabilities of the C-27J that will provide critical 
logistical support for ground commanders well into the future. It is 
also the platform that will provide the ability to divest our 1980 
vintage C-23s and keep this cargo fleet viable well into the 2020s and 
beyond.
    The Light Utility Helicopter (LUH) is the cornerstone of National 
Guard aviation transformation as it has enabled the ARNG to create S&S 
battalions within their Aviation Brigade structure. Its ability to 
satisfy both general support and MEDEVAC aviation missions in 
permissive environments has afforded the Army the opportunity to 
cascade UH-60s to the ARNG in support of the warfight and will also 
enable the Army to divest the remaining legacy aircraft (UH-1s and OH-
58A/Cs).
                                 ______
                                 
      Questions Submitted to Lieutenant General Craig R. McKinley
             Question Submitted by Senator Daniel K. Inouye
                           force realignments
    Question. General McKinley, the Air Guard is undergoing significant 
force structure adjustments as a result of the Total Force Integration 
and BRAC. Many bases have been closed and many units have been assigned 
new missions. These realignments mean that many airmen are being asked 
to either retrain on new equipment, or worse to uproot their families 
and leave their civilian jobs to follow their unit to a new location. I 
understand that this is creating significant challenges in training 
capacity and retention. How is the Air Guard addressing these issues? 
Has the Air Force been supportive in providing the training spaces 
needed to re-train the large number of airmen who have new missions?
Background
    The Air Force is undergoing significant force structure 
adjustments. As part of the Total Force Integration plan, the Air 
National Guard is working to pool equipment and personnel resources 
with the active Air Force to maintain capabilities at a lower cost by 
associating a reserve unit and active unit with the same set of 
equipment. At this same time, the BRAC Commission realigned Air Force 
assets at over 100 facilities, recommending some bases close and others 
realign equipment and personnel. These changes affect 60 percent of all 
Air Guard units.
    Another significant challenge, as reported by GAO in May 2007, is 
finding a sufficient amount of training spaces and funding to re-train 
the large number of airmen who are changing missions. There are also 
concerns with morale as personnel are required to train on new 
equipment mid-career, or worse, to temporarily train on equipment for a 
gap mission only to have to retrain again when the new equipment comes 
on line. To date, the effects on retention have varied by unit.
    Retention levels may have remained strong due to a significant 
increase in bonuses. In fiscal year 2006, the Guard spent $29.5 million 
on re-enlistment bonuses while in fiscal year 2007 the level increased 
to $45.5 million. Fiscal year 2008 projections are comparable to fiscal 
year 2007 levels.
    General McKinley, you have greatly increased the amount of money 
spent on reenlistment bonuses in the last two years. The fiscal year 
2009 budget reverses that trend, requesting only a third of current 
levels. With the retention challenges you are facing, why wasn't more 
funding requested?
    Answer. The Air National Guard faces many budget challenges in 
fiscal year 2009, including recruiting and retention. We recognize the 
level of risk the budget request reflects and are counting on our 
leadership at the unit level as well as the flexibility within the 
budget execution year to continue to help us in the area of retention.
    Due to the importance of achieving retention and recruiting goals, 
often funds are reprogrammed from other programs to address additional 
funding requirements. Unfortunately, we must assume risk in other 
programs to meet the challenges of sustaining a viable reenlistment 
program.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                      new mexico ang f-16 upgrades
    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty force to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
will soon be retired.
    Has there been any thought given to upgrading the Block 30 F-16s 
such as those used by the 150th to enable them to continue providing 
their outstanding service to New Mexico and the United States? What 
type of upgrades?
    Answer. Yes. A portion of the 150th Fighter Wing's F-16 Block 30 
aircraft recently received upgraded radios prior to deployment in 
support of Operation Iraqi Freedom. The Air Force, Air National Guard, 
and Air Force Reserve Command are pursuing the completion of this 
modification for all combat coded Block 30 aircraft. Additionally, the 
150th Fighter Wing's F-16s are fully funded for replacement of the 
aging video tape recording system with a digital video recorder, 
greatly enhancing training effectiveness and post-mission assessment. 
Software releases currently in development will enable employment of 
new weapons such as the small diameter bomb. Numerous hardware 
modification programs for the F-16 Block 30 fleet are detailed in the 
Air National Guard's 2009 Weapons System Modernization Book. These 
efforts include upgraded fire control computers with ethernet 
connections, helmet mounted cueing systems, advanced targeting pod 
improvements, digital radar warning receivers, advanced line-of-sight 
and beyond line-of-sight radios, improved color displays capable of 
image transfer, and advanced interrogators for identification of 
friendly, suspect, and enemy aircraft. With adequate funding, these 
upgrades will greatly enhance the 150th Fighter Wing's ability to 
robustly support in-theater and homeland defense operations.
                          new mexico ang f-35s
    Question. Earlier this year the Air Force Chief of Staff released 
his ``roadmap for the future''. This roadmap names Kirtland AFB as a 
potential bed-down location for the F-35 and the Combat Search and 
Rescue Aircraft (CSAR-X). We are excited that Kirtland AFB and the 
150th Fighter Wing (FW) are included in the roadmap, but there are some 
additional points about Kirtland and the 150 FW that I would like to 
bring to your attention.
  --Kirtland AFB scored the highest of 33 locations on the BRAC 2005 
        score sheet for Air National Guard Fighter sites.
  --Kirtland is the sixth largest Air Force Base in the country with 
        the best airspace, ranges and weather in the country.
  --Multi-role fighter aircraft from Kirtland AFB can provide adversary 
        fighter training for the F-22s at Holloman AFB.
  --These same F-35 aircraft can provide needed air-to-ground fighters 
        for close air support training at Cannon AFB, White Sands 
        Missile Range, and Fort Bliss, Texas
    Kirtland AFB and the 150th Fighter Wing seem to be a natural fit 
for the F-35. What are you doing to develop the F-35 fighter mission 
for the Air National Guard at Kirtland Air Force Base?
    Answer. On January 16, 2008, General Moseley, the Chief of Staff of 
the Air Force, released his strategic roadmap, his long-term plan for 
basing of the next-generation weapon systems. Kirtland Air Force Base, 
New Mexico was listed as a potential bed-down location.
    We assure you Kirtland AFB will receive full consideration and will 
be evaluated to support a potential F-35 mission. Each potential 
location that meets the preliminary requirements is subject to further 
analysis, to include an environmental impact study which is mandated by 
the National Environmental Protection Act. These studies take time and 
will be conducted over the next several years. Kirtland AFB has many 
great qualities which provide for superb flying operations and these 
factors will be considered when the final F-35 basing decisions are 
made.
    The National Guard Bureau continues to advocate for parallel and 
proportional recapitalization of the Air National Guard throughout the 
Air Force's Planning, Programming and Budgeting process. As an 
operational and strategic reserve force, we must continue to meet the 
demands of our mission today while preparing for the challenges of 
tomorrow. Total Recapitalization of our Total Force is vital to our 
Nation's security and we look forward to your support of our efforts.

                          SUBCOMMITTEE RECESS

    Senator Stevens. This subcommittee will next meet on 
Tuesday, May 20, at 11 a.m., at which time we will receive 
testimony from the Secretary of Defense, Robert Gates, on the 
Defense Department's fiscal year 2009 budget request.
    Thank you all very much.
    [Whereupon, at 12:10 p.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene at 11 a.m., Tuesday, 
May 20.]

</pre></body></html>
